<html>
<title> - DROUGHT</title>
<body><pre>[Senate Hearing 113-98]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-98

 
                                DROUGHT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

              EXPLORING THE EFFECTS OF DROUGHT ON ENERGY 
                          AND WATER MANAGEMENT

                               __________

                             APRIL 25, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
85-288                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f180f103f1c0a0c0b171a130f511c101251">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
CHRISTOPHER A. COONS, Delaware       ROB PORTMAN, Ohio
BRIAN SCHATZ, Hawaii                 JOHN HOEVEN, North Dakota
MARTIN HEINRICH, New Mexico

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Carter, Nicole T., Ph.D., Specialist in Natural Resources Policy, 
  Congressional Research Service.................................    33
Connor, Michael L., Commissioner, Bureau of Reclamation, 
  Department of the Interior.....................................     7
Franken, Hon. Al, U.S. Senator From Minnesota....................     5
Manchin, Hon. Joe, III, U.S. Senator From West Virginia..........     6
Mulroy, Patricia, General Manager, Southern Nevada Water 
  Authority, Las Vegas, NV.......................................    24
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     3
Pulwarty, Roger S., Director, National Integrated Drought 
  Information System, National Oceanic and Atmospheric 
  Administration, Department of Commerce.........................    14
Sanders, Hon. Bernie, U.S. Senator From Vermont..................     7
Webber, Michael E., Ph.D., Deputy Director, Energy Institute, 
  Associate Professor, Department of Mechanical Engineering, Co-
  Director, Austin Technology Incubator's Clean Energy Incubator, 
  The University of Texas at Austin, Austin, TX..................    27
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    51

                              Appendix II

Additional material submitted for the record.....................    81


                                DROUGHT

                              ----------                              


                        THURSDAY, APRIL 25, 2013

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman, presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    The Chairman. The committee will come to order. Senator 
Murkowski is trying to juggle. This is particularly a hectic 
day, as you know, with activity on the floor and lots of 
committees. She urged that we start. We'll have her opening 
statement when she gets here.
    My friend from Nevada is going to introduce a witness who 
is especially important to him after the opening statements, 
and we'll proceed at this time.
    This morning, we're going to look at drought and the 
impacts to the energy and water sectors. Water is life, and 
without access to water, the world as we know it ceases to 
exist, or at least to run effectively.
    Last year was the warmest on record and combined with the 
exceptionally dry conditions, severe drought affected over 60 
percent of our country. Again, that was 60 percent of the 
country. The cost of the damages associated with last year's 
drought exceeded $35 billion. That is a very substantial hit 
for our economy to take at a time when we have huge economic 
challenges ahead.
    In addition to last year's drought, the country is seeing 
increasing numbers of extreme weather events, and, 
unfortunately, it seems that drought has become almost part of 
the norm. One reason the committee is focusing on this topic 
today is to better understand how the recent drought conditions 
fit into the overall picture of climate change, and if there 
are lessons to be learned to minimize the impact in the current 
climate and for the future.
    Drought impacts everything from farmers to power plant 
operations and everything in between. Water is a critical 
resource, and yet so often it seems to almost be treated as an 
afterthought.
    In my home State of Oregon, Oregonians are seeing severe 
drought in the Klamath region. The Bureau of Reclamation has 
told me that the Klamath basin has experienced the second 
driest January through March on record. This is a dire 
situation. This area is one of our thorniest watersheds. It has 
caused the Governor of my State and Klamath County to issue 
drought declarations last week.
    In effect, this has become a symbol of the debate over how 
to deal with droughts, and you saw the important Wall Street 
Journal article that recently ran on drought spotlighting what 
was going on in the Klamath basin. The Bureau of Reclamation 
will be a key player in the work to address drought conditions 
and solve the long-term resource disputes in the Klamath and 
other such places across the West, and we have always worked 
with the Bureau in a bipartisan way, and we are going to 
continue to work with them in that fashion to meet our goals.
    Water is also a critical resource for generating 
electricity. It is obviously needed for generating hydropower, 
but it's also critical for cooling in many other types of 
thermoelectric generation, like nuclear, biomass, and coal. For 
those applications, water must not only be sufficiently 
available in quantities, but also be cool enough to allow the 
plants to run safely and efficiently. That means that climate 
change poses a double threat to some of these facilities, 
potentially threatening both water availability and 
sufficiently cool intake water.
    Recent history has demonstrated the vulnerability of the 
power sector to both drought and high temperatures. In 2001, 
for example, severe drought in California and the Pacific 
Northwest resulted in significantly reduced hydroelectric 
generation, causing tight electricity supplies and high prices 
throughout the West. That drought was estimated to have an 
economic impact of between $2.5 billion and $6 billion.
    High temperatures have also curtailed generation. In 2007, 
the Tennessee Valley Authority had to temporarily shut down its 
Brown's Ferry nuclear plant because the intake water 
temperatures were too high. In 2012, the Millstone nuclear 
plant that powers half of Connecticut had to take 40 percent of 
its capacity offline for almost 2 weeks because the cooling 
water it was getting from Long Island Sound was too warm.
    In that same year, the Braidwood nuclear plant in Illinois 
had to get an exemption to use intake water that was 102 
degrees instead of shutting down during a heat wave. The 
situation in Texas may demonstrate both the concerns and some 
of the solutions. During the extreme drought conditions of the 
summer of 2011, Texas made it through with only one power plant 
curtailing.
    They did it because of extraordinary conservation efforts 
by customers, and they were also helped by having a lot of wind 
energy on their system that doesn't require any water at all. 
They also bought power on the spot market, with prices hitting 
an incredible $3,000 per megawatt hour, so consumers definitely 
felt the impact in their power bills.
    The following summer was also hot and dry in Texas, but 
caused less disruption thanks to the steps that I have 
mentioned that their utilities had chosen to adopt. An 
important goal of this hearing is to understand both the risks 
to the power sector and the strategies for mitigating those 
risks.
    Senator Murkowski, we're glad that you have navigated 
traffic and the logistics so you could be with us. Let's have 
your opening statement, and then Senator Heller will introduce 
a witness that is important to him. Also, after Senator Heller 
has done that introduction, Senator Franken and Senator Manchin 
have also asked to make opening statements, and, given the 
importance of this topic, I think we should just waive our 
rules and we're going to allow that.
    Senator Murkowski. Good.
    The Chairman. We'll go in the order of Senator Murkowski, 
Senator Heller for the introduction, Senator Franken, and 
Senator Manchin.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Mr. Chairman, thank you, and I 
appreciate the opportunity for us as a committee to focus on 
water. We talk a lot about energy and energy technologies and 
all the great things that are going to move us to our new 
energy future.
    But I think at the end of the day, we have to remember that 
everything begins with water. So how we address our water 
issues is key, and if we fail to appreciate the nexus between 
energy and water, that's really to our detriment.
    In my Energy 20/20 proposal that I've made available to all 
of my colleagues, we've got one little chapter on the energy-
water nexus. I think that this is critical for us to review, 
and I appreciate the opportunity to do so.
    I think we acknowledge that energy and water resources are 
the foundation of our Nation's economy. They are essential to 
our Nation's future and international security. All forms of 
energy production, energy distribution, fuel extraction, and 
fuel refinement require water or affect water resources in some 
way.
    Every aspect of extraction, treatment, conveyance, and use 
of water, as well as the treatment of wastewater, is dependent 
on sufficient and reliable energy. So it goes both ways. 
Moreover, energy use by these systems is significant 
regionally, which is important to understand as we look at the 
impacts of drought on a regional and local level.
    To improve the fundamental relationship between energy use 
and water use, we need a lot more information, both regarding 
water and energy. Specifically, what I would like to do--and I 
outlined some of this in my Energy 20/20--is to identify all 
existing Federal research authorities and activities that are 
currently authorized to address the interdependency of energy 
and water systems but that, perhaps at this time, are not 
actively doing so.
    Also, ensure that DOE and the DOI have the authority to 
facilitate multi.agency efforts to develop energy and water 
interdependency R&D, and, further, ensure that the DOE and DOI 
develop planning tools to avoid multi.use water conflicts and 
to ensure that energy and water interdependencies are 
coordinated.
    Then, finally, to authorize a coordinated research 
investment by multiple Federal agencies in the development and 
implementation of certain energy-water technologies. These 
technologies should address the interdependency of energy and 
water systems and multi-purpose water and energy system 
planning.
    So, again, Mr. Chairman, I appreciate the focus that the 
committee is giving this. I thank the government witnesses for 
appearing before us today. I hope that we can proceed in the 
near future with legislation to address the issues associated 
with water management and energy and fuel production. I look 
forward to hearing from the panel this morning.
    The Chairman. Thank you, Senator Murkowski. Let me just 
say, having looked at your report a number of times, I think, 
particularly, your R&D recommendations in this area really hold 
out a lot of promise for bipartisan cooperation. We're going to 
work together on that.
    Senator Heller is going to do an introduction, and then my 
colleagues will make opening statements.
    Senator Heller. Mr. Chairman, thank you, and thanks for 
allowing a topic that I agree with the ranking member to be 
critically important, water and energy. I can't think of two 
more important issues facing us.
    It's my pleasure to welcome and introduce to you Nevada's 
Pat Mulroy. I want to note, Mr. Chairman, that I didn't say Pat 
Mulroy from Nevada. She is Nevada's Pat Mulroy. We're very 
possessive----
    The Chairman. I got the drift.
    Senator Heller [continuing]. Because of her efforts and 
hard work. We're grateful for the work she has done over the 
last couple of decades on behalf of the Southern Nevada Water 
Authority. Senator Reid and myself both share a very warm 
friendships, and we both appreciate the relationships we've had 
over the last couple of decades.
    Pat is the General Manager of the Southern Nevada Water 
Authority and the Las Vegas Valley Water District. Let me 
assure you she has a stellar reputation that precedes her. For 
over two decades, Pat has had the incredibly challenging job of 
managing the water resources in southern Nevada. She has been 
at the helm during the incredible land boom that ushered in the 
turn of the last century and shepherded the water authority 
during these challenging economic times.
    The gravity of her job has been compounded by the scarcity 
of water in southern Nevada. As Pat will explain in her 
testimony, the over-appropriated and drought-stricken Colorado 
River is the primary source of water for southern Nevadans.
    Pat has implemented innovative water efficiencies and 
conservation measures, struck agreements with neighboring 
states to maximize the availability and flexibility of Nevada's 
share of the Colorado River, and deftly negotiated treaties 
with Mexico. All the while, the taps have kept flowing in the 
Las Vegas Valley.
    Pat is a leader in her field and well respected by her 
peers. She is the first woman President of the Association of 
Metropolitan Water Agencies and serves on the board of 
directors for the National Water Resources Association and the 
Water Resource Foundation. I know she'll share with you some of 
the work she has been involved in and her perspectives, and I 
want to thank her again for being here today. I look forward to 
her testimony.
    Of course, to all that are here today, thank you very much 
for taking time, as well as those that are in the audience 
listening to the testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Heller. We know Ms. Mulroy 
is important to you and Senator Reid, and we're glad she's 
here.
    Senator Franken.

          STATEMENT OF HON. AL FRANKEN, U.S. SENATOR 
                         FROM MINNESOTA

    Senator Franken. Chairman Wyden, Ranking Member Murkowski, 
thank you for holding this hearing. I think it's an extremely 
important topic that affects so many sectors of our economy, 
and I want to commend you for giving it the attention that it 
deserves.
    As we talk about drought, I think it's important that we 
talk about climate change, which we know is going to result in 
our Nation facing more extreme weather conditions. Last year 
was a remarkable year. The year 2012 was the hottest year on 
record in the continental United States, beating the previous 
record by a full degree, which is actually alarming and 
amazing.
    The impacts of the 2012 drought were felt throughout the 
country. In fact, more than 70 percent of counties in our 
country were considered disaster areas. We are going to hear 
today about the effects of drought and water shortages on the 
energy sector. Last year, we saw serious effects on the ag 
sector. Secretary Vilsack estimated the impact to be around $50 
billion to $60 billion.
    Shipping on the Mississippi River was also seriously 
impacted. In fact, water levels dropped to the point that it 
seriously interfered with our ability to transport agricultural 
goods to market. The waters got so low that shippers had to 
send barges down the Mississippi half full with soybeans, for 
example, which makes our beans less competitive with Brazilian 
beans. In Minnesota, we export about a third of our soybean 
crop, and so this is a serious issue for us.
    Then there's the issue of wildfires. We've heard testimony 
here. When Chief Tidwell testified before the committee last 
year, I asked him about the link between forest fires and 
climate change. He told us that we're seeing longer fire 
seasons on average by more than 30 days.
    Wildfires are larger and cover more area and are more 
intense. Chief Tidwell also told us that scientists at the 
Forest Service thought that climate change was increasing the 
size and intensity of wildfires and extending their season.
    These are very serious issues, and so I would again like to 
thank the chairman and the ranking member for holding this 
hearing. I really do believe that we need to come together, 
Democrats and Republicans, to hold a serious conversation about 
climate change and its effects. I think the droughts are 
clearly one of those effects. This hearing goes a long way to 
begin that conversation.
    Thank you.
    The Chairman. Thank you, Senator Franken. As I've indicated 
before, nobody on this committee has put in more time on this 
climate change issue than you and Senator Sanders. So we are 
really happy to have two consistent champions on this topic.
    Senator Manchin, welcome.

  STATEMENT OF HON. JOE MANCHIN, III, U.S. SENATOR FROM WEST 
                            VIRGINIA

    Senator Manchin. Thank you, Mr. Chairman, Madam Vice 
Chairman.
    I'm not a scientist, but I do think that climate change is 
a world phenomenon, not just in the United States. I know we 
try to beat ourselves up quite a bit that we're totally 
responsible. But it is a world contributor, if you will.
    I'd like to start by acknowledging how lucky that we have 
been in our country to have a relative abundance of fresh and 
clean drinking water. It is one of those things that I think 
all of us can take for granted until it's taken away from us. 
Some of the good people of my State of West Virginia had that 
happen to them last summer. We do have an abundance of good 
water.
    But when we were without water for weeks due to the derecho 
storm--and you would not think about that, and none of us 
thought about that. But it knocked out all of our power, and we 
could not have our plants up and running. So people went for 
weeks without water, and it had a tremendous effect on them. It 
surely brings issues like the availability of water to the 
forefront, and it has in my State unlike ever before.
    There are two types of water usage that are often 
discussed. We have water withdrawal, and then we have water 
consumption. It's important to understand the difference, 
because a lot of our power plants--and West Virginia has an 
awful lot of power plants--our energy users withdraw a lot of 
water, but they don't consume that much.
    What I mean by that--people think, ``Well, my goodness, if 
we shut the power plant down, we wouldn't use all this water.'' 
We don't consume that much water. We withdraw it, but we only 
consume about 3 percent of what we withdraw.
    Our biggest consumer of water is irrigation for 
agriculture. Agriculture, historically, has consumed about 81 
percent of the water we use every day, somewhere around 3 
billion to 4 billion gallons of water a day, and that's 27 
times the water consumption of any power plants, 27 times. I 
just wanted to point that out, to keep it in perspective, 
because it seems to me that we have to look at all the options 
which are on the table here. Maybe there are some options in 
improving the ways we irrigate land.
    But saving water is important, and we need to figure out 
how to do that, and electric power is at the center of that 
question. We're looking right now at using mine water, recycled 
mine water, which we think is a very good use of a resource 
without withdrawing.
    We also know that when we save water, we save energy, and 
when you save water, you save energy because you don't have to 
pump it, move it, or do all those things. That's another 
energy-water nexus that I think we have to look into. So I 
think there's many things that go into all of this, and I just 
hope that we're broad enough to look at everything.
    Thank you.
    The Chairman. Thank you, Senator Manchin. We, in fact, are 
going to do exactly what you said in conclusion, which is to 
look at everything. Your subcommittee, in fact, kind of touches 
almost everything you have for us, and, of course, they are 
dramatically affected by droughts. Senator Merkley and I know 
this so well because of the devastating effects of some of the 
droughts we saw in eastern Oregon and the implication for 
fires.
    Then, of course, you have industry with jurisdiction over 
mining. So you have both ends of it, and we're going to work 
with you.
    Senator Sanders.

        STATEMENT OF HON. BERNIE SANDERS, U.S. SENATOR 
                          FROM VERMONT

    Senator Sanders. Thank you, Mr. Chairman. I want to 
apologize to our panelists. I'm going to have to run soon. 
There's a national security meeting.
    The Chairman. I understand.
    Senator Sanders. I just want to concur with what Senator 
Franken said. Drought is one of the manifestations that we are 
seeing in terms of climate change. We're seeing flooding. We're 
seeing extreme weather disturbances. We're seeing heat waves 
that are taking people's lives all over the world.
    I have to say, Mr. Chairman, I think when history looks 
back at this particular moment, our kids and our grandchildren 
and our great grandchildren are going to ask us where we were. 
Why were we not moving aggressively to prevent the problems 
that exist today and that we know only are going to get worse 
in the future?
    So this is one of those very important issues that has not 
gotten the attention that it deserves, and I look forward to 
working with you and Senator Murkowski on addressing it. So I 
thank you.
    The Chairman. We're sure going to try and change that, 
Senator Sanders. Thank you for all your leadership.
    We're going to go to our witnesses now. You can see the 
enormous interest here in the panel. We also have the good 
fortune of having Senator Merkley, who is not a member of the 
committee, but a member of the Environment and Public Works 
Committee and has great expertise and experience in this area, 
also be part of this.
    So we're going to look forward to all of the views that are 
going to be expressed this morning. Let's begin with Michael L. 
Connor.
    Mr. Connor, welcome.

    STATEMENT OF MICHAEL L. CONNOR, COMMISSIONER, BUREAU OF 
            RECLAMATION, DEPARTMENT OF THE INTERIOR

    Mr. Connor. Thank you, Mr. Chairman. Mr. Chairman, members 
of the committee, I'm Mike Connor, Commissioner of the Bureau 
of Reclamation. I'm pleased to provide testimony regarding the 
effects of drought on energy and water management. On a 
personal level, it's always a pleasure as well as a privilege 
to appear before this committee and work with my former 
colleagues on the committee staff. It's also an honor to be 
here with my esteemed colleagues and experts in the field of 
water resources.
    This spring, as highlighted in NOAA's testimony, much of 
the West, California, the Rocky Mountains, the Southwest, and 
the Great Plains remain in a state of moderate to extreme 
drought. Reclamation's infrastructure anticipates the reality 
of an arid western climate. It is why Reclamation was created, 
and it's why our projects were built.
    Recognizing that drought can never be eliminated and may 
become more common in the future, Reclamation now leverages its 
existing projects alongside new initiatives and enhanced water 
management that helps guard against and mitigate the 
devastating effects of drought. My statement today will 
summarize the activities and the results that we're achieving.
    First, in the area of water operations, Reclamation must 
constantly work with our contractors to adjust operation plans 
to mitigate the impacts of water shortages. In California's 
Central Valley, January through March was the driest on record, 
and April is providing no relief.
    We are currently taking a number of actions within the CVP 
to supplement low contract allocations in certain areas of the 
project. These actions include rescheduling available storage, 
acquiring supplies from willing sellers, diversifying supplies 
to wildlife refuges, and constructing a new intertie between 
the CVP and the State Water Project, providing tens of 
thousands of acre-feet of additional water supply to the 
project.
    A second example concerns the Colorado River. Drought has 
been the norm over much of the past 10 to 12 years. 
Accordingly, a number of operational agreements have been 
executed during this time to incentivize conservation and 
increase the amount of water stored in Lake Mead to avoid or at 
least delay shortages in the lower Colorado River basin. The 
most recent operational agreement is Minute 319 to the 1944 
Colorado River Treaty, an historic arrangement between the 
United States and Mexico that was signed last November.
    Another example includes the Klamath River basin in Oregon. 
Once again, serious drought conditions are plaguing this basin 
in 2013. The low water year pits endangered fish versus 
endangered fish, as one species needs more water in Upper 
Klamath Lake, whereas the other species needs sufficient river 
flows based on releases from that same lake.
    The situation also pits the needs of both sets of fish 
species against the agricultural community in the basin. 
Reclamation has worked with the U.S. Fish and Wildlife Service 
and the National Marine Fisheries Service to develop a new 
operational plan this year intended to maintain protections for 
fish while allowing irrigation operations to proceed during 
this year.
    A second area I want to talk about is WaterSMART. The 
WaterSMART program provides the foundation for Reclamation's 
efforts to achieve a sustainable water supply. Completed 
WaterSMART grant projects along with other conservation 
activities are saving an estimated 616,000 acre-feet per year, 
enough water for more than 2.4 million people. Our current goal 
is to save 790,000 acre-feet per year by the end of 2014.
    About $230 million in Federal funding has also been 
provided for the Title XVI Water Reuse Projects since 2009. 
Eight projects have finished construction since that time, and 
8 others are expected to be completed this year. Project 
sponsors delivered about 295,000 acre-feet of recycled water in 
2012, providing a durable, drought-resistant supply.
    WaterSMART also acknowledges the nexus between energy and 
water use. In addition to saving water over the last 3 years, 
WaterSMART projects across the West have conserved 40 million 
kilowatt hours of electricity annually.
    Third, storage opportunities. It's reasonable to ask what 
role new water storage can play in insulating our country from 
drought in the short or long-term. Reclamation still studies, 
constructs, and maintains large surface storage or other water 
supply projects when authorized by Congress.
    As mentioned in my written statement, under the WaterSMART 
program, there are 17 basin studies complete or underway across 
Reclamation on major river basins in the West. As part of a 
comprehensive assessment of water supply and demand, all of 
these major basin studies will consider potential new storage 
needs.
    Additionally, within the last few years, Reclamation has 
completed or helped facilitate several new storage projects 
that added additional water supplies in critical water short 
basins, Ridges Basin Dam in the Animas River System; Brock 
Reservoir on the Lower Colorado River, water which regulates 
flows and conserves water in Lake Mead; and expansion of the 
Los Vaqueros Reservoir in California's Bay-Delta Region, which 
is perennially water short.
    Fourth, hydropower impacts. Drought impacts hydropower 
production just as much as it affects water supply. Put in 
simple terms, reduced storage equates to less energy. Since 
2001, reduced water availability West-wide has resulted in 11 
percent less average energy production from Reclamation's 
facilities. In the Colorado River System, it's a 16 percent 
reduction.
    Reclamation has responded to these issues by installing 
more efficient turbines, initiating an optimization program, 
and promoting new units on existing facilities. Overall, in the 
last 4 years, Reclamation has worked collaboratively to 
increase generating capacity at our facilities by over 110 
megawatts through turbine upgrades and new units.
    Fifth and finally, Reclamation's legislative authority for 
drought relief. As stated in our testimony before the committee 
last week, the Reclamation Emergency Drought Relief Act is an 
important tool within a comprehensive strategy to prepare for 
and respond to drought. As the committee is aware, the 
authority for Titles I and III of the act expired at the end of 
fiscal year 2012. Our 2014 budget seeks an extension of this 
authority through 2017.
    In conclusion, I would simply note that the problem of 
drought is best addressed proactively through collaborative 
planning, flexible operating agreements, and targeted 
investments that promote more efficient water management and 
sustainable hydropower production.
    Mr. Chairman, I'm ready for questions at the appropriate 
time.
    [The prepared statement of Mr. Connor follows:]

   Prepared Statement of Michael L. Connor, Commissioner, Bureau of 
                Reclamation, Department of the Interior

    Chairman Wyden and members of the Committee, I am Mike Connor, 
Commissioner of the Bureau of Reclamation (Reclamation) at the U.S. 
Department of the Interior. Thank you for the opportunity to testify 
before the Committee today regarding the effects of drought on energy 
and water management.
    As most of us observed, 2012 marked an alarming increase of drought 
conditions in the United States. Under the U.S. Department of 
Agriculture's disaster designation process, 2,254 counties were 
declared primary drought disaster areas in calendar year 2012. This 
month, much of the West remains in a state of moderate to extreme 
drought conditions, one of the most severe in recent decades. As of 
April 17, 2013\1\, 891 counties were designated as primary drought 
disaster areas, but the continuous nature of the drought, coupled with 
the approach of this year's summer season, are obviously of great 
concern to the affected areas. While storms this month have helped ease 
conditions in the Rocky Mountains, the Reclamation states still 
experiencing severe to exceptional drought\2\ are Nebraska, Kansas, 
South Dakota, Texas, New Mexico, Colorado, Wyoming, Arizona, Nevada, 
Oklahoma and California.
---------------------------------------------------------------------------
    \1\ http://www.fsa.usda.gov/FSA/
webapp?area=home&subject=diap&topic=landing.
    \2\ http://droughtmonitor.unl.edu
---------------------------------------------------------------------------
    Almost all Reclamation regions experienced low precipitation and 
runoff during 2012, raising the critical need for precipitation in 
2013. Significant impacts were avoided in most regions last year mainly 
due to carryover storage, but it has become clear that the remaining 
winter snow pack will provide very little carryover to mitigate 
conditions in 2013. As of early April, runoff from the Colorado River 
and its tributaries into Lake Powell was at only 38 percent of average, 
and the reservoir itself held just 47.4 percent of capacity. Downstream 
on the Colorado at Lake Mead, Reclamation's other major facility on the 
Colorado, storage is at 50 percent capacity. Power production is also 
reduced in the face of reduced reservoir storage.
    To be clear from the outset, Reclamation addresses drought as part 
of its core mission, operating its core infrastructure, as an entity 
established at the turn of the last century to provide water in the 
arid West. Reclamation was established as a water management agency, 
with its statutory framework gradually built upon individual project 
authorizations and financial partnerships with water users to insulate 
communities and rural economies against disruption in their water 
supplies. Dealing with drought conditions was then and continues to be 
a significant part of Reclamation's mission. Today, many of 
Reclamation's activities address drought through the use of enhanced 
water management that helps guard against and to a certain extent 
mitigate the devastating effects of drought, for example, through 
conservation. My statement today will summarize those activities and 
the results we are achieving.

                    WATER OPERATIONS AND OTHER TOOLS

    Reclamation continues to operate its infrastructure within the 
inherently wide framework of hydrologic variability that defines the 
western United States year-after-year. Given this dynamic, Reclamation 
must constantly be prepared to work with our contractors to adjust 
annual operation plans in an attempt to mitigate the impacts of water 
shortages. As an example, given the ongoing drought in California, we 
are currently taking a number of actions associated with the Central 
Valley Project (CVP) to provide additional supplies to supplement low 
contractual allocations. These actions include rescheduling available 
storage, acquiring supplies from willing sellers; diversifying supplies 
to wildlife refuges that are served by project water; and constructing 
a new intertie between the CVP with the State Water Project that has 
provided more flexibility to pump water when it's available, adding 
tens of thousands of acre-feet of additional water supply to the 
project on an annual basis.
    A second example concerns the Colorado River basin which has 
suffered through drought conditions for much of the last decade. 
Reservoir levels have plummeted and there were strong concerns during 
the early part of 2011, that the lower Colorado River basin would 
suffer shortages for the first time ever. A number of operational 
agreements have been executed over the last 10-15 years to incentivize 
conservation and increase the amount of water stored in Lake Mead--all 
with the idea of mitigating the impacts of long-term drought. The most 
recent agreement is Minute 319 to the 1944 Colorado River treaty, a 
historic arrangement between the United States and Mexico that was 
signed last November, providing a range of binational benefits 
including (1) allowing Mexico to make use of storage capacity in Lake 
Mead at its discretion; and (2) ensuring the availability of additional 
water supplies to U.S. entities through conservation and efficiency 
improvements in Mexico.
    A final example includes the Klamath River basin in Oregon. 
According to the State's Governor, drought conditions are plaguing this 
basin in 2013. The low water year pits endangered fish versus 
endangered fish as one species needs more water in Upper Klamath Lake, 
whereas the other species needs sufficient river flows based on release 
from the Lake. This situation also pits the needs of both sets of fish 
species against the water supply needs of the agricultural community in 
the basin. Reclamation has worked with biologists in the U.S. Fish & 
Wildlife Service and the National Marine Fisheries Service to develop a 
new operational plan this year, intended to maintain protections for 
the fish while allowing irrigation operations to proceed during this 
year.
    Overall, Reclamation and its customer community continue to 
experience impacts from ongoing drought and are using as many 
operational tools as are available to respond. These tools include:

  <bullet> using excess capacity of project facilities for storage and 
        conveyance of project and non-project water for use both within 
        and outside of project boundaries (consistent with applicable 
        authorities)
  <bullet> purchase of water (from willing sellers) for ESA purposes 
        and to mitigate losses and damages to communities from drought
  <bullet> regulating the quantity and timing of reservoir releases 
        (consistent with agreements), and
  <bullet> educating producers confronted with reduced water supplies 
        on research-based irrigation scheduling and management 
        strategies.

                               WATERSMART

    The wise use of water enables water users to optimize and stretch 
their finite supplies in every year. The Department's WaterSMART 
(Sustain and Manage America's Resources for Tomorrow) program provides 
the foundation for Reclamation's efforts, in partnership with those 
water users, to achieve a sustainable water supply. It includes efforts 
of Reclamation and the U.S. Geological Survey (USGS) to improve water 
conservation and help resource managers make sound decisions about 
water use. It is a prominent feature in the Department's Fiscal Year 
2014 budget request, and functions as the Department's implementation 
of the SECURE Water Act, Title IX Subtitle F of Public Law 111-11.
    Consistent with Secretarial Order 3297, the Department's 
implementation of WaterSMART includes funding locally cost-shared water 
management improvements that today are saving significant amounts of 
water. Completed WaterSMART grant projects, along with other 
conservation activities, are saving an estimated 616,000 acre-feet per 
year--enough water for more than 2.4 million people--and our current 
goal is to save 790,000 acre-feet per year by the end of 2014. Since 
2009, about $94 million worth of WaterSMART grants has enabled 158 
projects to proceed, leveraging federal funding to implement more than 
$280 million in water management improvements across the West. About 
$231 million in federal funding has also been provided for Title XVI 
Water Reclamation and Reuse Projects since 2009\2\. Eight projects have 
finished construction since that time, and eight others are expected to 
be completed in 2013. Project sponsors delivered about 295,000 acre-
feet of recycled water in 2012, providing a drought-resistant supply 
and new flexibility for water managers.
---------------------------------------------------------------------------
    \2\ Includes regular annual appropriations and ARRA (PL 111-5).
---------------------------------------------------------------------------
    The assessment of water supply challenges and impacts at the local 
level is the subject of ongoing activities within the WaterSMART Basin 
Studies Program and West-Wide Climate Risk Assessments (WWCRAs). The 
WWCRAs will continue Reclamation's development of consistent and 
comprehensive baseline projections of risks and impacts to Reclamation 
operations due to the impacts of climate change and other water 
resource challenges. WaterSMART Basin Studies are complete or underway 
today on 17 river basins\3\, all of them looking 50 years or more into 
the future. They are funded through a 50-50 Federal/non-Federal cost 
share and, when completed, each study will identify adaptation 
strategies that can alleviate imbalances between water supply and 
demand. All of this is geared toward providing real-world, practical 
results: preparing our facilities and the customers that help us 
operate them to continue delivering benefits in the future. 
Reclamation's customers, including farms, cities, power users, 
recreationalists, and our ecosystem programs that support the country's 
fish and wildlife species all rely on the stability provided by the 
existing water infrastructure in the West. We are looking ahead, 
through inevitable periods of drought, to maximize the benefits of 
these projects for decades into the future.
---------------------------------------------------------------------------
    \3\ Los Angeles Basin, Pecos River, Republican River, Sacramento-
San Joaquin River, Upper Washita River, Hood River, Klamath River, 
Lower Rio Grande, Santa Fe Basin, Henry's Fork of the Snake River, 
Niobrara River, Santa Ana River, Southeast California Region, Truckee 
River, Colorado River, St. Mary and Milk Rivers, Yakima River.
---------------------------------------------------------------------------
    WaterSMART also acknowledges the nexus between energy and water 
use. In addition to saving water, WaterSMART projects across the West 
have conserved 40 million kilowatt-hours of electricity annually--
enough power for 3,400 households--and additional savings are targeted 
for the future. Additional milestones are described in the program's 
three-year progress report, online at http://www.usbr.gov/WaterSMART.
    Reclamation is committed to continuing WaterSMART, and it is 
anticipated that the program will exhaust its authorized appropriations 
for WaterSMART's water and energy efficiency grants in the next year. 
Therefore, in order to continue use of this highly valuable program 
which is significantly contributing to drought resiliency in the West, 
an increase in the authorization ceiling will be needed. A requested 
amendment to Section 9504(e) of the Secure Water Act of 2009 (42 USC 
10364(e)), raising the ceiling from $200 million to $250 million, is 
part of the Appropriations language section of Reclamation's FY 2014 
budget request.

                                STORAGE

    The ability to use storage and conveyance resources to mitigate 
future hydrologic variability, changing water demands, constraints on 
operations, and changes in runoff seasonality are key determinants of 
whether these natural runoff changes will translate into significant 
management impacts. It is reasonable to ask what role new water storage 
can play in insulating our country from drought, in the short or long 
term. Reclamation still studies, constructs and maintains large surface 
storage or other supply projects, when authorized by Congress, and in 
fiscal year 2014, Reclamation has a construction budget of more than 
$140 million for a variety of projects.
    As mentioned above, there are 17 Basin Studies complete or underway 
across Reclamation on major river basins in the West under the 
WaterSMART Program, authorized by the SECURE Water Act. All of these 
major Basin Studies will consider potential new surface storage needs, 
as directed in the Act at Section 9503(b)(4)(e). Reclamation is also at 
work studying four major surface storage proposals in California, which 
if constructed, would be integrated with the existing Central Valley 
Project. But while important, surface storage in the Reclamation study 
and construction budgets has been joined by significant obligations for 
dam safety, and the modernization or repair of infrastructure built 
generations ago. For many reasons--political, economic, and social--the 
construction of new surface storage projects is being undertaken on a 
much more limited basis than in decades past. New societal priorities 
and advancements in scientific knowledge support increased focus on 
ecosystem restoration, adverse impact mitigation, efficient management, 
wastewater reclamation, and conservation as cost-effective ways to 
maximize existing surface water storage. These priorities have become 
central parts of the Reclamation vision today, and can provide 
significant quantities of new water supply in a very cost efficient 
manner.
    There are roughly three dozen Reclamation dam projects, project 
features or other storage facilities across the West that were 
authorized by Congress but, for one reason or another, were never 
funded or constructed. The stories vary, but the most frequent reasons 
center around economics or an inadequate potential water market 
associated with the given facilities. In other cases, environmental, 
safety or geologic challenges came to light during projects' 
development and rendered their construction, completion or operation 
infeasible. Political opposition often contributed, leaving the 
proposals ``on the books'' awaiting further action, but with external 
events and new priorities passing them by.
    Nonetheless, within the last few years, Reclamation has completed 
or helped facilitate several new storage projects that added additional 
water supplies in critical basins. These recent projects include (1) 
the completion of Ridges Basin Dam as part of the Animas-La Plata 
project and Colorado Ute Tribes Settlement; (2) Brock Reservoir on the 
Lower Colorado River, which helps regulate flows and conserve storage 
in Lake Mead; and (3) Los Vaqueros Reservoir expansion in California's 
Bay-Delta Region, a perennially water short area. Reclamation will 
continue to look at storage opportunities, both surface and subsurface, 
that make technical and financial sense and can help improve overall 
water management.

                              COOPERATION

    Last year, the Department of the Interior joined the National 
Integrated Drought Information System Office (NIDIS), the Western 
Governors Association and several other groups and agencies in hosting 
the National Drought Forum (NDF) in December 2012. The NDF included a 
series of plenary and breakout sessions to discuss the extent of the 
2012 drought and outline actions that could help with drought response 
going forward. A draft NDF Report was released in February and 
highlights have been provided to local entities to provide strong 
examples of steps that can be taken to prepare for ongoing drought 
conditions.
    The President triggered development of another initiative through 
his directive to ``help the Midwest and states, like Colorado, move 
faster on projects that help farmers deal with worsening drought.'' 
Building on regional meetings held in the summer and fall of 2012 to 
hear concerns from affected communities, a Central U.S. Drought 
Mitigation Regional Team (DMRT) was formed in February to facilitate 
collaboration among Federal agencies (and their respective 
stakeholders) with ongoing and/or planned programs or projects. This 
effort will be focused on the States of Colorado, Kansas, Nebraska and 
Iowa. Reclamation is among the cooperating agencies in this effort 
which is being led by the U.S. Department of Agriculture (USDA), with 
participation from the Army Corps of Engineers and the National Oceanic 
and Atmospheric Administration.

                    LEGISLATIVE AUTHORITY ON DROUGHT

    Reclamation's primary approach to drought is to continue working 
with our stakeholders on a proactive basis to assess the implications 
of water shortages, develop flexible operational plans that account for 
expected periods of drought, and support projects that conserve water 
and improve the efficiency of water delivery infrastructure. Federal 
Drought relief is a ``last resort'' to be employed only in the most 
extreme of cases. However, given the extreme weather conditions 
currently facing many parts of the nation, we will continue to consider 
ideas to make drought relief even more effective through improved 
interagency cooperation and other changes.
    Since 1991, Reclamation has had authority under the Reclamation 
States Emergency Drought Relief Act of 1991, Public Law 102-250 
(Drought Act), to provide drought assistance to states and tribes. 
However, Titles I and III of that authority expired on September 30, 
2012, and have not been reinstated. Under Title I of the Drought Act, 
Reclamation has provided emergency drought relief assistance most often 
through the emergency deepening and drilling of new private wells. 
Reclamation has also provided relief assistance through executing 
temporary leases and water service contracts, hauling water for 
domestic use, installing water measurement equipment, furnishing 
removable pipe for irrigation, issuing loans for acquisition and 
transportation of water, and providing water on a temporary basis to 
meet requirements under the ESA. Title II of the Drought Act authorizes 
Reclamation to provide planning and technical assistance related to 
drought planning, preparation, and adaptation strategies to all states, 
tribes and territories. This permanent authority allows Reclamation to 
assist non-Federal entities to prepare for drought so that they are 
less vulnerable when drought inevitably happens. However, that 
assistance is dependent upon funding as authorized under Title III of 
the Act.
    While the Drought Act is in some measure an inherently reactive 
authority, and not the primary focus of Reclamation's drought-related 
strategies, it nonetheless is an important tool and for that reason, 
Reclamation's 2014 Budget seeks an extension of the authority through 
2017.

                               CONCLUSION

    The problem of drought is best addressed proactively through 
collaborative planning, targeted investments and an emphasis on water 
conservation, all of which we are focusing on through WaterSMART and 
other initiatives. Droughts and dry weather are not new to the arid 
West. The water infrastructure constructed by Reclamation and our 
partners in the West was built to mitigate for that reality. As the 
region continues to grow and experience changes in climate and the 
economy, we will continue to evaluate and plan for the impacts of 
drought. This year, we will continue to seek efficiencies in our 
infrastructure, continue to operate to that reality, and through 
programs like WaterSMART, continue to fund proposals by our customers 
to accomplish water-saving efficiencies of their own.
    In the longer term, the Department is working every day to equip 
our agencies, partners and other resource managers with the data they 
need to answer the questions they face about water supply and use and 
to continue delivering water and power in the face of drought and our 
changing global climate. We value our partnership with Congress to 
bring the best thinking to the challenge of drought and climate change. 
These challenges will impact nearly every facet of Reclamation's 
operations, so as new solutions to these complex problems arise, we 
will pursue those as well.
    Chairman Wyden, thank you for the opportunity to discuss these 
important topics. I would be pleased to answer questions at the 
appropriate time.

    The Chairman. Very good. Thank you.
    Let's have our next witness, Dr. Roger Pulwarty.

 STATEMENT OF ROGER S. PULWARTY, DIRECTOR, NATIONAL INTEGRATED 
 DROUGHT INFORMATION SYSTEM, NATIONAL OCEANIC AND ATMOSPHERIC 
             ADMINISTRATION, DEPARTMENT OF COMMERCE

    Mr. Pulwarty. Good morning, Chairman Wyden, Ranking Member 
Murkowski, and members of the committee. My name is Roger 
Pulwarty. I'm Director of the National Integrated Drought 
Information System at NOAA. Thank you for inviting me to speak 
with you today about drought and its impacts.
    Drought is part of the American experience from the still 
vivid events of the 1930s and the 1950s to the present, with 
2012 ending as one of the driest years on record with the most 
extensive conditions since 1934. Impacts crossed a broad 
spectrum, from energy and agriculture to recreation and 
wildfires, costing $35 billion in agriculture alone, not 
counting impacts to recreation and other sectors.
    Low river levels threaten commerce on the Mississippi 
shipping lanes and reduced hydropower generation on the 
Missouri. Today, drought conditions persist for most of the 
West. Recent droughts demonstrate how dry conditions and high 
temperatures can affect the energy sector through its 
dependence on water resources and provide lessons as we go into 
the future.
    Specific examples of impacts drawn from the NIDIS partners 
across the country follow. In 2007, during the Southeast 
drought, power plants from Atlanta to Raleigh cut back water 
use. North Carolina customers faced blackouts as water 
shortages forced Duke Energy to cut its output. This severe 
drought, lasting through 2009, threatened the cooling water 
supplies of 24 of the Nation's 104 nuclear power reactors, 
including the well known Browns Ferry nuclear plant.
    The severe 2011 drought in Texas and across the South also 
reduced power plant cooling reservoirs to record low levels 
with the associated heat concurrently increasing peak 
electricity demand. The manager of the Aspen Petroleum Pipeline 
in south Texas placed several requests with NOAA for short and 
medium-range seasonal temperature updates to help inform his 
company's decisions about energy production.
    Drought impacts can persist over multiple years. In 
California, over 2001 to 2011, the ratio of hydropower to total 
generation fluctuated between 12 and 22 percent, a 10 percent 
variation completely dependent on drought conditions.
    The Colorado basin, as was just mentioned, is undergoing 
the second driest 12-year period on record. The Western Area 
Power Administration informed us that they have been forced to 
add a surcharge to customer bills to pay for hydropower losses 
and to make up for alternative power purchases.
    These events also highlight the potential benefits of 
climate and weather information for managing risks at the water 
interface. NOAA and its partners are developing weather and 
climate information to support water and energy sectors in the 
Southwest, including how seasonal and year-to-year climate 
affects generation of power and the reliability of water 
supply.
    As a look ahead, we know that the physical drivers of 
drought in the U.S. are linked to sea surface temperatures in 
the tropical Pacific and Atlantic oceans, together with local 
land conditions and weather. Important features of the 2012 
drought included the rapid expansion of dry conditions from 28 
percent in the U.S. in May to over 60 percent by July, what we 
now term a flash drought.
    The year 2012 was also the warmest year on record. High 
temperatures have been shown to exacerbate drought conditions 
in the past, and in some regions, droughts are expected to be 
more severe or prolonged with increasing temperatures. During 
the past 2 months, conditions have improved across some of last 
year's intense drought areas in the North Central Plains, the 
Upper Mississippi Valley, and the Southeast.
    However, drought persistence, a new development, as well as 
above normal temperatures are forecast for west and south 
Texas. Several basins in the West are now below 50 percent of 
normal with some actually below 25 percent. California and 
Oregon are experiencing their driest and third driest springs 
respectively on record, and we are forecasting little or no 
prospects for improvement after April.
    Recent snows in the mid Rockies have brought watersheds 
above 85 percent on the eastern section of the basin, but with 
snowpack still only above 60 percent in the San Juan and 
southern Rockies, including the Rio Grande head waters. Great 
Lake water levels are forecast to remain well below long-term 
average, while persistence and development of drought are 
anticipated for the Hawaiian Islands.
    Some improvement is forecast for North Central Alaska, 
where mountain snowpack was 50 to 75 percent as of the first of 
March. The national drought outlook for the next 3 months, 
developed by NIDIS and its interagency and State partners, is 
provided as an appendix to this testimony.
    In December 2012, NIDIS drew on its Federal partners and 
State collaborators, USDA, Interior, the Corps of Engineers, 
several Governors associations, to convene a National Drought 
Forum. The forum highlighted the need to increase public 
awareness of drought, to increase technical assistance for 
impacted communities, and also to ensure support for sustained 
monitoring and data collection critical for effective drought 
response, such as the NRCS Snowpack Telemetry sites, the USGS 
Stream Gauge and Water Census.
    These activities will build on the Department of Commerce-
USDA MOU signed in December 2012. They will also build upon 
existing successful partnerships, such as the Climate and Water 
Working Group led by the Bureau of Reclamation with NOAA, the 
Corps of Engineers, and other partners to bring together water 
managers and scientists. In addition, the Western Water Federal 
Support Team, representing 12 Federal agencies, was established 
in 2008 to support the Western States Water Council and the 
western Governors in coordinating Federal activities.
    To help the Nation's energy resilience to drought, NOAA 
will work with its partners to improve the regional outlooks 
for weather and climate conditions and potential impacts on 
critical sectors, understand which energy sources and plants 
are in particular drought sensitive locations, and the links 
between regional climate variability and hydrologic processes, 
such as ground water recharge that can help support economic 
activities over the long term.
    Engagement among Federal agencies and non-Federal partners 
is critical, and NIDIS has played a role in leading those. 
Information in this testimony is drawn from NIDIS and its many 
Federal, State, tribal, and private partners, including NOAA 
centers, such as the Physical Sciences Division, the River 
Forecast Centers, the National Drought Mitigation Center at the 
University of Nebraska in Lincoln, the U.S. Corps of Engineers, 
WaterSMART, the Water Census, the Western Governors 
Associations, and State climatologists.
    Thank you for the opportunity to speak with you today.
    [The prepared statement of Mr. Pulwarty follows:]

Prepared Statement of Roger S. Pulwarty, Director, National Integrated 
     Drought Information System, National Oceanic and Atmospheric 
                 Administration, Department of Commerce

    My name is Roger S. Pulwarty and I am the Director of the National 
Integrated Drought Information System (NIDIS) at the National Oceanic 
and Atmospheric Administration (NOAA). It is my honor to be here today. 
Thank you for inviting me to speak about our program, report on the 
information and data that have been made available to local, State, and 
regional water decision-makers, and how we can improve the information 
for anticipating and managing current and future drought conditions.
    The NIDIS was established via the National Integrated Drought 
Information System Act of 2006 (Public Law 109-430, hereafter the NIDIS 
Act), which builds on longstanding efforts among agencies and 
institutions that have historically focused on drought risk assessment 
and response. The NIDIS Act prescribes an interagency approach, led by 
NOAA, to ``Enable the Nation to move from a reactive to a more 
proactive approach to managing drought risks and impacts.'' Our goals 
are to (a) improve public awareness of drought and attendant impacts 
and (b) improve the coordination and capacity of counties, states and 
watershed to reduce drought risks proactively.
    An important feature of the weather conditions in 2012 was the 
persistence of the areas of dryness and warm temperatures, the 
magnitude of the extremes, and the large area they encompassed. Broad 
sectors were affected and continue to be affected by the 2012 drought. 
Impacts include, but are not limited to, reduction in crop yields and 
commerce on major river systems.
    In my testimony I will highlight what we know about the following 
questions and issues:

  <bullet> How did we get here? Status and antecedent conditions.
  <bullet> What are the impacts in the energy sector and where are they 
        occurring?
  <bullet> What information is being provided and by whom? Are 
        information needs being met?
  <bullet> How bad might it get and how long will it last?
  <bullet> What can be done to improve the use of drought and other 
        climate information to manage risks and opportunities in the 
        energy sector?

    Information for this testimony is drawn from NIDIS and its 
supporting partners including NOAA's Climate Prediction Center, NOAA's 
Earth System Research Laboratory's Physical Sciences Division, NOAA's 
National Climate Data Center, NOAA's River Forecast Centers, NOAA's 
Regional Integrated Sciences and Assessments, the National Drought 
Mitigation Center (NDMC) at the University of Nebraska Lincoln, the 
U.S. Army Corps of Engineers, the Department of the Interior 
(specifically the U.S. Geological Survey (USGS) and the Bureau of 
Reclamation), the U.S. Department of Agriculture's (USDA) Office of the 
Chief Economist and Natural Resources Conservation Services, the 
National Aeronautics and Space Administration (NASA), the National 
Interagency Fire Center, the Western Governors' Association, the 
Western States Water Council, Regional Climate Centers, State 
Climatologists, and State and Tribal Water Resources Departments, among 
others.
    Drought is part of the American experience. Severe, long-lasting 
droughts have occurred in the Southwest during the 13th century, and in 
the central and lower Mississippi Valley in the 14th through 16th 
centuries. The great Civil War drought of 1861-1864 led to the first 
water rights agreement in the West--in the San Luis Valley in the state 
of Colorado where I live. In the 20th century, droughts in the 1930s 
(Dust Bowl era) and 1950s were particularly severe and widespread. In 
1934, 65 percent of the contiguous United States was affected by severe 
to extreme drought. These extreme events, including droughts of shorter 
duration but nevertheless severe, such as in 1977, have been felt 
throughout economies, ecosystems, and livelihoods, and certainly shaped 
much of the planning and practice surrounding modern water resources 
management and related decisions.
    Since 2000, the total U.S. land area affected by drought of at 
least moderate intensity has varied from as little as 7 percent of the 
contiguous U.S. (August 3, 2010), to 46 percent (September 10, 2002) 
and over 60 percent of the Nation in the last year (July 3, 2012). 
Based on weekly estimates of the areal extent of drought conditions 
since 2000, the average amount of land area across the United States 
affected by at least moderate-intensity drought annually has been 25 
percent.
    As mentioned earlier, an important feature of the weather 
conditions in 2012 was the persistence of the areas of dryness and warm 
temperatures, the magnitude of the extremes, and the large area they 
encompassed.
    Figure 1 (attached)* shows the progression of drought conditions 
since 2010 to the present. The year 2012 began with about 32 percent of 
the contiguous U.S. in moderate to exceptional drought with three areas 
of moderate to exceptional drought in the Southern Plains and moderate 
to extreme drought in the Southeast--with areas of moderate to severe 
drought in the Upper Mississippi Valley and moderate drought in the Far 
West. As the year progressed, the western drought expanded to link with 
the Southern Plains drought area and new drought areas developed along 
the East Coast, pushing the national drought area to 38.2 percent by 
May 1st.
---------------------------------------------------------------------------
    * Figure has been retained in committee files.
---------------------------------------------------------------------------
    Drought re-intensified suddenly in May and strengthened through 
July and August, which inhibited summertime convection/rainfall and 
some locations experienced exceptionally dry conditions with 30-60 days 
having no precipitation event. An interagency task force on drought 
that includes NOAA, NASA, and works with NIDIS, recently released a 
report on the cause of this re-intensification. One of the causes of 
this drought re-intensification was the unusual high pressure that 
reduced the southward push of cold fronts from the North that typically 
serves to organize rainfall during this time. Only 1934 had more months 
with more than 60 percent of the contiguous U.S. in moderate to severe 
drought.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The 10 driest years in the record since 1895, ranked in order of 
their summer (May-August) rainfall in the Midwest deficits are: 2012, 
1934, 1936, 1901, 1976, 1913, 1988, 1953, 1911, and 1931. The deficit 
in rainfall over the Midwest in 2012 was -34.2 mm, which was about 53 
percent of the region's long-term mean rainfall (73.5 mm). This deficit 
broke the record of -28.4 mm observed in 1934. In May and June (Figure 
1, attached), a zonal ridge of high pressure anomalies inhibited the 
typical southward push of cold fronts from Canada that often serve to 
organize widespread rains.
    Many local records were also set last year. For instance, on June 
26, Red Willow, Nebraska set a temperature record of 115 degrees, 
eclipsing the 114-degree mark set in 1932. Twenty eight states east of 
the Rockies set temperature records for the six-month period, putting 
further pressure on agricultural irrigation requirements and direct 
plant crop stress, on energy demands for cooling and water storage 
management.
    The following summarizes key features of the 2012 drought as 
experienced across different regions of the U.S. over the year (Figure 
1, attached):

  <bullet> Persistent and anomalous heat resulted in the warmest month 
        ever in July 2012, and 2012 was ranked as the warmest year on 
        record for the contiguous U.S.
  <bullet> During the May--July growing season, dry weather dominated 
        across the agricultural areas in the Central Plains to the 
        Midwest.
  <bullet> The anomalous warmth increased evaporation and intensified 
        drought conditions during the growing season.
  <bullet> As the year progressed, the western drought expanded to link 
        with the Southern Plains drought area and new drought areas 
        developed along the East Coast.
  <bullet> Record heat and near-record dryness occurred in Colorado, 
        contributing to numerous wildfires.
  <bullet> Several states had record dry seasons: Arkansas (April-June 
        and other seasons), Kansas (May-July), Nebraska (June-August 
        and other seasons), and South Dakota (July-September).
  <bullet> The prolonged dryness in parts of the Southeast gave Georgia 
        the driest December-November 24-month period (December 2010-
        November 2012) on record.
  <bullet> Several river basins have experienced unusually dry 
        conditions during 2012, with the Upper Colorado having one of 
        its driest years in the 1895-2012 period in the record.
  <bullet> The spatial pattern of drought this year closely overlaid 
        the agricultural area of the U.S. heartland, and the excessive 
        temperatures and lack of rain during the critical growing 
        season severely reduced corn and soybean crop yield.
  <bullet> The extreme severity of the dryness and evapotranspiration 
        demand over the growing season resulted in a rapid increase in 
        the percent area of this agricultural belt experiencing 
        moderate to extreme drought (as defined by the Palmer Drought 
        Index) and moderate to exceptional drought (for the Midwest and 
        High Plains as defined by the U.S. Drought Monitor (USDM)).
      drought, water and energy: recent impacts across the nation
    Drought affects energy production in a variety of ways. For 
example, some regions are dependent on water supplies for hydropower 
and/or thermal power plant cooling; temperature increases during 
periods of drought reduce overall thermoelectric power generation 
efficiencies; and altered conditions can affect facility siting 
decisions. Recent significant droughts have demonstrated how dry 
conditions and high temperatures affect the energy sector due to their 
high dependence on water resources. But these events have also 
highlighted the potential benefits of reliable climate and weather 
information for improving energy-water strategies. The need for this 
type of information is increasing as the awareness of the central role 
of water for energy production, and industry's expanding understanding 
of the role of energy in water management, also increases.
    In 2000, U.S. electricity production accounted for 41 percent of 
national freshwater withdrawals, roughly the same as for irrigated 
agriculture.\1\ Much of this water is used for cooling purposes and 
discharged back to the source water body. Electricity production 
accounts for 3 percent of all water consumption in the U.S. By 2040, 
the Energy Information Administration expects U.S. primary electricity 
demand to grow by roughly 10 percent (to almost 43 percent of total 
withdrawals)--placing an additional burden on freshwater supplies\2\ 
that in many parts of the country will already be stressed by 
increasing population pressures, climate change, and other factors.
---------------------------------------------------------------------------
    \1\ Averyt, K., J. Macknick, J. Rogers, N. Madden, J. Fisher, J. 
Meldrum, R. Newmark. 2012. Water use for electricity in the United 
States: an analysis of reported and calculated water use information 
for 2008. Environ. Res. Lett. 8 015001 doi: 10.1088/1748-9326/8/1/
015001,
    \2\ EIA 2013 Annual Energy Outlook.
---------------------------------------------------------------------------
    A Summary of Impacts from the Colorado State Drought Plan Energy 
Sector Vulnerability Assessment of 2010\3\ summarizes some of the 
possible impacts of drought on energy supply in both the short and long 
term:
---------------------------------------------------------------------------
    \3\ Colorado Water Conservation Board (CWCB). (2010). Colorado 
Drought Mitigation and Response Plan. Annex B. Energy Sector 
Vulnerability Assessment pp. B119-158. Retrieved from http://
cwcb.state.co.us.

  <bullet> Decreased power generation due to inadequate water supply 
        for evaporative cooling
  <bullet> Increased costs for power providers to purchase additional 
        water during drought
  <bullet> Decreased hydropower generation due to lower water reservoir 
        levels
  <bullet> Change in power supply mix and operation costs can result in 
        increased price for electricity
  <bullet> Discharge temperature limits could result in prolonged plant 
        shutdowns
  <bullet> Severe power cutbacks could result in rolling blackouts
  <bullet> Environmental impacts could result from shifts in power 
        production depending for instance on changing peak times for 
        hydropower demand
  <bullet> Increased intake water temperatures can decrease plant 
        efficiency and cooling ability
  <bullet> Plant shut downs may occur due to water levels dropping 
        below intake elevations
  <bullet> Increased costs for mining operations to obtain water rights
  <bullet> Decreased power generation activity due to inability to 
        obtain additional water rights
  <bullet> The energy sector's ability to obtain more water rights may 
        require transferring water rights from other sectors (e.g. 
        agriculture) to the energy/power sector to meet the increased 
        water demand

    To illustrate the breadth and importance of these above potential 
impacts on the energy sector, a number of specific examples follow 
(drawn from NIDIS partners in Federal, state and tribal agencies 
including NOAA's Regional Integrated Sciences and Assessments (RISAs), 
National Weather Service Field Offices and River Forecast Centers, 
Regional Climate Centers, U.S. Army Corps of Engineers, USGS, and the 
Bureau of Reclamation, all of which contribute directly to the NIDIS 
early warning systems)\4\:
---------------------------------------------------------------------------
    \4\ Synthesis of drought impacts reported in the Energy Sector. 
Reports based on NOAA-funded activities across the Regional Sciences 
and Assessments Program, Regional Climate Centers, NIDIS Early Warning 
System partners including the University of Nebraska National Drought 
Mitigation Center. California Drought Plan 2010, A Synthesis Report in 
preparation: J. Macknick, S. Satter, K. Averyt, S. Clemmer, J. Rogers, 
2012: The water implications of generating electricity: water use 
across the United States based on different electricity pathways 
through 2050. Environ. Res. Lett. 7 045803 doi:10.1088/1748-9326/7/4/
045803

  <bullet> The 2007-2009 severe drought in the Southeast threatened the 
        cooling water supplies of more than 24 of the nation's 104 
        nuclear power reactors.
  <bullet> When drought affected the Southeast US in 2007, power plants 
        from Atlanta, GA to Raleigh, NC cut back their water use, 
        resulting in North Carolina customers facing blackouts as water 
        problems forced Duke Energy to cut output at its G.G. Allen and 
        Riverbend coal plants on the Catawba River. In addition, Duke 
        Energy was working hard to keep the water intake system for its 
        McGuire nuclear plant underwater as water levels dropped.
  <bullet> Also in the 2007 Southeast US drought, the Browns Ferry, AL 
        nuclear plant had to drastically reduce its output to avoid 
        exceeding the temperature limit on discharge water to the 
        Tennessee River.
  <bullet> A severe drought in Texas in 2011 affected many power 
        plants' cooling water reservoirs, while associated heat 
        increased peak electricity (air conditioning) demands:

    --11,000 megawatts (MW) of Texas power plants had cooling water 
            reservoirs at record low levels and 3,000 MW of plants were 
            considered ``at risk'' (of shutting down) if drought 
            conditions persisted.

  <bullet> In the end of 2011, the Barnett Shoals Dam, near Athens, GA 
        had not been operating at capacity due to the combined low 
        level of the Oconee River and increased levels of 
        sedimentation.

    --According to one of the dam's owners, ``We do not have an 
            adequate source of water to operate at anywhere close to 
            capacity, but we are very cognizant of the water levels. In 
            fact, we do minimize the amount of water passing through 
            our turbines.'' Neighbors downstream of the dam expressed 
            some frustration at the fluctuation in the already low 
            river level when the turbines ran.
    --However, as of April 2013, the U.S. Army Corps of Engineers has 
            ended drought operations in this river basin (the 
            Apalachicola-Chattahoochee-Flint River Basin) due to recent 
            above-normal rainfall. Reservoir storage across the Basin 
            is now at capacity.

  <bullet> Hydropower generation is an important source of low-cost, 
        clean electricity in California. Hydro units also provide 
        electricity during peak demand periods. During the period. From 
        2001 to 2011, the contribution of hydropower to the total 
        generation in California varied from 12 to 22 percent depending 
        on drought conditions and other demands. A difference of 10 
        percent, driven by the availability of water, is a huge amount 
        representing a substantial cost to California. For California, 
        the 2009 winter season snow pack water content was 39 percent 
        below normal impacting the state's ability to generate 
        hydropower, with a 62 percent reduction in hydropower 
        generation at Lake Oroville from October 1, 2008 to January 31, 
        2009. (Present conditions are discussed further below.)
  <bullet> In late 2012, according to the U.S. Army Corps of Engineers, 
        six hydropower plants on the Missouri River produced 
        approximately 127 kWh less than average December production. 
        Drought conditions resulted in diminished flow in the Missouri 
        River, yielding less hydropower production. Power generation is 
        expected to be 8 billion kWh in 2013, compared to average 
        production of 10 billion kWh in previous years.
  <bullet> Ethanol production in Iowa declined, through voluntarily 
        adopted restrictions by  20 percent since the beginning of 
        2012 as high corn prices, combined with reduced corn production 
        from drought and heat, raised concerns over the amount of corn 
        used in ethanol production.
  <bullet> At some hydropower facilities, drought conditions may lead 
        utility or power managers to purchase more expensive and/or 
        carbon-intensive power from alternate sources. For example, the 
        Western Area Power Administration (WAPA) saw declining 
        hydroelectric generation starting in 1999, as reservoirs 
        declined due to drought. In response to these conditions, WAPA 
        had to purchase power (typically from thermoelectric power 
        plants in the region) in order to meet energy contract 
        obligations. The WAPA has been forced to add a surcharge to 
        customers' bills to pay for losses incurred during the past 
        decade of drought when hydropower generation was down and 
        alternative power was purchased at a higher cost. The surcharge 
        is intended to end by September 2017, when it is hoped that the 
        agency will have recouped its losses, unless low flow 
        conditions persist.
  <bullet> Drought conditions may also cause extraordinary demand for 
        electricity, which can lead to adverse effects to communities 
        as power generation fails to meet demand. In July 2012, the 
        Nebraska Public Power District (NPPD) had to turn to temporary 
        electrical outages in north central Nebraska to deal with the 
        extraordinary demand for electricity on the night of July 18-
        19. A spokesman for the NPPD stated that demand had exceeded 
        previous daily records for peak utility use on 19 of the 
        previous 22 days, due to heat and drought.

    In addition to these specific and direct adverse impacts to the 
energy/power sector, drought can also lead to other negative impacts, 
including environmental effects, disruptions to navigation and shipping 
(that also affects transportation of coal and other fuel), facility 
siting decisions, impacts to farmers due to necessary transfer of water 
rights to the energy sector, and impacts to the outdoor recreation 
economy. A few specific examples include\5\:
---------------------------------------------------------------------------
    \5\ Synthesis of drought impacts reported in the Energy Sector. 
Reports based on NOAA-funded activities across the Regional Sciences 
and Assessments Program, Regional Climate Centers, NIDIS Early Warning 
System partners including the University of Nebraska National Drought 
Mitigation Center. California Drought Plan 2010, A Synthesis Report in 
preparation: J. Macknick, S. Satter, K. Averyt, S. Clemmer, J. Rogers, 
2012: The water implications of generating electricity: water use 
across the United States based on different electricity pathways 
through 2050. Environ. Res. Lett. 7 045803 doi:10.1088/1748-9326/7/4/
045803

    In August 2012, the Illinois Environmental Protection Agency was 
allowing four coal-fired, and four nuclear, power plants to release 
hundreds of millions of gallons of hot water near 100 degrees 
Fahrenheit into state lakes and rivers, according to the Chicago 
Tribune. At the same time, a number of fish kills were reported in the 
area. None of the fish kills in the state that year, however, were 
---------------------------------------------------------------------------
linked directly to the hot water from the power plants.

  <bullet> In the Mississippi river region, drought affected the area 
        throughout the year and by November 2012, river water levels 
        were severely diminished. This had impacts to power production 
        along the river and its tributaries, as well as impacts to 
        navigation and shipping.
  <bullet> The manager of Aspen Pipeline placed several requests with 
        NOAA for short- and medium-range (i.e., seasonal) temperature 
        outlook information to help inform his company's decisions 
        about energy production in south Texas.
  <bullet> As one final example, Duke Energy operates many different 
        types of power plants (nuclear, coal-fired, oil/gas-fired, 
        pumped-storage hydro) in the Carolinas--all of which are 
        dependent on water resources for some part of their operations. 
        Drought affects how Duke Energy--and other companies like 
        them--balance individual plant requirements, energy demand, and 
        water availability within their entire system.
  <bullet> Colorado Rafting declined 17 percent in 2012, the lowest 
        since 2002

    Energy companies are forced to use a variety of sources of 
information for their operations and planning, including in-house 
resources, private consultants, external drought management advisory 
group, and many of NOAA's existing products and services. In some 
instances, however, these existing forecasts and other products might 
not be accurate enough to be used to make specific operational and 
management decisions. This is one area where improvements (i.e., 
seasonal drought forecasts) would be valuable. In summary, many sectors 
face drought impacts across a broad range, as described here, and they 
require reliable information to balance their operations and meet 
requirements.
    Attached to this testimony is the interagency regional drought 
outlook from April 12, 2013, developed by NOAA/NIDIS in partnership 
with its partners in Federal, State, and tribal agencies.*
---------------------------------------------------------------------------
    * Document has been retained in committee files.
---------------------------------------------------------------------------
    Some improvement is expected across the northeast quarter of Texas 
with forecasts indicating a wet pattern during early-to-mid April 
across this region. Persistence and development are forecast for west 
and south Texas where the CPC seasonal outlook favors below median 
precipitation and above normal temperatures.
    Some improvement forecast for the northern and central Plains is 
based largely on the annual cycle of precipitation and the absence of a 
dry signal in the CPC monthly/seasonal precipitation outlooks. Forty to 
fifty percent of the annual precipitation occurs during April, May, and 
June (AMJ) across much of the northern and central Plains. However, 
this designation of improvement does not imply elimination of drought, 
just a possible easing of conditions. Adequate precipitation during May 
and June and a lack of early summer heat waves are critical for any 
improvement to occur.
    According to the National Operational Hydrologic Remote Sensing 
Center on April 2, snow-water equivalent values range from 2 to 5 
inches across the upper Mississippi Valley. It is unclear how much of 
the spring runoff can recharge the dry subsoils. AMJ is a relatively 
wet time of year for the upper Mississippi Valley. The 6-10/8-14 Day 
outlooks from April 3 favor above median precipitation in this region. 
Due to these factors, improvement is expected across the upper 
Mississippi Valley. Prospects for improvement are highest across 
southeast Minnesota and Wisconsin where drought levels are less intense 
and the seasonal outlook favors above median precipitation.
    Persistence is expected for much of Colorado, New Mexico, Utah, 
Nevada, and Arizona due to low snow-water equivalent values (around 75 
percent of normal) and below average streamflows forecast for the 
spring and early summer. Enhanced odds for below median precipitation 
and above normal temperatures during AMJ also favor persistence. Recent 
wetness, expected short-term precipitation, and the lack of a dry 
signal during AMJ lead to a forecast of some improvement across 
northeast Colorado. Recent snows last week has brought snowpack up to 
around 85 percent but with the Southwest Basins of the San Juan at 
around 60 percent of normal. Forecast confidence for Colorado, New 
Mexico, Utah, Nevada, and Arizona is high.
    Similar to the interior Southwest, snow-water equivalent values are 
also below average across California and southern Oregon. Following a 
wet start to the winter, unseasonably dry conditions affected these 
areas during the past three months. According to the USDM on April 4, 
abnormal dryness (DO) covers northern California and parts of southern/
eastern Oregon. Below median precipitation is favored during AMJ across 
these same areas. Therefore, persistence and development is forecast 
for this region. Precipitation typically decreases rapidly later in the 
spring with little to no prospects for improvement after April. 
Forecast confidence for California and southern Oregon is high.
    Snow-water equivalent values are running slightly below average 
across the northern Rockies. Since tools on most time scales offer weak 
precipitation signals, persistence is forecast for the northern Rockies 
and adjacent Plains. However, forecast confidence is low since AMJ is 
relatively a wet time of year across most of Montana and Wyoming. 
Forecast confidence for the northern Rockies is low.
    Recent above-normal snow (April, 2013) in the mid-Rockies has 
brought watersheds up to 85 percent but with snowpack still hovering 
above 60 percent in the San Juan and southern Rockies, including the 
Rio Grande headwaters.
    Mountain snowpack was 50 to 75 percent of normal on March 1, 2013 
across the drought area in north-central Alaska which is a slight 
increase from one month ago. Some improvement is forecast for this 
region.
    Moderate to extreme drought covers western sections of the 
individual Hawaiian Islands from Oahu southeastward through the Big 
Island. Persistence is forecast for these leeward areas since odds for 
improvement decrease significantly during May and June. Individual 
basins in California, Oregon, Nevada, Arizona and New Mexico are at 25-
49 percent of normal, with some in the Southwest at below 25 percent of 
normal. Only some basins in Washington have snow- water equivalent 
(SWE) in excess of 110 percent at this time. In sum, drought will 
persist or intensify in much of the western U.S. Improvement is 
anticipated in the center of the U.S. and in areas of the southeast, 
including much of Florida. In April and May significant fire potential 
will exist over most of Florida as lingering drought keeps fuels dry. 
Most of the rest of the eastern U.S. will have below-normal significant 
fire potential as active storm patterns keep conditions wet and cool. 
Cool and wet conditions will keep southern Alaska significant fire 
potential below normal. In June and July the wildland fire potential 
shifts from the red and gray hatched areas to the western U.S. 
Significant fire potential will be above -normal in the mountains and 
foothills of southern California. Significant fire potential will 
increase to above normal over northern California and the Northwest. 
Significant fire potential will decrease to normal in Florida, 
Minnesota, Iowa, New Mexico and Arizona. Water levels are recovering to 
some extent on the Mississippi River due to recent rain, and now easing 
transportation problems along the river. Great Lakes water levels are 
forecast to remain well below long-term averages.
    working together to increase the nation's resilience to drought
    The number of watershed, State, and local drought and water plans 
using NOAA-based information has significantly increased since NIDIS 
was initiated in 2007. Part of the support that NIDIS has generated and 
the ability of the program to meet the needs of the Nation are a result 
of the strong partnerships that the program has with other agencies, 
outreach organizations, and an enabling set of programs and 
observational capabilities.
    Together with the U. S. Army Corps of Engineers, NOAA, and the 
USGS, the Bureau of Reclamation has formed the Climate Change and Water 
Working Group (C-CAWWG) to bring the water managers and climate 
scientists together to create efficient research and development (R&D) 
collaborations and information sharing across the federal agencies 
toward understanding and addressing climate change impacts on Western 
water supplies and water use.
    In addition to joint reports, the Bureau of Reclamation, the U.S. 
Army Corps of Engineers, NOAA and the USGS, as part of C-CAWWG 
coordination, are developing detailed descriptions of information and 
tools that water managers need from the science agencies and other 
researchers. Furthermore, the Interagency group WESTFasT (with 
representatives from 12 Federal agencies) was established in 2008 to 
support the Western States Water Council (WSWC) and the Western 
Governors Association in coordinating Federal efforts regarding water 
resources.
    Perspectives from both State and local water managers have been 
sought and the Bureau of Reclamation is providing input to NOAA as it 
plans for the next generation of Global Circulation Models (GCMs) to 
define the types of outputs that will be of most value to water 
managers. NOAA and the Bureau of Reclamation are participating in the 
Postdocs Applying Climate Expertise (PACE) Fellowship program to 
sponsor research activities focused on water management needs.
    In December 2012 NIDIS and its partners convened a National Drought 
Forum (hereafter, ``the Forum'') hosted at the National Governors 
Association Hall of States here in Washington D.C. The Forum was co-
chaired by Dr. Robert Detrick, the NOAA Assistant Administrator for 
Oceanic and Atmospheric Research and Dr. Donald Wilhite, founder of the 
NDMC. The Forum featured keynote addresses from Secretary Vilsack 
(USDA), Gov. Brownback of Kansas and the NOAA Deputy Administrator Dr. 
Kathryn Sullivan (currently NOAA Acting Administrator). The Forum was 
co-sponsored by the National, Mid-Western, Southern and Western 
Governors' Associations, the U.S. Army Corps of Engineers, and the 
Department of the Interior and saw significant participation at high 
levels by these agencies and by regional and local agriculture, health, 
and water managers. The goals of the Forum were: ``To understand the 
extent of 2012 drought impacts and response in 2012, and help provide 
new information and coordination for improving the nation's drought 
readiness for 2013 and in the future.''
    Among other issues, discussions at the National Forum highlighted 
the need to:

  <bullet> Increase public awareness of last year's drought and 
        potential impacts for this year;
  <bullet> Increase technical assistance for the communication and use 
        of drought-related information in impacted communities 
        including efforts through the NIDIS regional early warning 
        systems in partnership with NDMC; and
  <bullet> Ensure sustained support for monitoring programs and 
        equipment critical to understand and respond to drought, e.g. 
        the National Resources Conservation Service SNOwpack TELemetry 
        (SNOTEL) sites; and the Water Census led by the USGS.

    NOAA will be happy to provide a copy of the Forum Report to this 
Committee when it is final. Through the Economic Development 
Administration and NIDIS, the Department of Commerce (DOC) is working 
closely with USDA and other agencies within the National Disaster 
Recovery Framework for Drought, with a strong focus on the recovery 
needs and sustainability of rural communities. Critical preliminary 
efforts will be built on the DOC-USDA Memorandum of Understanding (MOU) 
announced at the Forum and signed by the Secretary of Agriculture and 
the Acting Secretary of Commerce in December 2012. This MOU is aimed at 
improving cross-agency collaboration on drought risk reduction. The 
agreement is intended to (1) strengthen Commerce's and USDA's 
development and delivery of relevant local and regional drought 
information services to agricultural, forestry, rural economies, and 
related sectors; and (2) foster improved understanding by end-users in 
these sectors of the value and use of weather and climatological 
information and its integration with social and economic information, 
in planning and operational activities for farming and forestry 
communities.
    For some regions actions in preparation for the upcoming season are 
being undertaken. In the Midwest, land dedicated to sorghum--which 
tolerates drought better than other grains--will rise by 22 percent, or 
566,000 hectares (1.4 million acres) over last year. It is both the 
largest absolute and largest relative increase of any crop for the 2013 
season. The USDA expects farmers to plant a total of 3.1 million 
hectares (7.6 million acres) of sorghum, which is the most since 2008. 
Sorghum acreage has climbed 40 percent in the last two years.\6\
---------------------------------------------------------------------------
    \6\ USDA, 2013: Prospective Plantings Report. National Agricultural 
Statistics Service (NASS), Agricultural Statistics Board, United States 
Department of Agriculture (USDA) www.usda.gov/nass/PUBS/TODAYRPT/
pspl0313.pdf
---------------------------------------------------------------------------
    NOAA-supported projects are examining potential climate change and 
variability adaptation strategies in the water and energy sectors in 
the Southwest, including how climate influences the market price of 
water. Researchers are developing tools, as well as guidelines for 
using these tools, to enhance water supply forecast reliability and 
management. Researchers are developing improved methods for predicting 
and adapting to climate impacts for the generation of electricity. 
Partners include NOAA/University of Colorado Western Water Assessment, 
U.S. Bureau of Reclamation, USDA, Arizona Dept. of Water Resources, 
Central Arizona Project, Salt River Project, Arizona Electric Power 
Cooperative, Arizona Public Service Corporation, Tucson Electric Power, 
Nature Conservancy-Western Regional Office, Environmental Defense, and 
the Sonoran Institute. NOAA is also working with California Energy 
Commission on climate forecasts and change for energy applications.
    The following actions could be taken to improve the Nation's energy 
resilience to drought:

  <bullet> Greater understanding of which energy plants and sources are 
        susceptible to water shortages in particular drought-sensitive 
        locations. For instance, the impact of increased biofuel 
        production on water resources will depend on where the 
        feedstock is grown and whether or not irrigation is required. 
        Collaborative activities among NOAA and other agencies could 
        include evaluating the likelihood and consequences of the 
        shortages, and options that are available to prevent/mitigate 
        the consequences in the short to long term.
  <bullet> Improved understanding of links between climate and 
        hydrological processes, including aquifer recharge rates and 
        groundwater movement. In the absence of such data and research, 
        developing and implementing effective policies could continue 
        to be a challenge for Congress and federal agencies.
  <bullet> Improved coordination among federal agencies and other 
        stakeholders especially regarding the quality and use of 
        climate and weather information at the energy-water interface. 
        Some agencies, including NOAA, have taken steps to improve 
        coordination.

    To achieve a more comprehensive vision of a truly ``national 
integrated drought information system'' requires improvements that 
NIDIS has already begun to address. These include:

  <bullet> Improving the understanding and predictability of droughts 
        across a variety of timescales for seasonal, to interannual and 
        decadal time scales including the role of precipitation events 
        in reducing drought duration and intensity;
  <bullet> Improving collaboration among scientists and managers to 
        enhance the public awareness and effectiveness of observation 
        networks, monitoring, prediction, information delivery, and 
        applied research;
  <bullet> Improving the national and regional drought information 
        framework by transferring successful approaches (information 
        development, products, capacity, and coordination) to areas 
        covered by the drought portal, but not yet having active early 
        warning systems;
  <bullet> Improving coordination between institutions that provide 
        different types of drought early warning;
  <bullet> Developing impact indicators to form part of a comprehensive 
        early warning system; and
  <bullet> Working with the private sector and others on guidance and 
        standards for developing value-added products to support 
        drought preparedness plans.

    Thank you for the opportunity to be with you today.

    The Chairman. Thank you very much, Doctor.
    Welcome, Ms. Mulroy. Welcome again, since Dean Heller has 
given you the first one.

STATEMENT OF PATRICIA MULROY, GENERAL MANAGER, SOUTHERN NEVADA 
                 WATER AUTHORITY, LAS VEGAS, NV

    Ms. Mulroy. Thank you, Senator. Chairman Wyden, Senator 
Murkowski, members of the committee, I appreciate this 
opportunity to testify on this very important topic. I'd like 
to take this opportunity to thank Senator Heller for his kind 
welcome and assure him that we in Nevada know how fortunate we 
are that he is representing our interests back here in 
Washington, DC.
    My name is Patricia Mulroy, and I am the General Manager of 
the Southern Nevada Water Authority, lead negotiator for the 
State of Nevada in all interstate and international matters on 
the Colorado River. I'm here today on behalf of the water 
utilities throughout the United States, since I'm currently 
president of the Association of Metropolitan Water Agencies and 
a trustee of the Water Research Foundation.
    Around the world, water utilities are finding themselves on 
the frontline of extreme weather events. The effects of a 
severe and prolonged drought have been particularly apparent in 
the desert Southwest, especially in southern Nevada. In 2002, 
after only 2 years of the now 1-year drought, we went from 
having a reliable 50-year water plan to facing the reality of 
immediate, severe, and debilitating shortages.
    My experience reflects the challenges facing the American 
Southwest, where the flows of the Colorado River support more 
than 30 million people and irrigate about 15 percent of the 
Nation's crops. Since 2000, the 7 states that share the 
Colorado have witnessed cumulative flows drop 13 trillion 
gallons below average. The latest 2-month projection for the 
next year forewarns possibly the lowest releases into Lake Mead 
since the filling of Lake Powell.
    The most critical consequence of such prolonged droughts is 
developing a quick and lasting adaptation strategy. The obvious 
first reaction is to reduce consumer consumption. In the new 
environment in which we find ourselves, however, this plan has 
to reflect a permanent change in water use habits, not a short-
term drought response.
    My agency adopted one of the Nation's most aggressive water 
conservation programs, having paid our customers to date nearly 
$200 million to remove grass and replace it with desert 
vegetation. This has resulted in reducing our annual water use 
by approximately 29 billion gallons, even as our population 
swelled by 400,000 inhabitants. Today, the residents of 
southern Nevada can proudly claim a net water use of 75 gallons 
per person per day, and that in the driest city of the United 
States.
    Next, we immediately began to build a new intake deeper 
into Lake Mead at a cost of almost $1 billion, paid for 
entirely by our customers. Finally, we are developing a water 
supply that is hydrologically independent of the Colorado 
River.
    As a river community sharing a resource with 6 neighbors in 
the United States and the country of Mexico, the impacts are 
being felt by all of us. For all of us, the need to cooperate 
has never been greater. Therefore, the importance of the 
Interim Shortage Agreement, signed by the States in 2007, and 
Minute 319 that Mike referenced, signed with Mexico last 
November, cannot be ignored.
    Seven states and one foreign country have agreed to set 
aside their differences and cooperatively work to protect all 
the users of this river and the environment as well. Further, 
regional wholesalers in the lower basin, meaning Metropolitan 
in Southern California, Central Arizona Water Conservation 
District, and ourselves, are banking water together and funding 
projects to extend the resources of this fragile river. Today, 
Lake Mead is 10 feet higher than it would normally be because 
of the efforts of these 3 agencies and Mexico.
    Even the most thoughtful and prudent strategies won't work 
if they cannot be implemented. Adapting to challenges ranging 
from severe drought to heavy precipitation or rising sea levels 
requires investment in water infrastructure. As stated earlier, 
just our one intake project cost nearly $1 billion, and that's 
one project in one community. Considering all of the water 
agencies that will likely be affected by extreme weather 
events, the financial implications are staggering.
    We know that local ratepayers in all of our communities 
will face significant rate increases even if all the various 
Federal infrastructure proposals are enacted. That burden 
becomes that much more onerous if municipal bonds lose their 
tax-exempt status. We urge you to resist any attempt to remove 
this exemption.
    I cannot come before you today without addressing the 
critical need for research, focused, applied research. The 
development of adaptation strategies requires actionable 
research that explores the full range of impacts on water 
utilities, both in the water supply and water quality realms. 
To that end, we recommend the Federal Government partner with 
the Water Research Foundation to optimize the value of research 
investments.
    Americans have a remarkable ability to overcome adversity. 
Southern Nevada and the larger community have proven that with 
courage, resilience, and tenacity. We in the water industry 
respectfully ask that you support our efforts to adapt to and 
surmount the challenges we are facing due to dramatically 
shifting climate conditions.
    Thank you.
    [The prepared statement of Ms. Mulroy follows:]

Prepared Statement of Patricia Mulroy, General Manager, Southern Nevada 
                     Water Authority, Las Vegas, NV

                              INTRODUCTION

    Chairman Wyden, Senator Murkowski and members of the committee, I 
appreciate the opportunity to testify on this important topic. My name 
is Patricia Mulroy, and I am the General Manager of the Southern Nevada 
Water Authority, a regional agency that manages water resources for 2 
million residents and nearly 40 million annual visitors. In addition to 
my role with the Water Authority, I serve as the lead negotiator for 
the State of Nevada in all interstate and international matters on the 
Colorado River. I am here today on behalf of water utilities throughout 
the United States. I am currently the President of the Association of 
Metropolitan Water Agencies and a Trustee of the Water Research 
Foundation, as well as being an active member of the American Water 
Works Association and a founding member of the Water Utility Climate 
Alliance.
    Around the world water utilities are finding themselves on the 
front line of extreme weather and climate events. Ours is not an 
abstract discussion of future impacts. Nowhere have the effects of a 
severe and prolonged drought been more apparent than in the desert 
southwest, particularly in Southern Nevada. Due to the arid nature of 
the Mojave Desert and our virtually exclusive reliance on the Colorado 
River, we yearly adopt a 50-year resource plan. In 2002, after only 2 
years of this now-13-year drought, we went from having a reliable 50-
year plan to facing a reality of immediate severe and debilitating 
shortages.
    My experience reflects the challenges facing the American Southwest 
where the flows of the Colorado River support more than 30 million 
people and irrigate 15 percent of the nation's crops. Since 2000, the 
seven states that share the Colorado have witnessed cumulative flows 
drop 13 trillion gallons below average. The latest 24-month projection 
for the next year forewarns possibly the lowest releases into Lake Mead 
since the filling of Lake Powell. Other regions are also seeing effects 
of drought, particularly the farming communities along the Mississippi 
and Missouri System.

                               ADAPTATION

    The most critical consequence of such prolonged droughts is 
developing a quick and lasting adaptation strategy. The obvious first 
reaction is to reduce customer consumption. In the new environment in 
which we find ourselves, however, this plan has to reflect a permanent 
change in water use habits, not a short-term drought response. My 
agency adopted one of the nation's most aggressive water conservation 
programs, having paid our customers nearly $200 million to remove grass 
and replace it with desert vegetation. This has resulted in reducing 
our annual water use by approximately 29 billion gallons even as our 
population swelled by 400,000 inhabitants. Today the residents of 
Southern Nevada can proudly claim a net water use of 75 gpcd in the 
driest city in America. Next, we immediately began to build a new 
intake deeper within Lake Mead at a cost of almost $1 billion, paid for 
entirely by our customers. Finally, not knowing how long or how severe 
this drought will be, we are developing a water supply that is 
hydrologically independent of the Colorado River.
    As a river community sharing a resource with six neighbors in the 
United States and the country of Mexico, the impacts are being felt by 
all of us. In California, officials are not only grappling with these 
worsening Colorado River conditions, but a drought in the Sierra Nevada 
watershed and restricted use of in-state supplies. For all of us, the 
need to cooperate has never been greater. Therefore, the importance of 
the Interim Shortage Agreement, signed by the States in 2007, and 
Minute 319, signed with Mexico last November, cannot be ignored. Seven 
States and one foreign country have agreed to set aside their 
differences and cooperatively work to protect all the users of this 
river and the environment as well. Further, the Metropolitan Water 
District of Southern California, the Central Arizona Water Conservation 
District, and the SNWA are banking water together and funding projects 
to extend the resources of this fragile river. Today Lake Mead is ten 
feet higher than it would normally be because of the efforts of these 
three agencies and Mexico.

                     FINANCING WATER INFRASTRUCTURE

    Even the most thoughtful and prudent strategies won't work if they 
cannot be implemented. Adapting to challenges ranging from severe 
drought to heavy precipitation or rising sea levels requires investment 
in water infrastructure. As stated earlier, our new Lake Mead intake, 
which will cost nearly $1 billion, is only one project in one 
community. Considering all of the water agencies that will likely be 
affected by extreme weather events, the financial implications are 
staggering.
    Senator Merkley's ``Water Infrastructure Finance and Innovation 
Act,'' which is based on the Transportation Infrastructure Finance and 
Innovation Act, is an avenue for financing water infrastructure that 
would provide municipal water agencies the necessary capital to enact 
adaptation strategies. This legislation would create a $500 million 
federal loan guarantee program to provide low-interest loans, loan 
guarantees, or other credit for larger projects that would be funded by 
the U.S. Treasury.
    To be clear, I feel strongly that water agencies should be 
financially self-sufficient. These funds would be subject to repayment 
by municipal water agencies, which historically are among the country's 
most secure borrowers. I urge the Senate to pass S. 335, which was also 
included as part of the Water Resources Development Act of 2013 (S. 
601) that just passed the Senate Environment and Public Works Committee 
in March.
    Similar legislation has also been introduced in the House by 
Congresswoman Lois Capps--the Water Infrastructure Resiliency and 
Sustainability Act of 2013 (H.R. 765). The principles encompassed in 
this legislation represent pragmatic solutions to a complex problem. 
The legislation would authorize a new Environmental Protection Agency 
program that prioritizes funding for those utilities facing immediate 
and significant negative impacts from extreme changes in hydrology. 
Also, it offers competitive matching funds to water, wastewater, and 
stormwater agencies for water conservation and efficiency projects, 
water quality improvement, and rebuilding or relocation of threatened 
infrastructure.
    Having highlighted several pieces of legislation that would be 
helpful, I find I must point to measures being considered that will 
make funding critical projects even more difficult. We know that 
ratepayers in all of our communities will face significant rate 
increases even if the identified legislation passes. That burden 
becomes that much more onerous if municipal bonds lose their tax-exempt 
status. The impact on residents and small businesses will be staggering 
and cannot help but negatively impact job growth in this country. We 
urge you to resist any attempt to remove this exemption.

                                RESEARCH

    I cannot come before you today without addressing the critical need 
for research--focused, applied research. The development of adaptation 
strategies requires actionable research that explores the full range of 
impacts to water utilities, both in the water supply and water quality 
realms. To that end, we recommend the federal government partner with 
the Water Research Foundation to optimize the value of research 
investments. For the past two years, Congress has funded an extramural 
research competitive grant program though the EPA, which is focused on 
applied drinking water and wastewater research. I ask that the Senate 
continue to fund the grant in FY 2014. This applied research will help 
provide information that water managers need to make sound policy 
decisions.
    Americans have a remarkable ability to overcome adversity. Southern 
Nevada and the larger community have proven that with courage, 
resilience and tenacity. We in the water industry respectfully ask that 
you support our efforts to adapt to and surmount the challenges we are 
facing due to dramatically shifting climate conditions. Thank you for 
your time.

    The Chairman. Thank you very much, Ms. Mulroy.
    Dr. Webber.

STATEMENT OF MICHAEL E. WEBBER, PH.D., DEPUTY DIRECTOR, ENERGY 
   INSTITUTE, ASSOCIATE PROFESSOR, DEPARTMENT OF MECHANICAL 
 ENGINEERING, CO-DIRECTOR, AUSTIN TECHNOLOGY INCUBATOR'S CLEAN 
ENERGY INCUBATOR, THE UNIVERSITY OF TEXAS AT AUSTIN, AUSTIN, TX

    Mr. Webber. Mr. Chairman and members of the committee, 
thank you very much for the invitation to speak before your 
committee on the effects of drought on the energy sector. My 
name is Michael Webber, and I'm the Deputy Director of the 
Energy Institute at the University of Texas at Austin, and I'm 
here to share my perspective.
    This testimony will make a few key points. First, the 
energy sector is heavily dependent on water, as you noted in 
your opening remarks. Second, the water constraints from 
drought or heat waves can become energy constraints. Third, 
there are technical and policy solutions available.
    So, with the first point, the energy sector's dependence on 
water introduces vulnerability to drought as a key concept. The 
energy sector uses a lot of water. Namely, water is needed for 
power generation and for fuels production. It's also used for 
refining in other steps, but the production of the fuels and 
the generation is the most important.
    For power generation, we use water directly to spin 
hydroelectric turbines at dams and indirectly as a coolant for 
thermoelectric power plants. For fuels production, we use water 
to grow energy crops and to extract oil and gas.
    I'm going to start with the power sector. The 
thermoelectric power sector, comprised of power plants that use 
heat to generate power, including those that operate on 
nuclear, coal, natural gas, or biomass fuels, is the single 
largest user of water in the United States.
    Cooling of power plants is responsible for 39 percent of 
non-consumptive fresh water use and is responsible for total 
withdrawals of 200 billion gallons of water every day. But 
because most of that water is returned to its source, the power 
sector is responsible for only 3 percent of national water 
consumption, as was noted by Senator Manchin.
    The amount of water used by power plants depends on the 
type of fuel--coal, gas, nuclear, wind, et cetera--the type of 
power cycle--steam cycles versus combined cycles--and the 
cooling technology, as well as the prevailing climate. So there 
are many factors that determine how much water is used by the 
power plants, and a table is provided with those details for 
you. Nuclear is the most water intensive, and solar panels, 
wind, and natural gas combined cycle are water lean for power 
plants.
    Referring to Senator Manchin's remarks earlier, there are 
two types of water use, the non-consumptive and the consumptive 
use. Consumptive water use is important because it has an 
impact on water availability for other users. Non-consumptive 
water use is also important--these are the withdrawals--because 
they affect the power sector's reliability and impact the 
environment through potential impingement of aquatic life and 
thermal loading of waterways. This is when the waterways get 
heated by the power plants.
    If water is too scarce or too hot from droughts or heat 
waves, then the electric grid might be less reliable and power 
plants might need to turn off or dial back because of a need to 
comply with the thermal pollution limits. That could have 
cascading effects through other sectors, affecting refineries, 
the gas distribution grid, water systems, and so forth, and 
that introduces a significant risk to economic activity and 
human health.
    For example, during the heat wave in France in 2003 that 
was responsible for nearly 10,000 deaths, nuclear power plants 
in France had to reduce their power output because of the high 
inlet temperatures of the water. Eventually, that caused a dial 
back of power, and that was a risk to human life there.
    Then there's other heat waves that put U.S. power plants at 
risk as well, and then droughts also have this effect of 
lowering water levels behind dams and reducing the availability 
of cooling water for power plants. During the drought in the 
southeastern United States in 2008, nuclear power plants were 
within days of turning off. We had the drought in India last 
year that triggered the power outage that affected 600 million 
people.
    So we know droughts can affect the reliability of the 
energy sector. Because thousands of power plants in the United 
States are located in the region covered by last year's 
drought, we know that we are at risk for some of these same 
problems.
    There are several ways to reduce the vulnerability of the 
power sector to droughts and heat waves. We can install or 
switch the fuel to water-lean forms, like solar, wind, natural 
gas combined cycle. We could switch the cooling technology to 
water-lean forms, like dry cooling or hybrid wet-dry cooling, 
because not all power plants need wet cooling all the time. We 
could also switch the water source to effluent or wastewater or 
saline or mine water, as mentioned earlier.
    The fuel sector also needs water. Water is used for 
conventional oil and gas production, for techniques such as 
water flooding to get oil and gas out of the reservoirs. It's 
also used to grow biofuels. Biofuels need something like 1,000 
gallons of water per gallon of fuel. Compare that with a couple 
of gallons of water per gallon of fuel for conventional oil and 
gas. So this means that biofuels are also at risk from drought, 
just as the power plants are.
    Shale oil and shale gas production typically requires 
something like 1 to 9 million gallons of water per well, and 
they also return millions of gallons of wastewater. So that 
means they're also at risk from water constraints. In fact, 
there are some places in Texas that are considering 
prohibitions against using local ground water for shale oil and 
gas production.
    There are several ways to reduce the risks of water 
scarcity and how they might constrain oil and gas production. 
One is to look at water re-use technologies from well to well 
for shale oil and gas production; looking at waterless fracking 
techniques; enhanced technologies at the drilling pad to speed 
up drilling times and reduce the amount of water that is 
needed; and using effluent, brackish water, or gray water 
instead of virgin fresh water for the hydraulic fracturing.
    There are a variety of policy solutions available. Firstly, 
I think that this is a topic worthy of Federal policy 
engagement, because many rivers, watersheds, basins, and 
aquifers span several states. So some states cannot manage the 
entire water system themselves.
    I recommend the following policy actions be considered. One 
is collect, maintain, and make available accurate, updated, and 
comprehensive water data, possibly through the U.S. Geological 
Survey or the Energy Information Administration. The EIA has an 
extensive data base of accurate, up to date, and comprehensive 
information on energy production, consumption, trade, and 
price. We do not have an equivalent for water, and that would 
be worthwhile.
    Consequently, industry, investors, analysts, policymakers, 
and planners lack suitable water data for informed decisions. I 
think you can encourage fuel switching to save water, and you 
could encourage water switching to save energy. These go back 
and forth. We could switch to low water fuels, like wind, 
solar, and natural gas, or we can switch to other forms of 
water.
    We could support the use of dry and hybrid cooling of power 
plants, invest heavily in water-lean energy R&D--this is 
biofuel feedstocks that need less water, new fracking 
techniques and other opportunities. We can encourage water-lean 
shale production and invest aggressively in conservation, 
because conserving water conserves energy, and conserving 
energy conserves water.
    The vulnerability of the energy sector to droughts is 
important and not obvious. So I'm very pleased to know you're 
being attentive. That concludes my testimony.
    Thank you very much.
    [The prepared statement of Mr. Webber follows:]

Prepared Statement of Michael E. Webber, Ph.D., Deputy Director, Energy 
 Institute, Associate Professor, Department of Mechanical Engineering, 
Co-Director, Austin Technology Incubator's Clean Energy Incubator, The 
               University of Texas at Austin, Austin, TX

    Mr. Chairman and Members of the Committee, thank you so much for 
the invitation to speak before your committee on the effects of drought 
on the energy sector. My name is Michael Webber, and I am the Deputy 
Director of the Energy Institute at the University of Texas at Austin. 
I am here to share my perspective on this issue.
    This testimony will make a few key points:

          1) The energy sector is heavily dependent on water,
          2) Water constraints (from drought) can become energy 
        constraints, and
          3) There are technical and policy solutions available.

  THE ENERGY SECTOR'S DEPENDENCE ON WATER INTRODUCES VULNERABILITY TO 
                                DROUGHT

    The energy sector uses a lot of water. Namely, water is needed for 
power generation and for fuels production.
    For power generation, we use water directly through hydroelectric 
turbines at dams and indirectly as a coolant for thermoelectric power 
plants.
    For fuels production, we use water to grow energy crops and to 
extract oil and gas.
Power Sector
    The thermoelectric power sector--comprised of power plants that use 
heat to generate power, including those that operate on nuclear, coal, 
natural gas or biomass fuels--is the single largest user of water in 
the United States.
    Cooling of power plants is responsible for 39 percent of non-
consumptive freshwater use and is responsible for total withdrawals of 
nearly 200 billion gallons of water per day. [Kenny, 2009]
    Because most of that water is returned to its source, the power 
sector is responsible for only 3 percent of national water consumption. 
[Kenny, 2009]
    The amount of water used by power plants depends on the fuel (coal, 
gas, nuclear, wind, etc.), the power cycle (steam cycle, combined 
cycle, etc.), and the cooling technology (open-loop cooling, cooling 
tower, etc.). Typical water needs for power plants are summarized in 
the table below. [Stillwell, 2011] Nuclear is the most water-intensive, 
while solar PV, wind, and some uses of natural gas are very water lean.
    Table 1. The water withdrawals and consumption for cooling power 
plants depend on the fuel type, power generation technology, and 
cooling system. [Stillwell, 2011]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Consumptive water use is important because it has an impact on 
water availability for other users. Non-consumptive water use (i.e., 
withdrawal) is important because it can affect the power sector's 
reliability and impacts the environment through potential impingement 
of aquatic life and thermal loading of waterways.
    If water is too scarce or too hot (from droughts and/or heat 
waves), then the electric grid might be less reliable as power plants 
might need to turn off or dial back to ensure safe operation and to 
comply with thermal discharge limits. These outages can have cascading 
effects through other sectors, affecting refineries, the gas 
distribution grid, water systems, and so forth, with significant risk 
to economic activity and human health.
    For example, during the heat wave in France in 2003 that was 
responsible for approximately 10,000 deaths, nuclear power plants in 
France had to reduce their power output because of the high inlet 
temperatures of the cooling water. Environmental regulations in France 
(and the United States) limit the rejection temperature of power plant 
cooling water to avoid ecosystem damage from thermal pollution (e.g. to 
avoid cooking the plants and animals in the waterway). When the heat 
wave raised river temperatures, the nuclear power plants could not 
achieve sufficient cooling within the environmental limits, and so they 
reduced their power output at a time when electricity demand was 
spiking by residents turning on their air conditioners. In this way, a 
water resource constraint became an energy constraint.
    In addition to heat waves, droughts can also strain the energy-
water relationship. During the drought in the southeastern United 
States in early 2008, nuclear power plants were within days of shutting 
down because of limited water supplies. Droughts also lower water 
levels behind dams, reducing output from their hydroelectric turbines. 
Droughts triggered the massive power outage in India in 2012 that 
affected 600 million people, cutting off power for several weeks.
    Because thousands of power plants are located in the region covered 
by last year's drought, the United States is vulnerable to a similar 
kind of widespread outage event.
    There are several ways to reduce the vulnerability of the power 
sector to droughts and heat waves:

          1. Installing and/or switching the fuel and conversion 
        technology to lower-consuming options (for example, natural gas 
        combustion turbines, natural gas combined cycle, wind, and 
        solar PV all require less water than steam cycle plants powered 
        by natural gas, coal, or nuclear)
          2. Installing and/or switching the cooling technology to 
        lower-consuming options (for example, dry cooling and hybrid 
        wet-dry cooling require less water than conventional cooling, 
        though they can reduce power plant performance)
          3. Switching the water source (for example, to effluent from 
        wastewater facilities or saline water)

    These technical solutions face some policy or cost hurdles today.

Fuels Sector
    The fuels sector--namely oil, gas, and biofuels production--also 
requires significant volumes of water. Water is used for conventional 
production for techniques such as waterflooding, which can increase 
productivity from reservoirs. Biofuels use water during photosynthetic 
growth.
    Shale oil and gas production typically requires approximately 0.7--
9 million gallons of fluids per well. Those wells also return 
significant volumes of wastewater comprised of drilling muds, flowback 
water, and produced water. [Nicot and Scanlon, 2012]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The lifecycle water intensity (see Figure 1)* shows that 
conventional fossil fuels and unconventional natural gas are relatively 
water lean. However, unconventional petroleum and biofuels are 
relatively water intensive.
---------------------------------------------------------------------------
    * Figures 1 and 2 have been retained in committee files.
---------------------------------------------------------------------------
    Because biofuels need so much water for their growth, they are 
particularly vulnerable to droughts. Just as traditional agricultural 
crops are hindered in times of drought, so are energy crops.
    Droughts can also affect oil and gas production. This risk is 
important because the growth in production from shale formations has 
triggered an increase in water use from nearby basins and aquifers. 
[Nicot and Scanlon 2012]
    It is important to note that despite the water used with hydraulic 
fracturing to produce natural gas from shale formations, natural gas 
use saves water because natural gas combined cycle power plants have 
less than half the water intensity of coal plants (See Figure 2)*. 
[Grubert, 2012]
    Though shale gas is water lean over its entire lifecycle, water 
scarcity from drought can constrain shale gas production. For example, 
the current drought that began in 2011 has led some groundwater 
conservation districts in Texas ``to consider enacting specific water 
use restrictions against'' hydraulic fracturing. [Allen 2013] 
Furthermore, droughts sometimes position the agricultural sector 
against the energy sector in a competition for limited water supplies.
    There are several ways to reduce the risks that water scarcity will 
constrain oil and gas production from shale formations:

          1. Water re-use from well-to-well to reduce the amount of 
        freshwater that is needed
          2. Waterless fracking
          3. Enhanced technologies at the drilling pad to speed up 
        drilling times and reduce the amount of water that is needed
          4. Using effluent, brackish water, or greywater

                  THERE ARE POLICY SOLUTIONS AVAILABLE

    In addition to the technical solutions noted above, there are 
different policy actions that can help.
    Because there are many rivers, watersheds, basins and aquifers that 
span several states and/or countries, there is a role for federal 
engagement on these issues. I recommend the following policy actions:

          1. Collect, maintain and make available accurate, updated and 
        comprehensive water data, possibly through the USGS and EIA. 
        The Department of Energy's Energy Information Administration 
        maintains an extensive database of accurate, up-to-date and 
        comprehensive information on energy production, consumption, 
        trade, and price available with temporal and geographic 
        resolution and standardized units. Unfortunately, there is no 
        equivalent set of data for water. Consequently, industry, 
        investors, analysts, policymakers and planners lack suitable 
        data to make informed decisions.
          2. Encourage fuel-switching to save water. Some fuel sources 
        such as natural gas, wind, and solar PV are domestic, need much 
        less water, and reduce emissions of pollutants and carbon.
          3. Encourage water-switching to improve the energy sector's 
        reliability. Using reclaimed water for powerplants, industry, 
        and agriculture can spare a significant amount of energy and 
        cost. However there are financing, regulatory and permitting 
        hurdles in place that restrict this option.
          4. Support the use of dry and hybrid wet-dry cooling at 
        powerplants. Not all powerplants need wet cooling all the time. 
        Finding ways to help plants upgrade their cooling to less 
        water-intensive versions can spare significant volumes of water 
        to meet public supply or in-stream flow requirements.
          5. Invest heavily in water-lean energy R&D. R&D investments 
        are an excellent policy option for the federal government 
        because state/local governments and industry usually are not in 
        a position to adequately invest in research. DoE's R&D program 
        for biofuels should emphasize water-lean power plant cooling 
        technologies, feedstocks such as cellulosic sources or algae 
        that do not require freshwater irrigation, and advanced 
        techniques for hydraulic fracturing. At the same time, the 
        amount of R&D in the water sector is much lower than for other 
        sectors such as pharmaceuticals, technology, or energy, so 
        water R&D should be increased. [Kirshenbaum, 2012]
          6. Encourage water-lean shale production. Supporting R&D for 
        water-lean shale production techniques would also be valuable. 
        Encouraging producers to reuse water and to perform on-site 
        treatment of produced water would spare significant volumes of 
        freshwater.
          7. Invest aggressively in conservation. Water conservation 
        can be a cost-effective way to save energy, and energy 
        conservation can be a cost-effective way to save water. 
        Therefore, conservation has cross-cutting benefits.

    The vulnerability of the energy sector to droughts is important and 
not obvious, and so I am very pleased to know that you are being 
attentive to the matter.
    Mr. Chairman, that concludes my testimony. I'll be pleased to 
answer questions at the appropriate time.

    The Chairman. Thank you. I heard you repeatedly talk about 
switching and conserving. I think those are pretty good 
principles. It almost sounds like a law firm--Switch and 
Conserve, Attorneys at Law.
    [Laughter.]
    The Chairman. Thank you very much.
    Our last witness will be Dr. Nicole T. Carter, Specialist 
in Natural Resources Policy for the CRS.

STATEMENT OF NICOLE T. CARTER, SPECIALIST IN NATURAL RESOURCES 
             POLICY, CONGRESSIONAL RESEARCH SERVICE

    Ms. Carter. Chairman Wyden, Ranking Member Murkowski, and 
other members of the committee, thank you for this invitation 
to appear before you on behalf of the Congressional Research 
Service. I am Nicole Carter, and I'm a Specialist in Natural 
Resources Policy. My testimony today will cover some of the 
other non-agricultural impacts of the drought, including 
navigation, and touching on electric power generation as well.
    Today, there are fears of flooding on some of the same 
rivers where we were worried about drought not very long ago. 
That drought destroyed or damaged a significant portion of the 
U.S. corn and soybean crops, with impacts on U.S. livestock as 
feed costs reached record levels. Drought reduced corn yields 
which lowered ethanol production.
    The 2012 drought, though, also had impacts on our 
navigation system. For those moving agricultural and energy 
products on waterways, the 2012 drought raised fears of a 
repeat of what happened in 1988, when we saw extensive closures 
and significant barge backups. In 2012, commercial navigation 
did suffer short-term closures and disruptions, but it did not 
see those same extended closures.
    By most accounts, the U.S. Army Corps of Engineers 
maintained the congressionally authorized navigation channel on 
the Mississippi River. The authorized channel, however, is 
significantly narrower and significantly shallower than what 
we're accustomed to. As a result, tows moved only 15 barges 
rather than 30 barges at a time, and barges had to be light-
loaded. While these conditions were difficult, the extended 
closures of 1988 were avoided.
    The impaired navigation conditions in 2012 renewed 
discussions about the relationship between the Missouri River 
and the Mississippi River. The Federal reservoirs in the 
Missouri River system provide multi-year and multi-purpose 
storage to assist in managing the basin's droughts and floods. 
The U.S. Army Corps of Engineers operates these reservoirs 
according to a master manual adopted in 2006.
    The basin's water history includes instances of dry 
conditions lasting 1 year or 2 years, but also multiple 
examples of dry conditions lasting 6 years or 12 years. After 
record runoff in the Missouri basin in 2011, Federal reservoirs 
were full in early 2012. During the dry summer and fall of 
2012, the Corps released stored water to support Missouri River 
navigation. These flows incidentally but critically supported 
Mississippi River navigation.
    Recently, the Assistant Secretary of the Army has 
reaffirmed that the Corps lacks the authority to modify 
Missouri River operations to benefit downstream Mississippi 
River navigation. Based on declining reservoir levels in 2013 
runoff forecasts, the Corps implemented minimum Missouri River 
water releases for the winter, thus reducing contributions from 
the Missouri to the Mississippi beginning late December.
    How recent storms may affect spring and summer runoff 
forecasts remain unclear. What is known is that managing 
reservoirs in times of drought embody difficult tradeoffs, such 
as whether to release stored water in the near term to offset 
near-term impacts, or to store water for future use in case of 
continued dryness.
    The 2012 drought also affected electric generation in a 
variety of ways. Impacts were largely at the power plant level. 
Individual coal and nuclear power plants curtailed operations 
due to water access problems and water temperature issues. 
Others pursued regulatory waivers to continue operations at 
higher water intake temperatures.
    Lost generation at drought-impaired facilities was offset 
by other generation. The mid-continent electric grid avoided 
major drought-related disruption in 2012. This experience 
contrasts with the power grid serving most of Texas, which did 
have to ask customers to conserve during the drought conditions 
in 2011.
    In 2012, hydropower production nationally was above 
average. Hydropower generation in the Pacific Northwest, 
although drought susceptible, was unaffected by the 2012 
drought. The Missouri River basin's strong hydropower 
generation in 2012 during the drought can be attributed to the 
full reservoirs at the beginning of the year.
    The most recent Missouri River hydropower forecast, which 
was performed prior to the current storms, anticipated a 20 
percent reduction in hydropower generation for 2013. What this 
shows is that for large reservoirs and reservoir systems, it is 
often the multi-year droughts that most significantly reduce 
hydropower generation, and that's also illustrated by the 
Colorado River basin.
    The 2012 drought provides us a single year of data at this 
point on drought vulnerability and resilience for a significant 
portion of the United States. It's up to Congress and the 
administration to decide what are the lessons to draw from 
2012, both to improve single and multi-year drought resilience.
    Thank you, and I am available for questions.
    [The prepared statement of Ms. Carter follows:]

 Prepared Statement of Nicole T. Carter, Ph.D., Specialist in Natural 
            Resources Policy, Congressional Research Service

    Chairman Wyden, Ranking Member Murkowski, and Members of the 
Committee, on behalf of the Congressional Research Service, thank you 
for this opportunity to appear before you. I am Nicole Carter, 
Specialist in Natural Resources Policy. The Committee requested that 
CRS discuss how the 2012 drought affected navigation and electric 
generation.
     droughts force difficult tradeoffs in the face of uncertainty
    Droughts and floods force difficult tradeoffs and draw attention to 
the management of the nation's rivers, lakes, and reservoirs. Today, 
there are fears of flooding along some of the nation's rivers. Only 
recently some of the same rivers were experiencing low flows from 
drought.
    Like floods, droughts focus attention on water resources management 
and the role of storage reservoirs. Droughts also bring attention to 
the role of groundwater, its use, and long-term management. Aquifers 
store and supply water for irrigation, rural communities, energy 
production, and some urban areas.
    The 2012 drought destroyed or damaged a significant portion of the 
U.S. corn and soybean crops, with impacts on U.S.livestock sectors as 
feed costs reached record levels. Drought-reduced corn yields also 
lowered ethanol production and brought attention to the drought 
vulnerability of domestic fuel production. The 2012 drought also tested 
the resilience of the navigation and electric power sectors.

            2012 DROUGHT: NAVIGATION IMPAIRED BUT MAINTAINED

    For those moving mid-continent agricultural, energy, and other 
products by watetway, the 2012 drought raised fears of repeating the 
navigation experience of 1988. During that drought, the Mississippi 
River and its tributaries experienced extensive navigation closures and 
barge backups.
    In 2012, commercial navigation suffered short-term closures and 
restrictions, but no extended closures. By most accounts, the U.S. Army 
Corps of Engineers maintained the congressionally authorized navigation 
channel on the Mississippi River. The authorized channel is notably 
narrower and shallower than what is typically available on the 
Mississippi for commercial navigation in a normal water year. For 
example, in the Middle Mississippi River between St. Louis, Missouri 
and Cairo, Illinois, the authorized channel is 300 feet wide and 9 feet 
deep.
    The more limited channel dimensions on the Mississippi and its 
tributaries in 2012 reduced waterway transportation efficiencies and 
increased transportation costs for shippers and carriers. Tows moved 15 
rather than 30 or more barges at a time. Barges were light-loaded to 
meet the shallower draft. Tow operators had to account and schedule for 
segments where traffic was limited to one-way. While these conditions 
were difficult, the extreme disruptions and extended closures of 1988 
were avoided.
    The Corps maintained the Mississippi River navigation channel 
through a combination of measures previously put into place and actions 
taken during the drought. For example, additional structures to 
concentrate the river's flow into the navigation channel were 
constructed after the 1988 drought. These structures improved flow and 
reduced the need for emergency dredging. During 2012, the Corps also 
removed rock pinnacles in the authorized channel and dredged critical 
locations.
    The Coast Guard, the Corps, navigation industry representatives, 
and others communicated through regular standing forums established 
since 1988. During 2012, improved information and technologies also 
helped avoid groundings, allowing commercial navigation to continue, 
albeit at reduced efficiencies.
    The Corps during the 2012 drought monitored 17 reservoirs that 
influence navigation conditions on the Mississippi River and its 
tributaries below the Corps' locks and dams. At times the Corps altered 
reservoir releases to benefit Mississippi River navigation while 
attempting not to interfere with the congressionally authorized 
purposes of those facilities.
    The impaired navigation conditions in 2012 renewed discussions 
about the relationship between water management activities in the 
Missouri River basin and navigation conditions in the Mississippi 
River. Missouri River flows can and do influence navigation conditions 
during drought on the Middle Mississippi River.
    The Missouri River's system of federal reservoirs was designed to 
provide multi-year and multi-purpose storage to assist the basin in 
managing both droughts and floods. The Corps operates its Missouri 
River reservoirs according to a Master Manual adopted in 2006. The 
Missouri River basin provides instances of dry conditions lasting one 
or two years, as well as droughts lasting six to twelve years.
    After record runoff in the upper Missouri River basin in 2011, 
federal reservoirs were full in early 2012. During the basin's dry 
summer and fall of 2012, the Corps released stored water in accordance 
with the Master Manual to fully support Missouri River navigation. 
These flows incidentally, but critically, supported Mississippi River 
navigation. The Assistant Secretary of the Army recently reaffirmed 
that the Corps lacks authority to modify Missouri River system 
operations for the express purpose of benefiting downstream Mississippi 
River navigation.
    Based on declining Missouri River reservoir levels and 2013 
runoffforecasts, the Corps implemented minimum water releases for the 
2012-2013 winter, thus reducing contributions from the Missouri River 
to the Mississippi River beginning last December. This reduction 
occurred while the drought continued to impair navigation on the Middle 
Mississippi River.
    Dry conditions persisted in the Missouri River basin until 
recently. How recent and ongoing storms may affect spring and early 
summer runoff forecasts, especially for the reservoirs in the upper 
basin, remains unclear. What is known is that managing reservoirs in 
times of droughts embody difficult tradeoffs, such as whether to 
release stored water to offset near-term harm or store water for future 
use in case of continued dryness.

           2012 DROUGHT: MIXED EFFECTS ON ELECTRIC GENERATION

    The 2012 drought also affected electric generation in a variety of 
ways.
    Some individual power plants curtailed operations due to water 
access problems or water temperature issues; others pursued regulatmy 
waivers to continue operations at higher water temperatures or made 
cooling system investments. Lost generation at drought-impaired 
facilities was offset by other generation. The mid-continent electric 
grid as a whole appears to have avoided major drought-related 
disruption in 2012. This experience contrasts with the experience of 
the power grid serving most of Texas, which asked customers in 2011 
during a period of intense regional drought to voluntarily conserve to 
avoid rolling blackouts.
    In 2012, hydropower production nationally was above average. 
Hydropower generation in the Pacific Northwest, although drought-
susceptible, was unaffected by the 2012 drought. The Missouri River 
basin's strong hydropower generation in 2012 can be attributed to full 
reservoirs at the beginning of the year and the generation associated 
with releases of stored water to augment low river flows. The most 
recent hydropower forecast for the Missouri River, which was produced 
prior to recent storms, anticipated a 20 percent drop in generation in 
2013. For large reservoirs and reservoir systems, it is often the 
multi-year droughts that most significantly reduce generation, as 
illustrated in the Colorado River Basin.
    The drought's impact on navigation did not appear to materially 
affect regional power plant operations. Base-load coal plants that are 
dependent on waterways for fuel delivery generally have coal stockpiles 
located at the power plants to reduce their vulnerability to short-term 
delivery disruptions.
    In addition to coal, other energy products are transported on the 
inland navigation system. There was a dramatic decline in the movement 
of crude product by barge down the Mississippi River in December 2012 
and January 2013, relative to the previous year. Whether this decline 
can be attributed to the drought's effect on navigation costs and 
reliability is unclear.

                           DROUGHT RESILIENCE

    The 2012 drought provided a single year of data on the drought 
vulnerability and resilience of a significant portion of the United 
States. It reinvigorated debates about water management; who should 
bear the costs of droughts, and the most cost-effective drought 
preparations and responses. Congress and the Administration are faced 
with deciding what lessons to draw from 2012 to improve single and 
multi-year drought resiliency.
    Thank you and I welcome your questions.

    The Chairman. Dr. Carter, thank you. As perhaps the all-
time leading consumer of CRS products, I can tell you even by 
CRS's high standards, you're doing good work, and I appreciate 
it. Thank you very much.
    Mr. Connor, let me go to you first, and I've got to do some 
Oregon business with you right here at the outset. You know, 
severe drought is just pounding the Klamath basin region of my 
home State. The Bureau of Reclamation is telling us that the 
basin has experienced the second driest January through March 
on record.
    Now, Senator Merkley, and Congressman Walden, and I worked 
with the Bureau to secure drought relief for the basin during 
the really devastating drought that we saw back in 2010. 
Oregonians are now concerned that we could be looking at the 
same thing.
    Let me start with this. Oregonians want an assurance that 
the water won't be cutoff to the Klamath project this summer. 
Can you give us that assurance this morning?
    Mr. Connor. At this point in time, I can give you my very 
high expectation that water will not be shut off to the Klamath 
project this year. It certainly won't be shut off in its 
totality.
    Two aspects of what we're doing in the Klamath basin--based 
on the resources provided in 2010 and the Water Use Mitigation 
Program that we really set up and got going with the folks 
locally at that point in time, we've got mitigation measures in 
place. We've got other water supplies that are being accessed 
in the Klamath basin, which will provide, I think, somewhere in 
the neighborhood of 40,000 to 50,000 acre feet this year to add 
to the project water supply.
    In addition, with our Corps operations, what Reclamation 
has done is we have gone back and redone our operations plan; 
submitted a new biological assessment to the resource agencies, 
U.S. Fish and Wildlife Service and NOAA Fisheries; and are 
seeking a new consolidated biological opinion from those two 
agencies to approve those operations for this year, which I 
anticipate will yield about a 75 percent water supply to the 
project. That, coupled with the mitigation program, should 
allow the project to operate this year.
    The Chairman. That sounds constructive. Just have as a 
takeaway that the Oregon congressional delegation, myself, 
Senator Merkley, and Congressman Walden, is going to push very, 
very hard to make sure that the high expectation that water 
won't be cutoff to the Klamath project this summer actually 
becomes a reality, because as you know, this area has just been 
pounded.
    I think you know we want to work closely with you. We 
appreciate the fact that you're taking these extra steps. But 
given what has gone on and that this is really emblematic of 
the government's desire to work through some fresh approaches 
to solving our problems, we just have to make sure that water 
is not cutoff to the project this summer.
    Now, you touched on it, but let me just ask it this way. 
When will the new biological opinion be completed? You gave 
several dates. Just unpack that a little bit more for me so 
that we know when the next biological opinion will be 
completed.
    Mr. Connor. The expectation right now is that we will have 
the new biological opinion either the second or third week of 
May. That's the timeframe, so we're about two or 3 weeks out. 
Actually, that's the only reason I hedged even a little bit. 
We've been working very closely with the fisheries agencies. We 
have good expectations that we will receive the biological 
opinion at that point in time. But it's now in their hands, and 
we're just waiting for the actual receipt of the document.
    The Chairman. I appreciate that. I know that you all are 
pushing ahead and trying to work with the fisheries agencies, 
and I was just trying to make sure I could sort through an 
awful lot of biological opinions--Senator Murkowski knows 
this--that are circulating through the West, and I appreciate 
that. I think we've already gotten your pledge previously to 
continue to work with our delegation to secure drought relief 
and the administration's willingness. Let me just move on here 
quickly.
    I'd like to start, and since we brought you into the 
discussion already, maybe we could start with your colleague, 
Dr. Pulwarty. Each of you get to name one specific thing that 
you would like to see Senator Murkowski and I pursue on a 
Federal level to deal with this drought issue. Obviously, my 
time is almost out, so each of you get one, your No. 1 priority 
bipartisan action in this committee to deal with the drought 
now.
    Dr. Pulwarty.
    Mr. Pulwarty. The major issue related to drought has to do 
with how effectively we're using information for planning. I 
would suggest that an effort to do the research on linking 
climate variability and hydrologic processes and communicating 
that information most carefully to reservoir energy managers 
and the agricultural sector is critical. The coordination of 
information into planning and operations is the most critical 
aspect.
    The Chairman. Good information quickly shared.
    Mr. Pulwarty. Precisely.
    The Chairman. We'll call that Dr. Pulwarty's.
    Ms. Mulroy.
    Ms. Mulroy. Yes, Mr. Chairman. From the city's perspective, 
since he already addressed better climate research and more 
direct climate research, I think for purposes of those of us 
that are on the ground, finding ways to make what is becoming 
an ever-increasing financial burden more tolerable is really 
first and foremost in our minds.
    You're looking at billions and billions of dollars that are 
going to have to be invested--communities that have to build 
projects that aren't growth driven, that aren't decaying 
infrastructure driven, that are coming out of nowhere in order 
for whole communities to survive. There needs to be a greater 
dialog about how we do that and how we fund those kinds of 
efforts.
    The Chairman. We'll call that innovative financing.
    Ms. Mulroy. Absolutely.
    The Chairman. Very good.
    Dr. Webber.
    Mr. Webber. I recommend a comprehensive, thoughtful, well-
funded R&D program so we are prepared to deal with the 
challenges. I think right now the energy-water nexus is not 
fully tackled from an R&D perspective, and there's opportunity 
there.
    The Chairman. R&D.
    Dr. Carter.
    Ms. Carter. CRS does not make recommendations, but what we 
can do is pull together recommendations----
    The Chairman. Let me ask it this way. I appreciate that, 
and I should have revised the way I asked the question. Based 
on the literature--because that is something that you all are 
very knowledgeable about--is there consensus that there might 
be one area? I'm not asking your opinion. But essentially, in 
the body of the evidence that you all review on an ongoing 
basis, is there one approach that may seem to have a consensus 
in terms of support for purposes of answering this question?
    Ms. Carter. There was a document produced that was 
delivered to Congress in 2000. It was produced by the National 
Drought Policy Commission, and in there they identified a 
number of recommendations, one of which, basically, helped 
produce NIDIS, and there are still a number of other 
recommendations.
    But that document is from 2000, so it would be helpful to 
have information about what happened in 2012, like what you've 
collected today with this committee. But right now, we don't 
have that information regarding what happened from 2012. We do 
know that there are some efforts underway, but they seem fairly 
limited in scope at this time.
    The Chairman. So based on the literature, you might say 
that there would be interest--not, again, CRS's opinion--but 
looking at what happened in 2012 and getting more detail about 
that.
    Ms. Carter. A number of people I spoke to said I was the 
first person sort of asking to do a comprehensive look at what 
happened in their area.
    The Chairman. I got the drift. I got it.
    Senator Murkowski.
    Senator Murkowski. I am starting to feel a little bit like 
an energy geek, because this has just been fascinating here 
this morning. I so wish, Mr. Chairman, that more of our 
colleagues were here with us today.
    We talk so much in this committee about the energy 
potential and where we're going, and we heard a hydropower bill 
earlier this week. You and I are working nuclear issues. We've 
got interest in geothermal, and we talk about fracking. 
Everything that we do, though, in the energy sector comes back 
to water.
    You know, when I first got on this committee 10 years ago, 
I was the chairman of the Water and Power Subcommittee. Coming 
from Alaska, where we have an abundance of water, I had no real 
appreciation for some of the water fights. It was in that 
committee that I learned that whiskey is for drinking and water 
is for fighting. I learn that a little bit more all the time.
    When I appreciate what it is that we have in front of us in 
terms of the challenge of how we balance this--because we keep 
using the word, nexus, but these are just inextricably tied. 
I've mentioned to you, Mr. Chairman, the importance of water. I 
think, from a geopolitical global perspective, if we get 
ourselves into this next big bad war, I'm not convinced that 
it's over oil. I'm more convinced that it's over water, because 
it's through water that we will be able to control so much of 
what we do in other parts of our world, whether it's energy or 
otherwise.
    So I'm just fascinated with some of the discussion here 
this morning, a very thoughtful contribution from each of you.
    Dr. Webber, I really appreciate the way that you have 
outlined some of the ways that you think, from a Federal 
perspective, there should be greater engagement. I clearly 
believe that. I've been focused a lot in this committee on 
what's going on insofar as energy reliability and the fact that 
we're seeing this shift from coal to natural gas a lot because 
of what's going on within the market, but also because of the 
regulatory perspective.
    But then you've got this great unknown out there when it 
comes to what the impact of a warming climate and what the 
impact of drought will mean on our water resources that are 
getting impacted, everything from nuclear to hydro to 
everything else that we want to do to what we're doing with 
accessing our natural gas through fracking and the availability 
of water.
    So if we appreciate that 7 percent of our energy production 
right now comes from hydro, and if you were to suggest that 
because of droughts we're seeing a reduction in our energy 
production there, how does this impact the reliability of 
energy across the country, particularly if you're in an area, 
let's say, where there is a fair amount of hydro and coal, and 
we see coal moving offline, and we have a prolonged period of 
drought impacting our hydro or any other aspect of it, then 
what? Nuclear?
    I just think that this is something we need to better 
understand, and we really need to be coordinating and 
collaborating. It's my understanding that we've got a number of 
agencies that have responsibility for managing specific aspects 
of the energy-water nexus. But these agencies don't necessarily 
collaborate strategically or consistently on these linked 
issues.
    How can we do a better job there? How do we do that, given 
that so much of the energy policy as it relates to water is 
developed not at the national level, but at the regional level, 
at the State level, or even at the local level? How do we do a 
better job of the coordination, then, that goes on at these 
different levels, recognizing that we've got a lot of different 
agencies that are theoretically tasked to be managing this? Are 
we doing what we need to do? If not, what do we need to do 
better?
    I'll throw it out--we can start here with you, 
Commissioner. Give me your thoughts.
    Mr. Connor. Thank you, Senator Murkowski. This is a theme 
that I think in the last hearing you touched upon, the 
coordination that's necessary to move some of these policies 
forward. I'd say there are two areas I want to address and give 
an example--hydropower and with respect to water supply.
    I think we're moving in a better direction. I think there's 
a lot of work left to be done with respect to hydropower. The 
example I'll give is that we entered into an MOU in 2010--
Department of Interior, Corps of Engineers, Department of 
Energy--and we are very cognizant of MOUs being a feel-good 
type of document. What we've really tried to do is put it in 
practice.
    So we've aligned our R&D investments jointly with DOE--
Reclamation has--to facilitate some pilot projects on new 
technologies in the area of hydropower. I think we've got about 
16 projects that are in various phases of implementation. The 
bottom line is we have less water and we need to have more 
efficient turbines, and that's what that's focused on.
    We've also entered into an optimization program that we're 
doing with the Corps and the Department of Energy that we're 
now starting to implement this fiscal year on Reclamation 
projects--2 percent to 3 percent gains in efficiency from this 
optimization program. I think it's something that we can use 
not just at Reclamation facilities, but at Corps of Engineer 
facilities. They are the largest hydropower producer in the 
country.
    Then we're also looking at basin-wide solutions, where we 
can shore up the reliability of hydropower on some facilities 
and maybe look at resolving some of the environmental issues in 
other facilities in a way that you can actually increase the 
generating capacity from a particular facility. So in the 
hydropower area, I think working at that level across those 
agencies, we can work on the technology side and create 
opportunities that we can then work with the private sector on.
    On the water supply side, you hit it exactly. It's not a 
resource that is federally controlled. We are trying to work 
through our basin studies program of engaging all the key 
players in the water arena, from states to local entities----
    Senator Murkowski. Who should be in charge of that?
    Mr. Connor. I don't know that any one entity can be in 
charge of that in the area of water resources, quite frankly. 
It crosses State lines. Most of these basins are in multiple 
states, so you're not going to have any one State that can 
control the process. Certainly, there are Federal interests, 
but there are not Federal water rights that make up the 
majority of water resources in these basins.
    So we've got to work through on a collaborative basis, but 
we've got to be very results oriented. I think, quite frankly, 
given these extended droughts and the projections under a 
changing climate, we've got people's attention so that they're 
cutting through the infighting that can naturally occur.
    Particularly, the Colorado River basin--it's remarkable the 
amount of progress that we've made among the 7 basin States, 
the key municipal entities, the Federal Government, and now 
even with Mexico.
    Senator Murkowski. Let's keep going down the line, if we 
can, to get some more ideas on how we can coordinate what is 
already happening within the agencies. So how do we really 
collaborate to a better degree?
    Mr. Pulwarty. From that standpoint, I think it's an 
extremely rich question. Thanks for the question, Senator. The 
issues surrounding the enabling infrastructure that we have for 
monitoring and understanding of ground water measurements and 
understanding of the relationship between ground water and 
surface water--in the case of New Mexico last year at the Rio 
Grande, went almost virtually entirely in summer to ground 
water, because surface water was basically nonexistent.
    When we ask where should coordination take place, given the 
different forms of accountability that the agencies and their 
partners have to take shape, we then ask the question: What are 
the areas of collaboration in monitoring and forecasting, in 
impacts assessment, and in the use and communication of 
information?
    One of the big successes of the National Integrated Drought 
Information System is that it is nominally led by NOAA, but it 
is inherently interagency, developing the efforts in which the 
agencies who take part in collaborative mechanisms also see the 
benefits to themselves become critical. From the standpoint of 
working on the Colorado, on the Apalachicola, Chattahoochee, 
Flint, we ensure that the benefits of the information we're 
providing is linked to the lead agencies who are operating in 
that area, the Corps in the case of ACF, certainly Reclamation 
in the case of the Colorado basin.
    Given that issue, I really think that one of the major 
points that was made by Pat Mulroy--which is an opportunity to 
stand back and say, ``How well are we reconciling different 
views of what is happening in different watersheds?''--is 
critical. Instead of the rush to apply information, a good 
approach is to say let the agencies stand back and say, ``How 
best should we collaborate on this issue?''
    In the case of the Colorado, we have a leeway until around 
2024 in order to do this. From the standpoint of collaboration, 
the key aspects have to be strengthening our monitoring 
systems, because we're basically losing stream gages and so on; 
strengthening our ground water recharge estimate; but really 
working with the agencies on the mandates that they have in 
designing an effective information system to support adaptation 
being undertaken by the State and local levels.
    What I mean by that--and we have many examples and one led 
by Reclamation, the Climate Working Group on Water, WestFAST, 
and others--is to work with the states, the feds, the tribes on 
developing appropriate information systems for planning. Where 
that comes to bear is by saying which agencies are working 
together on monitoring and forecasting, which agencies are 
working together on risk assessment, and which agencies are 
working together on communicating and preparing information, 
such as USDA, and then coordinating that into an effective 
information system. One example is NIDIS.
    Senator Murkowski. Dr. Pulwarty, before we go down the line 
here, it was my understanding that under the Energy Policy Act 
back in 2005, it required DOE to implement this program of 
research, demonstration, development, and the commercial 
action, to look just at what you have talked about in terms of 
the existing Federal programs. To my understanding, DOE is not 
doing that. Is NOAA doing that, then, through----
    Mr. Pulwarty. Certainly in the case of drought, and as it 
links to floods, I wanted to add, simply because we look at 
floods as things that help, and droughts, and so it plays a 
role. When we put out a forecast, we're saying, well, what is 
likely to end these conditions--well, is it likely to flood?
    NOAA is coordinating from the standpoint of research and 
information. But the key aspect there is that it is problem 
oriented. It defines drought as the problem and says, ``Work 
with your partners as effectively as possible.'' As has been 
widely said, there's no one agency that can do all of this. 
That's fairly clear. But the end result is that we do have go 
back up the chain to respond to our mandate and our measures of 
accountability.
    Where it becomes really critical is in working with our 
partners, such as the water utilities and others, and ensuring 
that we're coordinating effectively to provide information and 
planning to support their activities. In the case of the 
National Integrated Drought Information System under Public Law 
109-430, that has been the approach we have taken.
    Senator Murkowski. Ms. Mulroy.
    Ms. Mulroy. Yes. I'd like to echo what he just said, and I 
can give you a concrete example of it. The single most 
important thing Congress can do is force interagency 
cooperation. To talk about having one agency in charge, in all 
honesty, it'll take so much politics; it'll be so difficult to 
do; and, quite honestly, we don't have the time for it. I mean, 
the changes are occurring.
    But you can, through the way you budget and the way you set 
things up, force interagency cooperation. That really showed 
itself--and I've got to give huge credit to Mike for herding 
all the cattle through the Mexico 319 discussions. You had the 
ultimate collision of the treaty clause of the Constitution and 
the compact clause of the Constitution.
    The U.S. Government had primacy in all international 
affairs, but had no water with which to sit at the table. They 
had to bring the states to the table in an international 
discussion. It was an interesting exercise, watching us get to 
that point, and I'm giving Mike a lot of credit for this. He, 
personally, really helped make a lot of this happen. But it 
proved just how valuable it was.
    When the states and the Mexicans finally were able to sit 
in one room and really understand each other's issues and 
really began to work together, and the two parts of the Federal 
Government really started cooperating and working in tandem, we 
moved mountains in a very short period of time. That's what's 
critical, that level of interagency collaboration, 
programmatically aimed at a single outcome.
    Senator Murkowski. Great.
    Dr. Webber.
    Mr. Webber. It is a great question. So I'm going to give 
you a little bit of good news, which is, organically, people 
within the different agencies are already starting to find each 
other and work together. So people at the Department of Energy, 
U.S. Geological Survey, EPA, National Science Foundation, and 
the Department of Homeland Security all have a different 
interest in this issue, and they're finding each other in a 
very unofficial way through different conferences.
    However, it could be accelerated, expedited, and improved. 
I think there are 3 things you can do. I think you can give 
this whole issue a legislative mandate and give it the 
authority that it's important and that you want to see 
something done. I think you could give it a budget. Right now, 
there's not really a budget for this issue.
    So people are finding each other and convening among 
themselves, but aren't really efficiently tasked for it 
necessarily or don't have the budget for it, and you could help 
clarify the roles. The Department of Homeland Security cares 
about the energy-water issues from a national security or a 
reliability perspective. The Department of Energy cares about 
it from a potential constraint on energy.
    The EPA cares about what Energy does to improve water 
quality through treatment or what it does to put water at risk 
from spills. The National Science Foundation has a research 
mission. The U.S. Geological Survey has a water quantity and 
data mission.
    They all have different missions, and I think you can help 
clarify those roles. Give it a mandate and give it a budget, 
and then it becomes not an unofficial organic thing where 
people find each other, but a task of all the agencies.
    That might be a way to get going, as opposed to creating a 
new agency, like Pat Mulroy says. That might be a better way to 
get going with the existing assets, with people who are already 
interested and just are trying to clarify roles.
    Senator Murkowski. Good point.
    Dr. Carter.
    Ms. Carter. To add to the positive word of collaboration, I 
would add innovation, so essentially to allow and to assist the 
states in some innovative activities that they are attempting 
already, and we may see more after the 2012 drought. You have 
innovations at the State levels recently on how they're 
managing ground water. An example is Kansas.
    You have innovations which were tested and are being 
reformulated some in Georgia related to the management of the 
surface-ground water relationship in the Flint River. So I'd 
say in addition to just collaboration among the Federal 
agencies, it's having that collaboration allow for that State 
and local level innovation as well.
    I think an example of that--maybe a little bit large--was 
the Western Governors Association did become interested in grid 
reliability issues, in particular, related to the hydropower 
question that you asked of what would be the impact. They had 
DOE do--DOE labs, Sandia and Argonne, do a West-wide 
assessment, and they did identify ERCOT in Texas and the 
Pacific Northwest as being of the grid. Those two were the most 
vulnerable.
    We don't have a similar assessment for the East, so we 
don't know, for example, if there are other North Carolinas out 
there, like the example that Roger Pulwarty gave. So I think 
one of the things we've seen is that the states and Governors 
are attempting to understand these issues and to grapple with 
them, and seeing how to bring Federal resources to support and 
allow those is one way that we've seen successful or 
interesting developments.
    Senator Murkowski. Great. I appreciate the responses that 
you've each given.
    Mr. Chairman, thank you for the latitude to just engage in 
a little bit of dialog here on a very important issue.
    The Chairman. I think your questions were very helpful, so 
you have latitude on my watch all the time.
    Let me ask about a couple of other areas. I think you all 
have picked up that this committee, and Senator Murkowski and I 
care tremendously about hydropower. We have called it one of 
the forgotten renewables. That was the message when I went up 
to meet with Senator Murkowski's constituents.
    We have these astounding votes in the House of 
Representatives recently for hydropower expansion. It's almost 
like you hear about 422 to nothing, and people say that 
Congress is on an alternative galaxy when you're talking about 
hydropower. These are exceptional kinds of votes.
    Senator Murkowski and I keep on packing the statistics: 60 
percent of the clean power in the country; opportunity for 
60,000 megawatts of growth. This is a very, very exceptional 
success story. I want to ask you about the potential for 
disruption to hydropower from climate change. Let me kind of 
just walk you through it and see what you think of this whole 
area and get your take on it.
    In the Northwest, the snow in the mountains serves as an 
additional reservoir that slowly releases the water over the 
spring and the summer. If the snow melts earlier in the year 
because the temperatures are warming, the question becomes: 
What is that going to do to the availability of water for 
hydropower and other uses in the summer?
    So, Dr. Pulwarty, why don't you tell me what you think of 
how I've kind of unpacked the issue here and also tell me your 
assessment in terms of how this could affect the availability 
for what Senator Murkowski and I want to do, which is to build 
on this in the future. I mean, it's our goal to tap that 
potential for 60,000 additional megawatts of clean power.
    What's so exciting about the hydropower story is--and 
certainly back when I started looking at this issue when I had 
a full head of hair and rugged good looks and all that--there 
was a lot of arguing back and forth between the developers and 
the environmental folks. As Senator Murkowski and I have noted, 
those folks have been working together now, and so we're seeing 
a lot of common ground, and that's one of the reasons why you 
see this incredible set of votes in the House for hydropower.
    So tell me what you think about the potential ramifications 
for hydropower and the success story stemming from this issue 
of climate change, particularly as we would see it from the 
Pacific Northwest with that snow in the mountains and the 
additional reservoir and how that releases over the spring and 
summer and what happens if the snow melts earlier.
    Mr. Pulwarty. Thank you very much for the question. From 
the standpoint of changing runoff over time, especially for the 
Pacific Northwest and Alaska, as we look at the changes in 
earlier runoff, the question becomes: What is the appropriate 
time for storage that also balances the so-called parity 
between hydropower, salmon, and other resources that are 
needed?
    I think from one of the major lessons that you're seeing 
and was just described, the Northwest Planning Power Act of 
1980 certainly led to new collaborations among the states and 
the Federal agencies. In other parts of the country where 
losses due to higher temperatures from evapotranspiration 
becomes critical, then the hydropower head is reduced simply 
because we're losing water to the atmosphere in drier 
conditions.
    In the case of the Pacific Northwest, where there's not yet 
full agreement on the total amount of precipitation, but there 
is agreement on the timing of the flows in a changing climate, 
I think the critical aspect is balancing the tradeoff between 
when storage occurs in the earlier system, when flood control 
then happens--as you know better than most, the reliability of 
flood control becomes critical when flood control is emptying 
and storage occurs very early in the spring season, and then 
other melt water comes down. We have that tradeoff occurring on 
the Columbia River basin as we speak between Canada and the 
United States.
    Hydropower on smaller tributaries is, of course, being 
recommended across the West, especially for the Pacific 
Northwest. Selecting higher level, higher elevation hydropower 
facilities is now coming in as a question, simply because we're 
seeing the runoff earlier at higher elevations.
    The major issue relative to the Pacific Northwest is the 
spread and scale of those reservoir storage, whereas in the 
case of the Southwest, we know the broader the reservoir, the 
more you lose to evaporation. In the Northwest, the limits on 
evaporation seem to be a lot less. So what ends up happening is 
that the viability of increasing hydropower in places, 
especially major tributaries, becomes more viable.
    The Chairman. From a historical standpoint, how do these 
droughts stack up, in your view, Dr. Pulwarty? I mean, 
everybody knows--you know, is this the worst, is this the most 
consequential? How do they stack up compared to the other 
droughts on record?
    Mr. Pulwarty. It's an excellent question, because when we 
work with water providers, when we work with farmers, the first 
question we get is not what will happen, but is this something 
we've seen before. So this becomes a very fundamental question.
    In the testimony, I mentioned that the spread, the aerial 
extent of the drought last year, 2012, which is still 
continuing in the West, was only exceeded by 1934, which had 
more months, with over 60 percent of the country in record. 
What helps us out in this context was that 2011 was wet. The 
1950s were, in fact, even more severe in terms of Oklahoma, 
West Texas, and New Mexico.
    There are droughts in the past, however, that have lasted 
10 to 20 years that exist in the tree ring record. What was 
mentioned by pretty much all of the witnesses today was that 
the viability of our systems during multi-year droughts is what 
calls this into question.
    We've done a fantastic job. I mean, when John Wesley Powell 
said in the late 1800s we can't develop the Colorado River, we 
developed it, and we're still there. So a lot of things were 
put into place that were actually very viable for managing 
risk. What comes to bear is the comparison between this present 
drought, 2011, 2012, 2013, and the potential for increased 
severity of drought conditions from temperature.
    When you add a temperature increase on drought conditions, 
we're not sure what we get. It could actually be more 
surprising than we think, as occurred during 2002. In the case 
of many of the vegetation in the Southwest, they've lasted 
through previous droughts, the 1930s, the 1950s, but a lot of 
them are not lasting through this one because of the 
combination of temperature and dryness. The magnitude of the 
drought is immense. The temporal, the number of years, we've 
seen other droughts like this.
    The Chairman. Dr. Webber, one question for you at this 
point. What are the opportunities for using markets and 
marketplace forces to improve the situation? I mean, you all 
are studying at the--I guess it's technically called the Clean 
Energy Incubator at the University of Texas. I want to go back 
to school and study in that program. That sounds like good 
stuff.
    But how might markets be used to integrate renewable energy 
to increase water supplies?
    Mr. Webber. I think there's an opportunity with policy and 
technologies. But one thing we have with water is highly 
dysfunctional markets today. Water is not priced at its real 
value. It's highly regulated. It's about as far from the market 
as you can imagine. If we had more of a market system where 
water was valued, then people would automatically wish to 
conserve, because we tend to conserve the things that are 
valuable.
    Also, if you had a price for water that matched its actual 
contribution to society, you might get to see interesting 
transactions emerge. So one thing I see is that in Texas, we 
have agricultural users, who are the largest users of water, as 
with the rest of the Nation. They tend to get the water very 
cheap or very free. They cannot afford the equipment for 
irrigation efficiency. It's cheaper to waste the water than to 
pay for the efficiency.
    Next door is the energy sector looking for water for oil 
and gas production in shale. The energy sector has a lot of 
money and wants water. The agricultural sector has a lot of 
water and wants money. Normally, you would just do a 
transaction and trade money for water. But we're not really set 
up that way for water markets in Texas or the rest of the 
United States.
    If you did it the right way, the energy sector would give 
its money to the agricultural sector and get the water. The 
agricultural sector would have the money it needs to invest in 
efficiency and would, therefore, still be able to grow its 
crops, but with less water, making water available for the oil 
and gas guys and have water available for the streams. So this 
idea is that markets can make this all more efficient with how 
it's allocated.
    Then there's also the opportunity, once you have a price on 
water, to pay for integration of renewal energy onsite. You can 
use wind or solar, which is often located near brackish water, 
and use wind treated water to make fresh water.
    Or you could use onsite--oil and gas facilities that are 
producing a lot of dirty water from the shale gas production 
could do onsite treatment with flared gases to make it cleaner. 
Once you have a price on water, a lot of these things would 
happen pretty quickly.
    The Chairman. We're juggling Internet taxes, which is 
extraordinarily important to a State that is being forced 
against its will under this legislation to go out and collect 
these online taxes for everybody else in America. So I've got 
to go to the floor. What I'd like to do is have Senator 
Murkowski ask any additional questions and make any closing 
remarks. It's always fitting, really, that she has the last 
word.
    Senator Murkowski, if that's all right with you, why don't 
you just ask any additional questions--I don't think any other 
colleagues are going to come--and make any closing remarks that 
you wish and wrap us up?
    Senator Murkowski [presiding]. Mr. Chairman, thank you for 
the opportunity for just one final comment, and go fight the 
good fight, because Alaska also doesn't have that sales tax. So 
I'm with you on that one.
    I just wanted to ask one final question, and this is 
precipitated by your response, Dr. Webber. We're clearly in a 
situation where at times of low water availability, water 
shortages, extended periods of drought, and just great 
uncertainty, we don't know what next year is going to yield. We 
can look at our farmer's almanac and hope that we are right. 
But it's tough to predict with real accuracy.
    So you're going to have tensions between your user groups. 
As you point out, the agriculture sector uses far more water. 
The energy sector likes to believe that they've got more money 
to play with. So I appreciate your discussion here about the 
pricing of water.
    But are we seeing pushback on specific types of energy 
development because that energy production might be more water 
intensive? So you have pushback from the ag sector. You have 
pushback just from the cities because they recognize that these 
are issues that are hot. You don't want to raise the cost to 
the consumer.
    But you've got remarkable energy potential sitting just 
right there, but the process that you would use is more water 
intensive than others. Are we seeing that type of standoff 
between user groups right now?
    Ms. Mulroy. We're not necessarily seeing a standoff, but 
what we are seeing is a very clear recognition that in areas 
that are especially water lean, like Nevada, that the type of 
energy facility that is built makes all the difference in the 
world.
    In 2002, then Governor Kenny Guinn, during the big energy 
problem in the western United States--and Nevada had the Kern 
Valley pipeline coming right through southern Nevada--he said, 
clearly, to all the merchant plant developers, ``You will build 
air-cooled gas plants. You will not build water-cooled gas 
plants,'' because the relative difference is 3,000 acre feet 
for a water-cooled facility versus 300 acre feet for a dry-
cooled facility.
    All solar is not alike. In Nevada, we want photovoltaic 
solar rather than thermal solar. Any kind of energy use that is 
very water intensive is something that isn't appropriate for 
that particular location. Now, that doesn't mean there aren't 
other areas where it can be.
    What you're seeing more and more is the water sector is 
becoming extremely energy efficient, because it's its biggest 
cost factor. States as a whole and whole regions are looking 
at, given their particular set of circumstances, what are the 
appropriate kinds of energy to have in that venue.
    Senator Murkowski. Does anybody else care to comment on 
that?
    Dr. Webber.
    Mr. Webber. Yes. I think you've identified properly that 
there is resistance or stakeholder conflict that can emerge, 
and it's peacefully done in many cases. What we see is in 
Texas, which is a pro-oil and pro-gas State, some local areas 
are looking to prohibit the use of water for oil and gas 
production. So even a state that sees oil and gas production 
very favorably sees water as a more important resource and will 
put in prohibitions or some sort of constraints on that 
production.
    Even though the shale oil and shale gas production might be 
small water use compared to everything else around, it's the 
marginal user. They're the new user. So there's already 100 
gallons allocated. The next guy wants another gallon. People 
say forget it.
    So we definitely see some pushback, and we see it with 
power plants as well. People wonder now about whether new power 
plants should be allowed to have the cooling systems the way 
they want, looking to Nevada as a model, actually--``Well, 
Nevada can do dry cooling. Why can't we do dry cooling in our 
region''--that kind of thing.
    So we're definitely seeing it show up in the permitting 
process, where people are engaging about power plants to talk 
about the cooling systems. We see it with new water users for 
oil and gas production. In an ideal world, we could allocate it 
the right way and get the right efficiencies and systems in 
place so there's enough water for everybody and enough water 
left over for nature as well.
    Senator Murkowski. It almost makes you wonder as we see 
more and more in terms of areas that are water lean, as you 
describe it, Ms. Mulroy, where there will be that push to move 
out that technology that was viewed as absolutely acceptable--
you know, solar thermal--absolutely acceptable, but because of 
the water intensity, a push to move to other technologies that 
would provide for the same level of production but using water 
in a more conservative manner.
    I really appreciate the information that you have all put 
out there. I think that this has been very helpful to the 
discussion. It is a reminder to us that when we talk about 
energy and energy production, we can't discuss it in isolation. 
It has to be in conjunction with the water, the water access 
and the availability and the certainty of it.
    As we see greater uncertainty that is brought about by a 
changing climate, how we deal with this, how we adapt to it, I 
think, is going to be a real challenge for us, particularly as 
we note, and as you have all noted, that this is a very 
regional situation, but the impacts can go far beyond the 
region when we look to our Nation's energy consumption.
    So thank you for your very thoughtful presentations and the 
discussion this morning. With that, we stand adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Nicole T. Carter to Questions From Senator Wyden

                        FEDERAL ROLE IN DROUGHT

    Question 1. Do you believe we need to be doing more at the federal 
level to address these impacts? If so, what can we do?
    Answer. In 1998, Congress passed the National Drought Policy Act 
(P.L. 105-199), which created the National Drought Policy Commission. 
In 2000, the commission submitted to Congress a report with a number of 
policy recommendations. The report recommended integrating drought 
information, creating a National Drought Council, and developing a 
national drought policy with preparedness at its core. To date, 
Congress has acted on the first of those recommendations with the 
creation and funding of the National Integrated Drought Information 
System (NIDIS), which is currently up for reauthorization (S. 376).
    Recent drought experiences provide additional information for 
decision-makers considering the federal role in drought. The USDA-led 
effort to respond to the 2012 drought under the National Disaster 
Recovery Framework represented an evolution in federal drought 
response. It provided a new process for coordinating and leveraging 
federal resources and actions. Recent droughts also have shown the 
increasing prominence and use of the Drought Monitor and related tools 
for communicating conditions and forecasts. NIDIS coordinated a 
December 2012 National Drought Forum that identified priority actions. 
In addition to recommending reauthorization of existing drought 
programs for the U.S. Department of Agriculture, the Bureau of 
Reclamation, and NIDIS, the forum's priority actions included:

  <bullet> Prepare or revise drought preparedness plans by federal 
        agencies, states, tribes, communities, utilities, and others;
  <bullet> Accelerate efforts to build a nationwide integrated drought 
        information system.
  <bullet> Improve the observations, monitoring, and forecasts related 
        to drought, including the socioeconomic and environmental 
        impacts.
  <bullet> Pursue a multi-stakeholder intergovernmental process to 
        develop recommendations for a coordinated national drought 
        policy framework.

    Over the last 15 years, legislative drought discussions have 
included the question of whether there is a need for a national drought 
policy. Similar to discussions of broader federal natural disaster 
policies and programs, an element of the congressional drought policy 
debate has been how to structure drought assistance and what and whom 
to target with assistance. Broadly, assistance can be used to reduce 
the impacts during the drought, or to promote drought preparedness and 
drought resiliency so that the economic and social impacts are less 
when a drought occurs. To date, most federal government assistance 
primarily aims to ease economic impacts during the drought, with less 
emphasis on--and fewer results in--promoting long-term resilience and 
adjustment.
    States continue to be the leaders for most drought planning and 
preparedness activities, in large part because Congress has generally 
deferred to the state's primacy in intrastate water allocation which 
largely determines how waters are distributed among competing uses, 
including during dry conditions. The sophistication, resources, and 
approaches of these state planning activities vary widely. Drought 
preparedness and planning efforts ideally are helpful in replacing the 
need for and expense of unanticipated emergency actions with actions 
that improve drought resilience and that also may provide benefits in 
good water years.

                           ENERGY-WATER NEXUS

    Question 2. Given the amount of water needed to produce energy, 
what is the appropriate federal role in responding to energy's 
intensive water demands?
    Answer. Nationally, the energy sector's water consumption exceeds 
municipal and industrial use; it is second to agriculture, which 
represents roughly 70% of consumption.
    The energy sector's demand for water varies regionally; the impact 
of that demand on local competition for water also widely varies 
depending on available resources and state water rights and access 
regimes. Decisions about whether to prioritize or restrict water 
withdrawals or consumption are generally left to the states as part of 
their water allocation responsibilities. Water quality impacts, rather 
than water quantity impacts, have received the majority of federal 
attention.
    While the energy sector's access to water supplies is often 
controlled by the states through water rights or withdrawal permits, 
the federal government can influence the demand for water by the energy 
sector. For example, federal policies (and market conditions) that 
promote greater domestic energy production generally result in more 
domestic water being used by the energy sector. The federal government 
also can reduce or dampen the energy sector's demand for water through 
a variety of mechanisms. Options include tools to:

  <bullet> promote water-efficient energy sources,
  <bullet> promote water conservation and efficiency in the energy 
        sector,
  <bullet> promote energy conservation and efficiency to reduce demand 
        for energy and the embedded water, and
  <bullet> support research and development of technologies to reduce 
        energy sector water use.

    Data collection and assessments also can inform energy and water 
decision-makers in the public and private sectors. Whether these tools 
are most appropriately employed by the federal, state, or local 
governments is part of the ongoing debate about how to respond to 
energy sector water demands.
    Question 3. Several of you raised the need for better data and 
information in improving energy-water strategies. What steps can we do 
to make this happen?
    Answer. In a series of reports, GAO has documented some of the 
challenges and gaps in energy-water data. In a 2012 report, GAO stated: 
``making effective policy choices will continue to be challenging 
without more comprehensive data and research.''\1\ Congress has asked 
for recommendations from the Department of Energy on developing an 
energy-water research program, but has not received those 
recommendations to date.\2\
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office, Energy-Water Nexus: 
Coordinated Federal Approach Needed to better Manage Energy and Water 
Tradeoffs, GAO-12-880, September 2012, http://www.gao.gov/assets/650/
648306.pdf.
    \2\ Congress in Sec. 979 of the Energy Policy Act of 2005 (P.L. 
109-58, 42 U.S.C. 1639) requested that the Secretary of Energy submit 
to Congress recommendations for future actions for a research program 
related to energy sector water use and water sector energy use; the 
recommendations have not been delivered to Congress.
---------------------------------------------------------------------------
    While high-quality data and information are important to informed 
decision-making, there are expenses associated with data collection, 
quality control, and analysis; there also are challenges to maintaining 
current and consistent data sources over extended time frames. This is 
particularly true for a rapidly changing and mobile energy industry. 
Discussion of questions like the following may help focus limited 
federal resources:

  <bullet> Which decisions--federal, state, local, or private--are 
        being targeted for improved data inputs?
  <bullet> What are the data gaps associated with the most significant 
        decisions?
  <bullet> Which decisions could most benefit from improved 
        information?
  <bullet> Are there existing data efforts on which to build?
  <bullet> Who owns or has access to the data and under what conditions 
        will this data be provided or shared?

    Much of the U.S. energy sector--and thus a significant portion of 
energy-related research--is private. When devising an approach, policy-
makers must weigh what data is important, what proprietary data may be 
collected, whether to protect such data, and if so, how. While the 
private nature of some data complicates collection and management, it 
is not uncommon for the government to face this issue when compiling 
industry-related information. Early and regular energy industry input 
into the development of efforts to increase energy-water data 
collection may facilitate acceptance and implementation and avoid costs 
and conflicts.
    A challenge of relying on existing sources of data is achieving 
consistency when compiling information collected from multiple state, 
local, and private sources. Many of the energy industry's water-related 
actions are determined by state or local laws and regulations, and most 
water-related compliance information, if collected, is submitted to 
local or state agencies. Compiling data into a single national 
database, therefore, is complicated by the degree to which the private 
energy sector is required to or chooses to release information, the 
amount and types of information that the states or local entities 
choose to collect and share with the federal government, and the 
consistency and comparability of data from different states.
    Access to energy-water research is changing. Efforts are underway 
at the Department of Energy to organize energy-water related studies on 
a publicly-available online platform.\3\ Additionally, in February 2013 
the White House Office of Science Technology and Policy released a 
memorandum that directs U.S. funding agencies with over $100 million in 
annual research expenditures to develop a plan to support public access 
to the results of federally funded research.\4\ Agency implementation 
of the directives in the memo may influence the availability of some 
research results relevant to energy-water issues and their management.
---------------------------------------------------------------------------
    \3\ The site links to over 150 articles and reports related to the 
energy-water nexus: http://en.openei.org/wiki/Water_and_energy_studies.
    \4\ John P. Holdren, Increasing Access to the Results of Federally 
Funded Scientific Research, Executive Office of the President, Office 
of Science and Technology Policy, Memorandum for the Heads of Executive 
Departments and Agencies, Washington, DC, February 22, 2013, http://
en.openei.org/wiki/Water_and_energy_studies.
---------------------------------------------------------------------------
                            WATER MANAGEMENT

    Question 4. What role can and should new water storage projects 
play in meeting our country's water needs during times of drought?
    Answer. GAO is in the process of updating its survey of states' 
views on water supply issues. In 2003, GAO published the results of its 
original survey of states' views. At the time, GAO found that ``state 
water managers reported their highest priority was more federal 
financial assistance to plan and construct their state's freshwater 
storage and distribution systems and also favored having more input in 
federal facilities operations.''\5\
---------------------------------------------------------------------------
    \5\ U.S. General Accounting Office, Freshwater Supply: States' 
Views of How Federal Agencies Could Help Them Meet the Challenges of 
Expected Shortages, GAO-03-514, July 2003, http://www.gao.gov/assets/
160/157452.pdf.
---------------------------------------------------------------------------
    How to adapt to drought risk and whether to construct additional 
storage or pursue other water supply techniques (e.g., aquifer 
recharge, desalination of brackish waters, reuse of wastewaters, 
reallocation of existing storage, water conservation, water efficiency, 
water transfers) are decisions generally left to the state, local, 
quasi-public, nonprofit, and private entities responsible for supplying 
water. Their decisions are likely to be shaped by the cost of the 
alternatives, their reliability during droughts, and other factors 
(e.g., opportunities and tradeoffs for hydropower, recreation, 
protected species, etc.).
    Question 5. A few of you mentioned water infrastructure in your 
testimony, and I would ask that the panel expand on the connection 
between aging water infrastructure and drought and what needs to be 
done to better manage our infrastructure?
    Answer. Water resources infrastructure and urban water treatment 
and distribution infrastructure is aging. Drought highlights the 
consequences of aging and older infrastructure, such as reduced 
reservoir capacity due to sedimentation, reduced reservoir capacity due 
to pool restrictions for dam safety reasons, water leaks in urban 
distribution systems, and inefficiencies from unlined and uncovered 
irrigation canals. Decisions about whether to invest in upgrades to 
infrastructure are shaped by the financing available for the upgrades 
and their cost-effectiveness and reliability compared to other water 
supply augmentation alternatives.
    For reservoirs, sediment accumulation reduces storage capacity. In 
the United States, sedimentation restrictions on capacity are 
increasing as reservoirs age, particularly for the smaller rural water 
supply reservoirs that were built with anticipated useful lives of 50 
to 100 years. For example, a number of reservoirs in the Central Plains 
have lost from 20% to 50% of their original useable storage volume.\6\ 
While many of these reservoirs were initially constructed with U.S. 
Department of Agriculture assistance, they are locally owned and 
maintained, thus raising the question of the federal role in these 
facilities and in supporting rural water supplies. While structural 
modifications can help pass additional sediment downstream, operational 
changes and soil conservation management are part of the portfolio of 
response options.
---------------------------------------------------------------------------
    \6\ ``From Dust Bowl to Mud Bowl: Sedimentation, Conservation 
Measures, and the Future of Reservoirs,'' Journal of Soil and water 
Conservation, vol. 65 (January/February 2010). Hereafter referred to as 
``From Dust Bowl to Mud Bowl'' 2010.
---------------------------------------------------------------------------
    For federal reservoir facilities, the following is known.

  <bullet> Of more than 600 reservoirs operated by the U.S. Army Corps 
        of Engineers, less than 10% were reported as having water 
        supply operations restricted by sedimentation. The majority of 
        the impacted reservoirs were located in the Tulsa District, 
        which covers most of Oklahoma and southern Kansas.\7\
---------------------------------------------------------------------------
    \7\ M. Jonas, F. Pinkard, and J. Remus, ``USACE Reservoir 
Sedimentation: Data, Assessment, and Guidance,'' 2nd Joint Federal 
Interagency Conference, Las Vegas, Nevada, June 27July 1, 2010.
---------------------------------------------------------------------------
  <bullet> About 35% of Bureau of Reclamation reservoirs have been 
        surveyed, and according to survey results, about 5.4 million 
        acre-feet of storage capacity has been lost to sedimentation.

    In order to protect public safety below dams with safety 
deficiencies, a common interim measure for higher-risk dams is to put 
into place reservoir pool restrictions. For federal facilities, the 
following is known.

  <bullet> A number of Army Corps of Engineers facilities have 
        restrictions involving lowered pools or restrictions on flood 
        control pools. Some of these are in areas impacted by drought, 
        such as Isabella Dam in California, which has its capacity 
        reduced to 63% of normal; Wolf Creek Dam in Kentucky (with 
        repair work to be completed in late 2013); and Martis Creek Dam 
        in California (at the confluence of Martis Creek at Truckee 
        River near the Nevada border). Other Corps projects with dam 
        safety concerns that may produce pool restrictions are spread 
        across the country; for example, Moose Creek, Alaska; Success, 
        California; Herbert Hoover, Florida; Clearwater, Missouri; 
        Canton, Oklahoma; East Branch, Pennsylvania; and Center Hill, 
        Tennessee.
  <bullet> For the Bureau of Reclamation, two dams were experiencing 
        pool restrictions for safety concerns in the winter of 2012-
        2013: Guernsey Dam in Wyoming, with a restriction reducing 
        storage of a 73,810-acre-foot-capacity reservoir by 4,656 acre 
        feet (6%); and Red Willow Dam in Nebraska, which is a 86,630-
        acre-foot reservoir undergoing repairs, has its storage reduced 
        by 79,885 acre feet (92%).\8\
---------------------------------------------------------------------------
    \8\ ``From Dust Bowl to Mud Bowl'' 2010.

    These restrictions may be removed if actions are taken that relieve 
the safety concern.
    How to manage the aging federal water resource infrastructure, 
prioritize reinvestment, make new investments (e.g., levees and coastal 
storm protection measures), and share responsibilities between the 
federal government and nonfederal beneficiaries remains a topic of 
discussion. For example, federal investments in Corps dam safety 
assessments and rehabilitation projects are playing an increasing role 
in the agency's portfolio and asset management strategies are 
increasingly being investigated and studied.\9\ Efforts to 
significantly increase actions to address these issues through federal 
fiscal resources are challenged by the current federal fiscal climate.
---------------------------------------------------------------------------
    \9\ National Research Council, National Water Resources Challenges 
Facing the U.S. Army Corps of Engineers, Washington, DC, 2011, http://
www.nap.edu/catalog.php?record_id=13136.
---------------------------------------------------------------------------
    Question 6. Much of the attention during the 2012 drought was 
focused on the lack of precipitation, soil moisture, and surface 
waters, but I am curious to know, what role does groundwater management 
play in drought resiliency? How are states and others managing this 
resource?
    Answer. Not only do aquifers provide underground storage, but also 
they often underlay areas without convenient access to surface waters. 
The convenience of groundwater is one of its major attractions as a 
water supply; this convenience can result in aquifers being used not 
only during dry years but also during good water years (which may 
reduce groundwater availability during dry years). About 40% of the 
nation's public water supply and much of the water used for irrigation 
is provided by groundwater.\10\
---------------------------------------------------------------------------
    \10\ National Research Council, Investigating Groundwater Systems 
on Regional and National Scales, Washington, DC, 2000, http://
www.nap.edu/catalog.php?record_id=9961#toc.
---------------------------------------------------------------------------
    How groundwater was used during the 2012 drought remains largely 
unknown at this time, but information and analyses are likely to be 
forthcoming as agricultural surveys and state and local monitoring data 
become available.\11\ Long-term trends provide some of the most useful 
insights into the use, reliability, and management of groundwater 
resources. A 2013 U.S. Geological Survey (USGS) report of groundwater 
depletion from 1900 to 2008 found that ``the rate of groundwater 
depletion has increased markedly since about1950, with maximum rates 
occurring during the most recent period (2000-2008).''\12\
---------------------------------------------------------------------------
    \11\ The U.S. Geological Survey (USGS) provides online access to 
``Groundwater Watch,'' a national database of groundwater wells that 
includes current or recent conditions. The monitored wells in the 
database, however, are not evenly distributed nationally or regionally.
    \12\ L. F. Konikow, Groundwater Depletion in the United States 
(1900-2008), U.S. Geological Survey, Scientific Investigations Report 
2013-5079, Reston, VA, 2013, http://pubs.usgs.gov/sir/2013/5079/
SIR2013-5079.pdf.
---------------------------------------------------------------------------
    Like surface waters allocations, management of aquifers is largely 
a state responsibility; some states choose to create special 
groundwater management or conservation districts. The management 
approaches for aquifers vary widely; the approaches taken can be 
influenced by physical factors such as how quickly an aquifer is 
recharged and its connectivity to surface waters, as well as by social 
preferences to maximize groundwater availability during dry years or 
for regular use as a water supply. Groundwater depletion (and the 
consequent land subsidence) is well known in many parts of the United 
States, and in some regions aquifer management is less about trying to 
reverse depletion and more about managing the decline to prolong 
benefits, including water supplies during dry years.
    Kansas in 2012 took steps to allow water permit holders greater 
flexibility in when they withdraw water. Most state water right holders 
may apply for a multi-year flex account; the account provides for a 
five-year permit that temporarily replaces an existing annual water 
right. The permit allows the holder to exceed the annual quantity but 
restricts total pumping over the five-year period. How this regime 
performs as a business risk management tool for irrigated agriculture, 
and its impact on aquifers during the five-year period that started 
with the 2012 drought, are likely to be closely tracked. Kansas is one 
of the western U.S. states, like Washington and Idaho, which use the 
same water allocation system for both surface and groundwater. This 
conjunctive approach is particularly relevant in regions where 
groundwater significantly contributes to the baseflow in streams.
    Groundwater depletion or contamination raises concerns about 
drought and low water resiliency. This is because aquifers often 
function as multi-year storage reservoirs that are drawn upon most 
heavily in dry times. Also for water users that are distant from 
surface supplies, groundwater can be difficult and costly to replace if 
aquifers are overdrawn or contaminated.

   Responses of Nicole T. Carter to Questions From Senator Murkowski

    Question 1. Please further describe how water resource 
opportunities and challenges in meeting energy demand vary regionally 
within the United States.
    Answer. Most energy sector water-related opportunities and 
challenges fall under one of the following three energy topics:

  <bullet> energy resource extraction and processing,
  <bullet> electric generation, and
  <bullet> electric grid reliability.

    The response below is organized around these topics and how they 
manifest themselves regionally.
    For most energy resource extraction, processing, and use, water is 
either an essential input or one that is difficult or costly to 
substitute for, and degraded water is often a waste byproduct. Regional 
water resource opportunities and challenges related to energy will vary 
based on:

  <bullet> which energy resources are being developed in the region,
  <bullet> the local and regional significance of the energy sector's 
        water use, and
  <bullet> the regional conditions for management of energy sector 
        wastewaters.

    Each energy resource, technology, and practice uses water 
differently and has different impacts on water resources. For example, 
water is essential to the coal production. It manages dust in mining 
activities and is the basis of coal slurry for transport. Dewatering of 
some surface and underground mine sites produces wastewaters requiring 
management. Surface mining sites can alter runoff and infiltration 
patterns and may degrade water quality. Surface mine remediation often 
requires water for revegetation. Inadequate mine tailings and 
wastewater management techniques may pose risks to water supplies and 
ecosystems. Regions with coal mines therefore will have these water 
issues to manage. Whether the water that is used in the coal process 
for activities like managing dust, slurry transport, and mine 
remediation is significant will depend on the local availability of 
water and the other demands for that water locally and regionally.
    As of early 2013, no authoritative data on the freshwater consumed 
in energy resource extraction and processing across the range of 
conventional and unconventional fossil fuels and processes existed. 
Existing data sources were either incomplete or relied on sources that 
did not reflect current practices. This has thwarted efforts to 
accurately compare freshwater inputs across fossil fuel and renewable 
energy alternatives. From the available data, a few relative 
relationships do appear to hold. The spectrum of water intensity of 
fuels starts with conventional gas at the lowest end, coal and 
unconventional gas next, followed by oil, and irrigated biofuels is at 
the upper end.\13\ For oil, the relative water intensity of 
conventional and unconventional oil remains unclear. Similarly, few 
data sources are available for comparing the range of produced water 
quantities and qualities derived from both conventional and 
unconventional fuel extraction and processing activities.
---------------------------------------------------------------------------
    \13\ International Energy Agency, World Energy Outlook 2012, Paris, 
2012; E. Mielke, et al., Water Consumption of Energy Resource 
Extraction, Processing, and Conversion, Cambridge, Massachusetts: 
Harvard Kennedy School, 2010; World Energy Council, Water for Energy, 
London: World Energy Council, 2010.
---------------------------------------------------------------------------
    In addition to the energy sector being a rapidly growing consumer 
of water, the fossil fuel-water relationship represents a vulnerability 
for the development and use of these energy resources. The most salient 
vulnerability is disruption of fossil fuel extraction, processing, and 
use due to water quality or quantity constraints. Fossil fuel transport 
also may be disrupted by water conditions, such as flood-induced 
pipeline breaks resulting from riverbed scouring, flood-or storm-
related refinery or distribution system disruptions, and drought-or 
flood-impaired fuel transport.
    The energy-water resource relationship is not only about how a 
region's fossil fuels extraction and processing impacts local and 
regional water resources, but also about how the power sector uses 
water resources and is vulnerable to local and regional water 
conditions. Water availability problems, such as regional drought, low 
flow, or intense competition for water, can pose a risk to electric 
power production, particularly hydroelectric and thermoelectric 
generation. During low-flow or drought conditions (or high-heat 
events), which often occur during the hot summer season, water intakes 
and high water temperatures may harm or limit thermoelectric power 
plant cooling, potentially forcing facilities to scale back generation 
during high demand. While alternatives are available to reduce the 
water needs of power plants, many of the available alternatives come at 
higher cost and may reduce operational efficiency and electric output.
    The two common cooling methods are once-through cooling and 
evaporative cooling. Once-through cooling pulls large quantities of 
water off a water body, discharges the power plant's waste heat into 
the water (which may raise the temperature of the withdrawn water by 
10 to 20F), then returns the majority of the withdrawn water. Once-
through cooling, while largely a non-consumptive water use, requires 
that water be continuously available for power plant operations. This 
reduces the ability for this water to be put toward other water uses 
and can make cooling operations vulnerable to low streamflows. Most 
once-through cooling facilities are in the eastern United States and 
are associated with older facilities. Many coastal facilities also use 
saline water for once-through cooling. Evaporative cooling withdraws 
much smaller volumes of water for use in a cooling tower or reservoir, 
where waste heat is dissipated by evaporating the cooling water. 
Evaporative cooling consumes water. Many power plants operating in 
water-abundant regions use once-through cooling, while newer facilities 
and facilities in more arid regions often use evaporative cooling and 
are increasingly considering dry or hybrid cooling.
    Once-through cooling using both fresh and saline waters has raised 
concerns about impacts on ecology (e.g., impingement and entrainment of 
aquatic species) and quality of the receiving water body (e.g., 
elevated temperature and chemicals of the discharged cooling water). 
Consequently, the regulatory context of a power plant often will 
significantly shape the choice of cooling technologies. While the 
siting of power plants may be shaped by access to water for cooling, 
often siting is driven more by access to transmission, fuel supplies, 
and demand centers.
    While the water intensity of natural gas as a fuel depends on how 
it is extracted, natural gas-fueled generation is generally less water-
intense and less water-dependent than coal-powered electricity. This is 
because many gas-fueled electric facilities use engine-based technology 
that requires no or considerably less water for cooling. Therefore, 
displacement of coal generation by natural gas generation may reduce 
the future water footprint of power generation.
    An assessment of the drought vulnerability of electricity in the 
western United States found the majority of basins showing limited risk 
under most scenarios and found that the risk that did exist was 
amenable to mitigation by known strategies, maintaining excess 
generation and transmission capacity.\14\ That is, while examples exist 
of low water conditions curtailing generation from particular 
thermoelectric facilities in the western United States, generation 
shortfalls can be made up by increasing generation at other facilities 
or purchasing power from other sources or grids. While these actions 
maintain the level of service provided, they typically increase the 
cost of service for utilities and their customers. While identifying 
broad resiliency, the western U.S. assessment revealed two regions 
whose electric generation was at greater risk--the Pacific Northwest 
and Texas. The Pacific Northwest was shown to be vulnerable because of 
its heavy reliance on hydroelectric generation. The Texas grid was 
vulnerable because of heavy dependence on thermoelectric generation 
that relied on surface water for cooling and because of the region's 
high drought climate hazard.
---------------------------------------------------------------------------
    \14\ C.B. Harto, et al., Analysis of Drought Impacts on Electricity 
Production in the Western and Texas Interconnections of the United 
States, Oak Ridge, Tennessee: U.S. Department of Energy, 2011.
---------------------------------------------------------------------------
    In 2012 drought covered nearly 80% of the contiguous United States, 
and many locations experienced record heat. Generation was curtailed at 
a number of thermoelectric facilities, and low river conditions raised 
concerns about the transport of fossil fuels. However, no significant 
grid reliability problems developed. Instead, it appears that the 2012 
drought had a greater impact on ethanol production than it did on 
electric generation. This contrasts to the Texas electric grid during 
the summer of 2011, when the state was experiencing intense drought and 
heat.
    In the summer of 2011, high heat in Texas resulted in increased 
demand for electricity, and power plants were operated for extended 
periods at maximum capacity. The operator of the grid that covers 75% 
of the state and 23 million people put into effect its emergency action 
alert system, which at first recommended conservation by customers but 
eventually deemed customer conservation critical to avoid rotating 
outages. In the end, only one plant on the Texas grid had generation 
curtailed due to lack of water in the summer of 2011; others were 
nearing curtailment when the weather conditions improved. During and 
after the summer of 2011, power plant operators reduced their low water 
vulnerability by building pipelines to alternative and impaired water 
sources, acquiring additional water rights, lowering water intake 
structures, and installing additional groundwater pumping capacity.\15\
---------------------------------------------------------------------------
    \15\ Ibid.
---------------------------------------------------------------------------
    The Texas grid is particularly drought-vulnerable due to its 
limited connections to the other U.S. grids, which reduce the ability 
to purchase power to offset generation curtailment. During a few days 
of summer 2011, the peak demand purchases in the real-time wholesale 
electricity market for the Texas grid traded at or near the market cap 
(i.e., $3,000 per megawatt-hour). After the 2011 drought experience, 
the Texas grid operator instituted changes to reduce its water 
vulnerability. All new generation facilities as of 2013 must provide 
proof of water rights before they can be included in the grid planning 
that largely determines grid access. To date, little data is available 
on the extent to which low-water renewable technologies may be used to 
mitigate the Texas grid's drought risks.
    As of early 2013, no similar assessment of drought vulnerability 
for electricity in the eastern United States had been performed. There 
are facilities in the eastern United States that have had to curtail 
operations in the past due to low flow conditions; the lost generation 
is made up elsewhere in the grid. Curtailments of thermoelectric power 
facilities in the eastern United States are most likely due to concerns 
that discharges from once-through cooling systems will increase the 
temperature of the receiving body to an environmentally unacceptable 
level that harms aquatic fish and plants.
    Question 2. Please describe which federal agency should be 
responsible for leading initiatives regarding our nation's energy 
system and the availability of water to support it.
    Answer. While some countries and U.S. states have water departments 
or agencies, the federal government in the United States does not have 
a single entity managing water-related programs and activities. Instead 
the federal water-related work is distributed across a wide array of 
agencies.\16\ It is in the federal agencies that manage or are 
responsible for various sectors of the economy, society, and the 
environment that rely on and use water that Congress and the executive 
branch generally have placed water initiatives. For example, water 
initiatives and programs that primarily address water quality and 
relate to drinking water and wastewater treatment are housed at the 
U.S. Environmental Protection Agency. The Department of State and the 
U.S. Agency for International Development oversee U.S. efforts related 
to water as it affects international development and international 
relations. The U.S. Geologic Survey typically has focused on water 
science and data as part of natural cycles and the human environment.
---------------------------------------------------------------------------
    \16\ For more information, see CRS Report R42653, Selected Federal 
Water Activities: Agencies, Authorities, and Congressional Committees, 
by Betsy A. Cody et al.
---------------------------------------------------------------------------
    Question 3. Within your work at the CRS, you have posed several 
interesting questions as it relates to the energy-water nexus. In one 
instance you ask, ``Are states being unfairly burdened with the 
responsibility of increased water use and competition resulting from 
federal energy policies, or is this part of the responsibility that 
comes with state primacy in water allocation?'' Do you have any 
additional insight to this question now?
    Answer. The CRS question referenced was posed in CRS Report R41507, 
Energy's Water Demand: Trends, Vulnerabilities, and Management, by 
Nicole T. Carter; the context of the question included data indicating 
that the energy sector's water demands are growing in the United 
States, and as part of a broader discussion of perspectives on how to 
respond to the energy sector's growing water demand and water 
vulnerability, and who bears the cost. GAO in a 2012 report stated that 
``it is important for Congress and federal agencies to consider the 
effects that national energy production and water use policies can have 
at the local level.''\17\
---------------------------------------------------------------------------
    \17\ U.S. Government Accountability Office, Energy-Water Nexus: 
Coordinated Federal Approach Needed to better Manage Energy-Water 
Nexus: Coordinated Federal Approach Needed to better Manage Energy and 
Water Tradeoffs, GAO-12-880, September 2012, http://www.gao.gov/assets/
650/648306.pdf.
---------------------------------------------------------------------------
    Nationally, the energy sector's water consumption exceeds municipal 
and industrial use; it is second only to agriculture, which represents 
roughly 70% of consumption. Projections attribute to the energy sector 
85% of the growth in domestic water consumption between 2005 and 2030. 
The energy sector is the fastest-growing water consumer in the United 
States. This projected growth derives from anticipated demand for more 
energy, increased development of domestic energy sources, and greater 
use of water-intense energy alternatives. From 2005 to 2010, much of 
the growth in the energy sector's water consumption was attributed to 
the expansion of corn-based ethanol as part of the transportation fuel 
mix, in response in part to production incentives and consumption 
mandates.
    Much of the energy sector's growth in water demand is concentrated 
in water-constrained or drought-susceptible regions. The High Plains--
consisting of portions of Texas, New Mexico, Colorado, Kansas, 
Nebraska, Wyoming, and South Dakota--is one example of a low-rainfall 
area. Much of the High Plains has faced water supply issues for 
decades, such as the declining level of portions of the Ogallala 
aquifer since the mid-1960s.\18\ Expansion of biofuels in this area is 
an additional demand exacerbating already competing water uses.
---------------------------------------------------------------------------
    \18\ For more on and a map of the aquifer, see V. L. McGuire, 
Changes in Water Levels and Storage in the High Plains Aquifer, 
Predevelopment to 2005, USGS, USGS Face Sheet 2007-3029, 2007, http://
pubs.usgs.gov/fs/2007/3029/.
---------------------------------------------------------------------------
    Federal actions that promote energy conservation and efficiency 
likely reduce not only energy consumption but also the water embedded 
in the avoided consumption of energy. The water savings benefits of 
recent federal promotion of and investments in energy efficiency and 
conservation have not been reported. Similarly, the water savings 
benefits of federal support for less water-intense energy, such as wind 
and photovoltaic electric generation, also have not been reported.

      Response of Nicole to Carter to Question From Senator Flake

    Question 1. Last year, the Director of National Intelligence issued 
an assessment on Global Water Security, finding that poor water quality 
and shortages will lead to global instability. What lessons and 
expertise can water managers in the United States share with water 
managers in other countries to assuage water conflicts and add to 
global stability with regard to water issues?
    Answer. As Senator Flake notes, a February 2012 Intelligence 
Community Assessment of Global Water Security\19\ illustrates the 
strengthening view of water as critical not only to public or 
environmental health but also to political stability, food and energy 
supplies, and climate change mitigation and adaptation. Specifically, 
the report warns that water is anticipated to increasingly contribute 
to instability in nations important to U.S. national security 
interests. At the same time that water can have international security 
implications, governments often closely guard their authority and 
ability to manage and use their domestic water resources. Some 
activities that may improve water management include development of 
water-related expertise (e.g., training of water ministry staff, 
facility operators, climate and agricultural scientists, and civil 
engineers); exchange of experiences (e.g., drought and flood monitoring 
and forecasting), best practices, and lessons learned; and sharing 
appropriate environmentally sound technologies and know-how.
---------------------------------------------------------------------------
    \19\ Intelligence Community, Global Water Security, Office of the 
Director of National Intelligence, February 2012, http://www.dni.gov/
nic/ICA_Global%20Water%20Security.pdf.
---------------------------------------------------------------------------
    While the Intelligence Community Assessment of Global Water 
Security does not include recommendations, the following findings are 
of note and may be helpful in identifying actions consistent with the 
ICA findings.
Resource Management
  <bullet> ``Between now and 2040, fresh water availability will not 
        keep up with demand absent more effective management of water 
        resources.''
  <bullet> ``. . . from now through 2040, improved water management 
        (e.g., pricing, allocations and `virtual water' trade) and 
        investments in water-related sectors (e.g., agriculture, power, 
        and water treatment) will afford the best solutions for water 
        problems.''
Agricultural Efficiency
  <bullet> ``Without mitigation actions (e.g., drip irrigation, 
        reduction of distortive electricity-for-water pump subsidies, 
        improved use of agricultural technology, and better food 
        distribution networks), the exhaustion of groundwater sources 
        will cause food production to decline and food demand will have 
        to be satisfied through increasingly stressed global markets.''
  <bullet> ``Because agriculture uses approximately 70 percent of 
        global fresh water supply, the greatest potential relief from 
        water scarcity will be through technology that reduces the 
        amount of water needed for agriculture.''
Technologies and Knowledge
  <bullet> ``The United States will be expected to develop and 
        disseminate satellite and other remote sensing data and 
        hydrological modeling tools that allow users to better 
        understand and manage their resources.''
  <bullet> ``. . . the absence of good hydrological modeling and water 
        flow/level measurements (from the ground or via remote sensors) 
        creates distrust among nations sharing a common basin.''
  <bullet> ``Although the United States is recognized as a leader in 
        water technology, other countries have identified research in 
        water technology and will challenge US leadership over time.''
Cooperative Forums
  <bullet> ``New or updated international agreements would lessen the 
        risk of regional tensions over water.''

    On March 22, 2012, the U.S. Department of State released the 
Intelligence Community Assessment on Global Water Security and launched 
the U.S. Water Partnership (USWP), which is focused on technology and 
expertise transfer from the United States to international clients. The 
USWP was presented as a means to address the increasing demand for U.S. 
assistance and expertise identified by the Intelligence Community. USWP 
is a U.S.-based public-private partnership established to unite 
American water expertise, knowledge, and resources, and mobilize those 
assets to address water challenges internationally. USWP members 
include the Department of State, a number of federal agencies (e.g., 
U.S. Army Corps of Engineers), a variety of private companies, academic 
and professional groups (e.g., Environmental Law Institute, University 
of North Carolina Water Institute), and nonprofit entities (e.g., World 
Resources Institute). The intent is to facilitate international 
organizations and government identification of and access to the ``best 
of U.S.'' water expertise and technologies. In the long run, the goal 
is to turn global water issues into an opportunity to apply and expand 
current U.S. water leadership. This is to be achieved by improving 
access to U.S. water knowledge, building capacity internationally 
through U.S. knowledge, and facilitating U.S. private and public water 
partnerships and expert teams addressing international water 
challenges.
    One of the more visible water outcomes from the United Nations 
Conference on Sustainable Development (UNCSD or ``Rio+20'') on June 20-
22, 2012, in Rio de Janeiro, Brazil, was the commitment by 45 chief 
executive officers representing a range of global companies to advance 
corporate water management practices (e.g., develop policies and 
incentives to improve water productivity and efficiency), as part of 
the U.N. Global Compact, and their call on governments to make global 
water security a top priority.\20\ This type of corporate commitment 
and call for action by governments is representative of two trends. The 
corporate commitment illustrates how many actors are looking for 
solutions among their peers and through collaborations with others, 
rather than as a direct outcome of U.N. forums and activities. The call 
for government action represents that water is seen as one area that 
requires government action because it creates a collective risk to 
business and society, through flooding, scarcity, and pollution, and 
that addressing the complexity of water problems often exceeds the 
influence and resources of individual companies or citizens.
---------------------------------------------------------------------------
    \20\ United Nations, ``Rio+20: Business Leaders Commit to Water 
Sustainability at Rio+20; In Special Communique, CEOs Urge 
Complementary Action From Governments,'' press release, June 18, 2012, 
http://www.unglobalcompact.org/news/240-06-18-2012.
---------------------------------------------------------------------------
                                 ______
                                 
     Responses of Roger S. Pulwarty to Questions From Senator Wyden

                        FEDERAL ROLE IN DROUGHT

    Question 1. Do you believe we need to be doing more at the federal 
level to address these impacts? If so, what can we do?
    Answer. Past planning and responses to anticipate, manage, and 
reduce the impacts of drought have been successful for smaller 
droughts. However, the major events of 2012 illustrated that more could 
be done at the federal level to address drought impacts.
    Additionally, the National Integrated Drought Information System 
(NIDIS), with its many partners, has made great strides in addressing 
drought early warning and drought impacts across the United States 
(U.S.). In December 2012, NIDIS convened high-level drought experts and 
stakeholders from all levels of government and the private sector in a 
National Drought Forum, and the resultant report\1\ highlighted the 
need to increase public awareness, communication of drought-related 
information, and drought monitoring programs, and recommends actions 
such as the reauthorization of NIDIS and the expansion of Memorandums 
of Understanding among federal agencies to increase interagency 
collaboration. Also, in 2012, the Administration implemented the 
National Disaster Recovery Framework (NDRF) to respond to the drought 
impacts affecting the country. This foundational work is contributing 
to additional collaboration and information-sharing regarding drought 
across the federal agencies. As part of the President's Climate Action 
Plan, the Administration is leveraging the work of NIDIS, the 
recommended actions from the National Drought Forum, and the NDRF and 
launching a cross-agency National Drought Resilience Partnership. The 
National Drought Resilience Partnership will be a ``front door'' for 
communities seeking help to prepare for future droughts and reduce 
drought impacts. By linking information (monitoring, forecasts, 
outlooks, and early warnings) with drought preparedness and longer-term 
resilience strategies in critical sectors, this effort will help 
communities manage drought-related risks.
---------------------------------------------------------------------------
    \1\ http://www.drought.gov/drought/content/national-drought-forum-
summary-report-and-priority-actions
---------------------------------------------------------------------------
                           ENERGY-WATER NEXUS

    Question 2. Given the amount of water needed to produce energy, 
what is the appropriate federal role in responding to energy's 
intensive water demands?
    Answer. While NIDIS has no direct role in establishing energy 
policy and regulations, it could play an important role in conducting 
applied research and developing services that meet societal challenges 
by ensuring the best available monitoring and research informs 
management and practice and by disseminating this information. Agencies 
like DOE and others could have important contributions to this 
discussion and could play a role in encouraging efficiency in water 
used for energy development and production and/or encouraging new 
technology development.
    One of the primary objectives of the original NIDIS Act of 2006 
addresses the provision of a comprehensive drought early warning 
information system that:

          collects and integrates information on the key indicators of 
        drought in order to make usable, reliable, and timely drought 
        forecasts and assessments of drought, including assessments of 
        the severity of drought conditions and impacts. . . and 
        communicates this information to policy and decision makers at 
        the federal, regional, state, tribal, and local levels of 
        government; the private sector; and the public.

    Water supplies and availability are under stress in multiple areas 
across the U.S. Some of these areas have longstanding issues related to 
water stress such as the Colorado River and the Rio Grande River 
Basins, and these challenges are likely to increase with development 
and climate change. Furthermore, water stress from multiple competing 
demands has developed even in areas that receive relatively good annual 
rainfall (e.g. 40-50 inches) such as the Apalachicola-Chattahoochee-
Flint (ACF) River Basin, parts of North Carolina, and the Tennessee 
River Valley. One of the roles NIDIS and its partners play is in 
leveraging existing federal, tribal, state, and local data and 
information, improving where necessary, and ensuring information about 
vulnerability and risk is being communicated to specific sectors, such 
as the energy-water sectors, to reduce impacts and costs associated 
with drought. NIDIS has undertaken such actions in several of its 
systems, such as the ACF Early Warning System, by serving as a 
coordinating mechanism or platform for identifying data gaps; 
integrating sources of information from federal, state, tribal, and 
local entities; and communicating this information through the U.S. 
Drought Portal,\2\ drought outlook forums, and directly to decision 
makers through our network of partners. Improving links between drought 
and water resources plans remains critical.
---------------------------------------------------------------------------
    \2\ www.drought.gov
---------------------------------------------------------------------------
    NIDIS has been able to play an authoritative role in coordinating 
and disseminating information. As areas coping with water stress 
continue to develop and evolve, it will be critical for NIDIS to 
continue its work.
    Question 3. Several of you raised the need for better data and 
information in improving energy-water strategies. What steps can we do 
to make this happen?
    Answer. Several agencies, including DOE, EPA, USGS, and others have 
important contributions to make in this discussion. From NIDIS' 
perspective, steps that we can take to make this happen are:

          (1) Improve the process for water consumption and withdrawal 
        data submissions from the energy sector to the U.S. Energy 
        Information Administration (EIA) database.--In response to a 
        2009 GAO report,\3\ and in conjunction with the U.S. Geologic 
        Survey, EIA has been implementing improvements to its 
        collection of water data; however, a recent study funded in 
        part by NOAA\4\ may suggest additional avenues for improving 
        EIA's data collection. The study results have been provided to 
        EIA for review.
---------------------------------------------------------------------------
    \3\ Energy-water nexus: Improvements to Federal Water Use Data 
Would Increase Understanding of Trends in Power Plant Water Use, U.S. 
Government Accountability Office, GAO-10-23, Oct 16, 2009: http://
www.gao.gov/products/GAO-10-23
    \4\ Averyt, K., J. Macknick, J. Rogers, N. Madden, J. Fisher, J. 
Meldrum, and R. Newmark (2012) Water use for electricity in the United 
States: an analysis of reported and calculated water use information 
for 2008. Environ. Res. Lett. 8 015001 doi: 10.1088/1748-9326/8/1/
015001
---------------------------------------------------------------------------
          (2) Continued monitoring of weather and climate conditions.--
        National monitoring systems are critical for understanding 
        current and anticipated drought conditions. For instance, USGS 
        stream gauges, SNOTEL measurements, satellite measurements, and 
        daily surface and upper-air weather and radar observations, 
        including derived rainfall products, are important components 
        of our monitoring systems.
          Soil moisture, which is the water stored in the upper soil 
        layer, is a crucial variable in a number of issues: drought and 
        flood forecasting, predicting agricultural drought impacts, 
        managing water resources, and mitigating wildfire risk. Soil 
        moisture measurements are used to estimate rainfall runoff, 
        which is important for forecasting droughts or floods, and are 
        an important variable for driving streamflow and weather 
        forecast models.
          Evapotranspiration and evaporation measurements are also 
        important for drought monitoring and forecasting. Both 
        evapotranspiration and evaporation represent an important part 
        of the water cycle--when water is returned to the atmosphere 
        from the Earth's surface. Evapotranspiration rates impact how 
        much water is available to recharge aquifers or for streamflow. 
        As noted in the December 2012 USDA-DOC MOU, an improved soil 
        moisture monitoring network would provide a more comprehensive 
        view of drought conditions in the U.S. Data from the 
        coordinated network will improve the Nation's ability to assess 
        current conditions as well as contribute to predicting the 
        likelihood of future drought.
          (3) Power companies effectively use drought indices and 
        indicators as management triggers, thereby reducing potential 
        risks ahead of time.--In addition to enhancing current 
        monitoring, understanding how to use the information we already 
        have is also important. Power companies may use streamflow, 
        groundwater, reservoir levels, rainfall, the U.S. Drought 
        Monitor, or any number of other indices to make management 
        decisions regarding water supply management at all stages of 
        drought. However, determining how to use these indicators and 
        indices without acting too soon, which could result in 
        unnecessary restrictions, or waiting too long to take action, 
        which could result in a water shortage, must be carefully 
        calculated and assessed. NIDIS engages the NOAA Regional 
        Integrated Science and Sectoral Applications Programs to 
        produce impacts assessment and decision support tools which 
        could assist power companies in this planning.
          (4) Continue groundwater monitoring and research, 
        particularly those that focus on interactions between 
        groundwater and surface water. According to a 2011 report by 
        the Subcommittee on Ground Water of the Advisory Committee on 
        Water Information:\5\
---------------------------------------------------------------------------
    \5\ National Ground-water Monitoring Network - Results of Pilot 
Studies, The Subcommittee on Ground Water of the Advisory Committee on 
Water Information, 2011. May be accessed at: http://acwi.gov/sogw/
index.html

                  ``Ground water is the source of drinking water for 
                nearly 130 million Americans each day. . ..Although 
                overall water use in the United States has been 
                relatively steady for more than 20 years, ground-water 
                use has continued to increase, primarily as a 
                percentage of public supply and irrigation.''
                  ``. . . The Nation's ground-water resources are under 
                stress, and increased interstate and national attention 
                is needed to assure sustainable use of the resource.''
                  ``. . . Impacts include declining water levels and 
                contamination of ground water from chemical use and 
                waste disposal. Increased ground-water demand is 
                expected in all sectors of the economy, including the 
                heavy-use sectors of agriculture, drinking water, and 
                energy production.''

          Farming communities have survived through the Great Plains' 
        droughts by pumping groundwater from the region's aquifers. The 
        levels of those aquifers have been dropping at an accelerating 
        pace. A number of states and the USGS have issued reports in 
        recent weeks highlighting sharp drops in regional water levels 
        due to increased groundwater pumping. From 2001 to 2008 
        groundwater withdrawals have accounted for 32 percent of the 
        cumulative depletion over the course of the entire 20th 
        century. In some locations, water table levels have fallen 160 
        feet since the mid-20th century. Recharge is a slow process 
        even in wet conditions and virtually non-existent during drier 
        periods. Farmers have to lean more heavily on groundwater in 
        the absence of precipitation as happened on the Rio Grande and 
        Pecos rivers last year, and continue to do so this year so far. 
        Among the High Plains states, only Kansas mandates that its 
        farmers meter their water use, a good example to follow. In 
        other areas, water managers have to assemble a massive amount 
        of indirect data--from the power usage of water pumps to test 
        wells to meteorological data--to try to estimate how much water 
        is being used in a given year. Enhanced groundwater monitoring 
        and research will help power companies to assess their water 
        supply vulnerabilities during drought.

          (5) Explore providing drought outlooks tailored to the energy 
        sector on short (seasons to years) and longer-term (years to 
        decades) time scales.--These outlooks would be produced at the 
        seasonal to decadal scale to inform real-time decisions of 
        water managers and power companies, as well as their long-term 
        plans. NOAA, through its mission ``[t]o understand and predict 
        changes in climate, weather, oceans, and coasts, and to share 
        that knowledge and information with others,'' is a major 
        provider of climate data and information services for the 
        nation. NOAA's role in leading NIDIS uniquely positions the 
        agency to partner with other agencies and the public and 
        private sectors to ensure the nation has the information it 
        needs to support energy security. The largest growth in 
        freshwater consumption by the energy sector is expected in the 
        Southwest, the Northwest, and the High Plains. These regions 
        are already experiencing intense competition over water and 
        disputes over river and aquifer management, and some are 
        projected to experience increased water shortages in the 
        future, due to climate change and other factors. Through NIDIS 
        and its regional partners, NOAA has shown its ability to work 
        effectively with other agencies including USACE, DOI, USDA, and 
        with state and tribal governments on drought and water 
        resources. NOAA will extend these successful partnerships to 
        include the Department of Energy (DOE) and state energy 
        departments in these regions by investing in and providing data 
        and research that informs decision-making and expands 
        technology choices. The Secure Water Act (42 U.S.C 10361-10370) 
        directs federal water and science agencies to work together 
        with states and local water managers to plan for climate change 
        and other threats to water supplies and to take action to 
        secure water resources for communities, economies, and 
        ecosystems. NOAA is identified in the Secure Water Act as a 
        source for the credible science required by other agencies, 
        state, tribal, and local decisions makers, and the private 
        sector.

                            WATER MANAGEMENT

    Question 4. What role can, and should, new water storage projects 
play in meeting our country's water needs during times of drought?
    Answer. New water storage projects to meet the nation's water needs 
during drought could play a role to reduce vulnerabilities to drought 
and mitigate both near term and long term impacts, however this must be 
balanced with competing needs for increasingly scarce water resources, 
including environmental needs. The development of new water storage 
projects will need to be better integrated into state, tribal, and 
local drought plans, not only in terms of which new projects to pursue, 
but also how the management of new projects will be sustained and how 
they will advance objectives to increase resilience. Decisions on 
whether to pursue new water projects, and then their siting and design 
if approved, should be informed both by in-depth understanding of 
current and evolving regional climate conditions and by reliable 
projections of regional future climate variability and change 
(temperature, precipitation, evaporation, runoff timing and yield, 
long-term reliability of storage for particularly drought-sensitive 
regions). Providing a comprehensive understanding of climate and 
weather extremes will help ensure new water projects are able to meet 
the full spectrum of authorized purposes such as flood control, water 
supply, irrigation, hydropower, navigation, recreation, and fish and 
wildlife habitat. Decisions on how to retrofit existing infrastructure, 
to restore or enhance storage capacity with dredging, or to increase 
overall project storage capacity should likewise be informed by a clear 
understanding of future climate conditions and potential risks.
    One example of retrofitting existing infrastructure is Aquifer 
Storage and Recovery (ASR), which is undertaken with the purpose of 
both augmenting groundwater resources and recovering the water in the 
future for various uses. Aquifer Recharge (AR) and ASR wells are found 
in areas of the U.S. that have high population density and proximity to 
intensive agriculture, dependence and increasing demand on groundwater 
for drinking water and agriculture, and/or limited ground or surface 
water availability. AR wells, for example, have been utilized to deter 
salt water intrusion into freshwater aquifers and to control land 
subsidence. ASR wells have been used in Arizona, New Mexico, and Nevada 
to store and recover water for drinking water supplies, irrigation, and 
more recently, ecosystem restoration projects such as the Comprehensive 
Everglades Restoration Project.
    Question 5. A few of you mentioned water infrastructure in your 
testimony and I would ask that the panel expand on the connection 
between aging water infrastructure and drought and what needs to be 
done to better manage our infrastructure?
    Answer. Drought and associated high temperatures and extremely low 
precipitation can dry soils so deeply that the soil contracts and 
shrinks away from buried water pipes. Increased water usage, especially 
during drought periods, raises pressure inside the water lines. Both 
factors add strain to pipeline walls, making older pipes more 
susceptible to leaking and bursting. Much of the nation's underground 
water lines are 80 to 100 years old and approaching the end of their 
lifespan. According to the U.S. Environmental Protection Agency, U.S. 
water utilities lose an average of about 10% of their water through 
leaks and other causes,\6\ adding further stress during drought. That 
number is pushed higher in the event of large-scale system failures.
---------------------------------------------------------------------------
    \6\ U.S. Environmental Protection Agency. Drinking Water 
Infrastructure Needs Survey and Assessment. Fourth Report to Congress. 
2007. EPA 816-R-09-001; American Society of Civil Engineers. 2013 
Report Card for America's Infrastructure. May be accessed at: http://
www.infrastructurereportcard.org/.
---------------------------------------------------------------------------
    During a drought, one of the least costly and most effective 
strategies for a municipal water system to employ is maximizing 
conservation practices and increasing more efficient use of existing 
water supplies. Preserving existing supplies when there is a shortage 
due to hydrologic conditions can extend a limited supply and delay the 
need for more draconian curtailment measures. Evaluating and 
maintaining water infrastructure integrity is a vital conservation best 
practice.
    While NIDIS does not manage water infrastructure, one of its key 
purposes is to provide accurate and timely information on drought 
conditions and associated risks, such as the risks to water 
infrastructure systems, to facilitate proactive mitigation and 
management decisions. Providing information for increasing public 
awareness and educating those affected by drought, including municipal 
water systems, on the impacts of droughts to their operations and 
ability to supply water, is an important value that NIDIS brings to 
communities. NIDIS provides information and data to help outline and 
inform actions required to reduce the loss and damage expected from 
drought events. It also works with both urban and rural communities to 
understand impending drought events, identify potential risks (such as 
those associated with compromised water infrastructure systems) and 
preparedness strategies to proactively plan for potential failures. 
NIDIS also works closely with the municipal water supply community to 
educate and inform stakeholders on best practices to maximize the 
benefits of conservation and water efficient practices, which include 
the reduction of water line losses due to leakage.

   Responses of Roger S. Pulwarty to Questions From Senator Murkowski

    Question 6. The Energy Policy Act of 2005 required the DOE to 
implement a program of research, development, demonstration, and 
commercial action to address energy and water issues and assess 
existing federal programs, but it is our understanding that the DOE has 
not yet implemented this program. What is NOAA doing at this time to 
address this issue?
    Answer. The nation's energy-related water consumption is projected 
to increase by 50% by 2030. In addition, projections attribute 85% of 
the growth in domestic water consumption by 2030 to the energy sector 
alone.\7\ Much of the anticipated growth in energy's water demand is in 
water-constrained areas, potentially exacerbating low availability 
during summer and droughts, and increasing competition with existing 
uses. More than 80% of U.S. electricity is generated at thermoelectric 
facilities that depend on access to cooling water, with approximately 
24 of the nation's 104 nuclear reactors situated in drought-prone 
regions. As noted in a Washington Post article in September 2009:\8\
---------------------------------------------------------------------------
    \7\ U.S. Congressional Research Service. Energy's Water Demand: 
Trends, Vulnerabilities, and Management (R41507, Nov. 24, 2010), by 
Nicole T. Carter. Accessed: 18 June 2013.
    \8\ Eilperin, Juliet. ``Climate change challenges power plant 
operations.'' Washington Post, 09 September 2009.

          ``Drought and rising temperatures are forcing water managers 
        across the country to scramble for ways to produce the same 
        amount of power from the hydroelectric grid with less water,. . 
        . . . . . . . .as low water levels affect coal-fired and 
        nuclear power plants' operations and impede the passage of coal 
---------------------------------------------------------------------------
        barges along the Mississippi River. ''

    Energy resource and technology paths chosen and capital investments 
made in the near-term are likely to establish long-term trajectories 
for the energy sector's water use. Given present trends in energy and 
water demand\9\ alone, impacts are projected to increase for future 
droughts. Recent droughts, such as 2007-2009 in the Southeast, 2012 
across the U.S. (projected to continue into 2013) vividly illustrate 
these concerns.
---------------------------------------------------------------------------
    \9\ ``U.S. Energy Sector: Vulnerabilities to Climate Change and 
Extreme Weather,'' July 2013, Department of Energy. May be accessed at: 
http://energy.gov/sites/prod/files/2013/07/f2/20130716-
Energy%20Sector%20Vulnerabilities%20Report.pdf
---------------------------------------------------------------------------
    The capacity to deliver assessment and early warning information 
integrating the observations, monitoring, process understanding, and 
modeling of water resources to support energy production and management 
across climate timescales (e.g. from months to years to decades in 
advance) is a critical enabling capability. Critical to managing water 
resources to support energy production is an understanding of climate 
variability and change, extremes, and trends to improve forecasts of 
water supply, especially in characteristics of concern for effective 
early warning such as drought onset, magnitude, duration and 
recurrence. NOAA develops and improves drought and water resource 
monitoring, understanding of drought impacts, and forecasting 
capabilities to provide the information that impacts energy security. 
These include improved research, technology, and coordination to:

  <bullet> improve predictability for drought and flood onset, 
        duration, severity, and recurrence, for use in energy 
        infrastructure siting and production given decadal-scale and 
        longer-term forcing;
  <bullet> understand the role of heavy precipitation events and land 
        surface conditions in amplifying or reducing the severity of 
        drought and flood impacts on the energy sector;
  <bullet> develop timely, accessible communication tools (e.g. 
        regional and sub-regional outlooks and assessments) to inform 
        preparedness and adaptation to promote energy security; and
  <bullet> partner with private and public sector energy producers and 
        power administrators to improve information coordination for 
        prioritizing investments and to inform climate-sensitive energy 
        risk management from watersheds to coasts.

    Question 7. Uncertainties--including the future makeup of the 
nation's energy portfolio and the potential impacts of climate 
variability--must be considered when developing and implementing 
national energy and water policies. Please describe what you believe 
will be the future makeup of our nation's energy portfolio, as you make 
decisions on how to address these issues.
    Answer. Several agencies, including DOE, EPA, NOAA and others, have 
important contributions to make in this discussion. NIDIS plays a 
central role in addressing improvements in data quality through 
improved integration of data and information across climate timescales, 
such as intraseasonal (month to month) to interannual, or trends at the 
decadal or centennial scales. Better information on water-energy 
linkages will be key to managing the tension between water supply and 
power production. Decision makers in the public and private sectors 
need the most accurate and timely information possible on water supply 
and demand. Improvements in data quality will allow for more accurate 
assessment of water stress that can allow governing bodies to plan for 
sustainable water demand.
    One example of this work is the NIDIS effort to provide seasonal 
climate and drought outlook information at both a national and regional 
scale. The outlook concept is part of the larger NIDIS effort to 
establish a comprehensive set of Regional Drought Early Warning 
Information Systems across the U.S. The outlook information and process 
has been successful at anticipating the development of drought impact 
to sectors like energy and agriculture. For example, in late 2010, 
NIDIS held an outlook forum in Albany, Georgia, for the ACF River 
Basin. The conclusion from the forum was that drought would develop in 
the region over the winter and there was a strong likelihood this would 
lead to a multi-year drought. In 2011, drought did develop in the 
region and did not end until early 2013. Throughout the drought event 
NIDIS continued to update the seasonal outlook information through 
webinars (co-produced with USACE, USGS, state agencies, and 
universities), outlook statements, and additional outlook forums. Based 
on survey information following the event, the information provided had 
a significant impact on awareness and understanding of the drought and 
effective coordination of responses.
    Uncertainties also exist in our understanding of present climate 
variability and how this might change in the future, given climate 
change and other factors. Useful interannual (year to year) 
predictability of drought events for specific locations in the U.S. 
continues to hinge critically on the predictability of natural 
variations in the oceans, which are now themselves showing significant 
warming.\10\ One particularly important aspect of long-term change are 
changes in soil moisture due to increased warming. Understanding 
regional differences is key. For example in the Southwest U.S., greater 
temperature increase together with greater reduction in precipitation, 
are likely going to make droughts more severe and sustained compared to 
events elsewhere in the U.S.
---------------------------------------------------------------------------
    \10\ Seager, R. and M. Hoerling (2013) Atmosphere and Ocean Origins 
of North American Droughts. Journal of Climate (submitted)
---------------------------------------------------------------------------
    Question 8. Please describe how regulations and energy policies may 
impact water and its availability.
    Answer. While NIDIS has no direct role in establishing energy 
policy and regulations, its core value in these efforts is to provide 
authoritative, credible and accessible science, data, and information 
necessary to inform these discussions and policy outcomes. The first 
step in making informed decisions about power and water is to ensure 
that decision makers in the public and private sectors have accurate, 
timely, and readily available information on water supply and demand. 
NIDIS can and does provide that information and does so through a 
variety of products and communication pathways (although please see 
NOAA's response to Chairman Wyden's question #3 above for more 
information on how we can improve data information even more). One 
recent example of NIDIS' involvement in energy-water issues is close 
collaboration with the Western Governors' Association to assist them in 
developing strategies, policies, and initiatives aimed at exploring the 
water-energy nexus.

      Response of Roger S. Pulwarty to Question From Senator Flake

    Last year, the Director of National Intelligence issued an 
assessment on Global Water Security, finding that poor water quality 
and shortages will lead to global instability.
    Question 9. What lessons and expertise can water managers in the 
United States share with water managers in other countries to assuage 
water conflict and add to global stability with regard to water issues?
    Answer. Climate extremes, variability, and change, together with 
increasing development pressures, exacerbate conflicts among water-
sensitive communities and have impacts on economies and environmental 
systems. Climate models project increased aridity into the twenty-first 
century over large parts of Africa, southern Europe, the Middle East, 
the Southwest U.S., the Caribbean, Western Australia, and South East 
Asia.<SUP>\11\ \12\</SUP>
---------------------------------------------------------------------------
    \11\ Dai, A. (2011) Drought under global warming: a review. WIREs 
Clim Change 2: 45-65. doi: 10.1002/wcc.81.
    \12\ World Climate Research Programme (2011) Climate Observation 
and Regional Modeling in Support of Climate Risk Management and 
Sustainable Development, Consolidated Country Reports.
---------------------------------------------------------------------------
    U.S. expertise on water resource assessment and management in both 
the public and private sectors is highly regarded and will be sought 
after worldwide. Improved water management and improvement of 
institutional capacities to treat water and encourage efficient water 
use will likely be the most effective approaches to mitigate water-
related social tensions.
    Other countries will likely look to the U.S. for support to develop 
legal and institutional arrangements that resolve water disputes or 
advance cooperative management of shared waters based on the lessons 
learned in the U.S. River basin management, including treaties and 
river basin organizations, can provide stability, increase cooperation, 
and mitigate political grievances over water. Currently, water basin 
agreements often do not exist or are inadequate for many nations 
sharing watersheds. New or updated international agreements would 
lessen the risk of regional tensions over water. Even well-prepared 
river basins are likely to be challenged by increased water demand as 
well as impacts from climate change, such as increased variability in 
extreme events. The need for implementation of sound policies for 
managing water resources at the local, national, and regional levels 
will likely be heightened by the need to support major development 
projects.
    Additionally, because of existing expertise and resources, the U.S. 
may disseminate remote sensing data and hydrological modeling tools 
that allow users to better understand and manage their resources. Key 
in this setting is the proposed Global Drought Monitoring System being 
coordinated among agencies and international partners under the Group 
on Earth Observations (GEO) to which the U.S. is a signatory. The goals 
of the Information System are to:\13\
---------------------------------------------------------------------------
    \13\ Pozzi, W. et al. (2013) Towards Global Drought Early Warning 
Capability: Expanding international cooperation for the development of 
a framework for global drought monitoring and forecasting. Bulletin of 
the American Meteorological Society, doi: 10.1175/BAMS-D-11-00176.

  <bullet> strengthen the scientific and observational foundations to 
        support early warning for drought onset, severity, persistence 
        and frequency;
  <bullet> improve linkages between climate and streamflow modeling 
        during drought;
  <bullet> conduct spatial analysis of water demand during drought;
  <bullet> develop risk and vulnerability profiles of drought-prone 
        regions and locales, including impact of climate change 
        adaptation interventions on food and water availability, access 
        and use; and,
  <bullet> place multiple indicators within a statistically consistent 
        triggering framework-cross-correlation among units before a 
        critical threshold.

    The U.S. is a leader in the GEO process and is actively promoting 
coordination across surface-based and space-based observing systems and 
sustained operations with its international partners in the GEO 
process. As highlighted in the GEO 2012-2015 Workplan, key to this 
effort is the maintenance of intergovernmental mechanisms and support 
from partner countries for developing and coordinating terrestrial, 
ocean, and climate observations needed for climate studies and 
forecasting through complete and stable global observing systems 
(Global Climate, Terrestrial, and Ocean Observing Systems).
    The GEO Global Agricultural Monitoring initiative (GEO-GLAM) will 
bring together existing national and regional monitoring systems to 
establish a ``system of systems'' for monitoring global agricultural 
production and food security. This will require making these systems 
more compatible and interoperable, promoting common data standards, and 
strengthening transparency and data sharing. GEO-GLAM will focus 
initially on four key crops--corn, rice, soybeans, and wheat--that are 
widely traded and whose production is dominated by the world's main 
agricultural producers. Since agriculture uses 70% of the global 
freshwater supply, this sector has the most potential for efficiencies 
and savings while maintaining existing food security and market needs.
    Lastly, NIDIS works with the Famine Early Warning System Network 
(FEWSNet) to: (a) inform the development of strategic responses to 
anticipate crises and crisis evolution; (b) provide capabilities for 
generating problem-specific risk assessments and scenarios; (c) 
effectively communicate options to critical actors for the purposes of 
decision-making, preparedness and mitigation; (d) understand social 
vulnerability in order to identify entry points for actions to manage 
present conditions and to mitigate future risk; and (e) identify the 
institutional processes that support closer inter-institutional 
collaboration among research and agencies that direct information 
interventions and responses, such as extension services, development 
projects and non-governmental organizations. NOAA research and 
operations are providing critical information in support of the 
implementation of FEWS NET.
                                 ______
                                 
     Responses of Michael E. Webber to Questions From Senator Wyden

                        FEDERAL ROLE IN DROUGHT

    Question 1. Do you believe we need to be doing more at the Federal 
level to address these impacts? If so, what can we do?
    Answer. I believe that more can be done at the Federal level to 
address the impacts of drought. In particular, the Federal government 
can play a role in collecting data on water resources (streamflows, 
aquifer levels, etc.) to aid planners, can fund R&D for novel 
solutions, and can help establish guidelines to reduce the requirements 
for water-intensive industries. Because many water systems (rivers, 
lakes, aquifers) span across multiple states, it is difficult to 
delegate the data collection and planning entirely to state 
governments. Furthermore, the federal government is more effective and 
experienced at supporting the R&D systems nationwide than the states 
are. Lastly, it is common for the Federal government to set 
performance-based standards for energy efficiency, emissions, and so 
forth. Doing something similar for water is reasonable.

                           ENERGY-WATER NEXUS

    Question 2. Given the amount of water needed to produce energy, 
what is the appropriate Federal role in responding to energy's 
intensive water demands?
    Answer. I think that the EIA, which collects statistical 
information on energy, could also collect data on the energy industry's 
water needs. That data collection should be standardized and clarified 
so that consistent units and reporting conventions are used. It would 
also be useful to conduct analysis to determine the ways by which water 
scarcity triggers vulnerabilities in the energy sector.
    Question 3. Several of you raised the need for better data and 
information in improving energy-water strategies. What steps can we do 
to make this happen?
    Answer. It would be helpful to expand and clarify the mandate for 
the USGS and EIA (and other relevant agencies such as the EPA) to 
collect data, and then to fund the data collection efforts. In recent 
history, the funding has been cut and/or the mandate to collect data 
has been unclear.

                            WATER MANAGEMENT

    Question 4. What role can and should new water storage projects 
play in meeting our countries water needs during times of drought?
    Answer. New water storage projects are an important option to 
consider. However, their suitability as a solution will depend on site-
specific conditions. Underground storage, known as Aquifer Storage and 
Recovery (ASR), is also an option worthy of exploration. While storage 
is important, it should not be pursued at the exclusion of other 
promising approaches, such as conservation, efficiency, advanced 
technologies, and so forth.
    Question 5. A few of you mentioned water infrastructure in your 
testimony and I would ask that the panel expand on the connection 
between aging water infrastructure and drought and what needs to be 
done to better manage our infrastructure?
    Answer. Our aging water infrastructure is worthy of discussion for 
two reasons: 1) it is leaky and inefficient, which means it loses a lot 
of water and the water it doesn't lose is not used efficiently, which 
exacerbates the effects of drought, and 2) it does not include the 
latest technology upgrades (such as advanced metering and 
communications), which makes it less resilient when drought occurs. 
Fostering the innovation of advanced sensing technologies would help. 
These might include miniature flow meters that can help maintain an 
inventory of flows to pinpoint leaks, and remote leak detectors.
   Responses of Michael E. Webber to Questions From Senator Murkowski

    Question 1. Please describe your perspective on what options the 
Federal Government has to collect, maintain and make available 
accurate, updated and comprehensive water data. Which Federal agency 
should be the lead on this initiative?
    Answer. The Federal Government can give a clear mandate to relevant 
agencies to collect the data and can then provide the funds to do so. 
For water quantity assessments related to water resources (groundwater 
and surface water), the USGS (U.S. Geological Survey) is the best 
candidate to be the lead agency. For water uses by the energy sector, 
the EIA (Energy Information Administration) is the best candidate to be 
the lead agency. For water quality assessments, the EPA (Environmental 
Protection Agency) is the best candidate to be the lead agency.
    Question 2. What is your view on the need for better assessment and 
study of water-energy nexus themes as they relate to potential stresses 
on current and future water supplies?
    Answer. Areas for additional assessment and study include: 1) the 
interdependencies of different infrastructures, and how those 
interdependencies can cause cascading failures (that is, a water 
constraint can cause the electrical system to go down, which can cause 
the pipeline system to go down, so a water failure becomes an 
electricity failure which becomes a natural gas failure; or vice versa, 
a power outage becomes a constraint on the water system), and 2) the 
development of decision support tools. Local, state and federal 
planners lack the support tools they need to make decisions about 
different scenarios. Developing those tools would be valuable for 
predicting, avoiding and managing the potential stresses on supplies.
    Question 3. Please describe how the United States can satisfy all 
the expected water needs of existing and newly proposed power plants, 
including concentrated solar, in arid and semi-arid regions.
    Answer. There are several options, including switching to 1) power 
plants that do not require cooling (such as solar photovoltaic panels 
or wind), 2) more efficient power plants whose cooling needs are lower 
(such as natural gas combined cycle), or 3) cooling technologies that 
do not require water (such as dry cooling, which can be used with 
natural gas, coal, biomass, or concentrated solar). In addition, energy 
conservation reduces overall demand for power, which can mitigate 
strain on water supplies for power plant cooling.
    Question 4. Please describe the regions in the country that may not 
expect a significant water challenge within the next decade.
    Answer. For the most part, every region of the country faces some 
level of risk for a water challenge (including droughts or floods). 
Therefore, every region has a stake in effective planning.
    Question 5. What do you see as role of the Department of the 
Interior in working with local and state entities to plan and manage 
for water supply and wastewater disposal, treatment, or reuse related 
to energy development on federal lands?
    Answer. The DoI has a role in collecting data, conducting field 
studies, and studying the relevant science. The DoI also has a role to 
protect water quality and to ensure that energy decisions on Federal 
lands does not compromise water supplies for those lands or for 
neighboring lands.
    Question 6. How do costs of electricity and water affect policy and 
technology choices in this area?
    Answer. The costs of electricity and water are very important 
drivers of the different policy and technology choices. In particular, 
because water is so inexpensive, water-intensive options for power 
plant cooling and energy production are selected. If water were more 
expensive, then water lean approaches would be adopted more often.

     Responses of Michael E. Webber to Questions From Senator Flake

    During the hearing, it was suggested that water markets could be 
used to properly price water and encourage market forces to efficiently 
allocate limited water resources. Water, however, is unlike other 
commodities; it plays a critical role in essential human functions, 
while also serving as an important component for agricultural and 
industrial uses. As such, it seems that any sort of water marketing 
scheme would require minimum procedural safeguards.
    Question 1. What procedural safeguards should be considered when 
creating a water market?
    Answer. Water markets could be used to efficiently allocate 
resources, but they introduce the risk to human rights that people 
living in poverty will be priced out of the market, compromising their 
health and livelihood. Thus, water markets needs to balance the need to 
ensure a minimum level of access to clean water while also allocating 
resources efficiently. If everyone is granted access to unlimited 
volumes of really clean, cheap water, then much of that water will be 
wasted. That scenario is a close approximation to today's situation. If 
water prices were higher, then the largest users (agriculture, 
industry, energy, municipalities, etc.) would reduce water waste and be 
more efficient with their use. These priorities can be balanced with an 
inverted block pricing scheme, where the first few gallons per person 
per day of clean, treated water are free or very cheap (to make sure 
water is available to people for drinking, cooking and cleaning, which 
meets our human rights objectives), above which the prices increase for 
larger users. Those higher prices will spawn conservation, but because 
the first few gallons are available at a reasonable price, no human 
rights to water are violated.
    Question 2. Should the marketing of water rights be limited to use 
within the watershed or basin of origin?
    Answer. An expert on water rights would be better for this 
question. In my opinion, generally restricting the bulk of water use to 
its watershed or basin or origin sounds managing transfers is 
reasonable, though inter-basin transfer for a portion of the water has 
been conducted for millennia with success in various parts of the 
world. Those decisions would have to be balanced against the various 
public good and ecosystem priorities of the source and destination of 
the water.
    Question 3. Should marketing of water rights only be permitted to 
the extent that such rights have previously been beneficially used by 
the water right holder and actual water use is verifiably reduced by 
the water right holder (e.g., requiring fallowing or non-development 
agreements)?
    Answer. An expert on water rights would be better for this 
question.
    Question 4. Should a water marketing scheme differ depending on the 
type or nature of the water right being marketed (e.g., surface water, 
reserved rights, decreed rights, riparian water rights states, prior 
appropriation rights, interstate transfers, etc.)?
    Answer. Yes. Quality of water (fresh, brackish, sea, effluent, 
etc.) should also be considered.
    Question 5. If the marketed water right has a federal component 
(e.g., Indian water rights) what role should the Secretary of the 
Interior play in approving a water rights lease?
    Answer. An expert on water rights would be better for this 
question.
    Question 6. Last year, the Director of National Intelligence issued 
an assessment on Global Water Security, finding that poor water quality 
and shortages will lead to global instability. What lessons and 
expertise can water managers in the United States share with water 
managers in other countries to assuage water conflict and add to global 
stability with regard to water issues?
    Answer. Generally speaking, water strains can be a trigger for 
conflict and hostilities, both internally and between countries, and 
water abundance can be a source of peace. For example, some have cited 
drought as one of the triggers for the Syrian conflict (as drought 
pushed farmers into the cities looking for jobs, leading to high 
unemployment and civil unrest). Working together to find water 
solutions can be a path towards peace and cooperation.
                                 ______
                                 
     Responses of Michael L. Connor to Questions From Senator Wyden

    Question 1. Much of the attention during the 2012 drought was 
focused on the lack of precipitation, soil moisture, and surface waters 
but I am curious to know what role does groundwater management play in 
drought resiliency? How are states and others managing this resource?
    Answer. Groundwater is a key component to drought resiliency. When 
surface water supplies are stressed, many water users turn to 
groundwater to replace the deficit. Groundwater is, therefore, an 
extremely valuable source of supply in much of the arid West, both in 
areas served by Reclamation, as well as those parts of the country 
without Reclamation facilities. Reclamation has some project-specific 
authorizations dealing with groundwater and some projects under study 
which entail the use of water banks or subsurface storage. However, in 
general, Reclamation projects make only limited, incidental use of 
groundwater. In some cases, groundwater pumping can impact surface 
water supplies for proximal uses. According to the Congressional 
Research Service, a full understanding of the impacts of drought are 
``confounded'' by the varying levels of reliance among states and local 
communities on groundwater, and the uneven distribution of the 
resource. The U.S. Geological Survey has prepared several reports 
studying the role of groundwater in domestic water supplies, as well as 
the effect of groundwater withdrawals on streamflow. <SUP>\1\ \2\</SUP> 
The degree to which groundwater and aquifers are managed by state and 
local agencies differs widely depending on the location.
---------------------------------------------------------------------------
    \1\ Barlow, P.M., and Leake, S.A., 2012, Streamflow depletion by 
wells-Understanding and managing the effects of groundwater pumping on 
streamflow: U.S. Geological Survey Circular 1375, 84 p.
    \2\ Maupin, M.A., and Arnold, T.L., 2010, Estimates for self-
supplied domestic withdrawals and population served for selected 
principal aquifers, calendar year 2005: U.S. Geological Survey Open-
File Report 2010-1223, 10 p.
---------------------------------------------------------------------------
    Question 2. I recently introduced legislation to reauthorize the 
Drought Relief Act which expired last year. The legislation raises the 
authorization level to $110 million. How would this increase help the 
Bureau of Reclamation in mitigating drought impacts?
    Answer. The Drought Relief Act provides Reclamation with one of 
many tools to address drought, and we support the extension of this 
authority to fiscal 2018, as is contemplated in S. 659. With respect to 
the authorization level of $110 million, as stated in Reclamation's 
April16, 2013, testimony, given that there remains a capacity for over 
$15 million in authorized appropriations for this program under the 
existing authorization ceiling, the Department does not believe an 
increase in the authorization of appropriations is necessary at this 
time. If the authorized appropriations ceiling should become a more 
urgent constraint, we will evaluate the need for an increase to the 
appropriations ceiling at that time.
    Question 3. What assistance has Reclamation provided under the 
Drought Act authority to Oregon in the last 10 years?
    Answer. Using supplemental appropriations provided in fiscal 2010, 
Reclamation provided $10,536,585 to Oregon organizations for the 
following drought-related activities:

  <bullet> Horsefly Irrigation District-temporary pumping station to 
        lower pump intake $138,986
  <bullet> Klamath Irrigation District--variable frequency drives and 
        efficient well pumps/motors $246,050
  <bullet> Enterprise Irrigation District-well development $550,000
  <bullet> Klamath Water and Power Authority--Water Bank $8,037,687
  <bullet> Klamath Tribes--Drought and Endangered Species Management 
        $1,563,862

TOTAL: $10,536,585

    Question 4. What actions are Reclamation's offices and facilities 
taking in response to drought conditions this year in western and 
central portions of Oregon?
    Answer. Western and Central Oregon projects are not experiencing 
drought conditions this year and are expected to have adequate water 
supplies in 2013. For Eastern Oregon projects, operational strategies 
for drought conditions are determined by the managing districts. Owyhee 
Irrigation District has announced it will curtail allotments due to low 
water conditions. Vale Oregon Irrigation District has not made any 
announcements as to its intended management actions yet, but continues 
to watch the water supply outlook.

                        FEDERAL ROLE IN DROUGHT

    Question 5. Do you believe we need to be doing more at the Federal 
level to address these impacts? If so, what can we do?
    Answer. Reclamation is committed to continuing the Department's 
WaterSMART Program, which has proven highly effective at securing and 
stretching communities' water supplies both before and during periods 
of drought. It is anticipated that the program will exhaust its 
authorized appropriations for the WaterSMART water and energy 
efficiency grants in the next year. Therefore, in order to continue use 
of this highly valuable program which is significantly contributing to 
drought resiliency in the West, an increase in the authorization 
ceiling will be needed. A requested amendment to Section 9504(e) of the 
Secure Water Act of 2009 (42 USC 10364(e)), raising the ceiling from 
$200 million to $250 million, is part of the Appropriations language 
section of Reclamation's FY 2014 budget request, and will require 
action by the Congress.

                           ENERGY-WATER NEXUS

    Question 6. Given the amount of water needed to produce energy, 
what is the appropriate Federal role in responding to energy's 
intensive water demands?
    Answer. Federal agencies have an interest in promoting the 
conservation of water and energy, but also have a responsibility to 
evaluate the impacts of energy development on federal lands and 
natural/cultural resources managed by federal agencies. These efforts 
can help insulate communities from the effect of shortfalls in the 
supply of energy and water, save money, and make available supplies for 
additional uses, while protecting water for environmental purposes.
    Question 7. Several of you raised the need for better data and 
information in improving energy-water strategies. What steps can we do 
to make this happen?
    Answer. The Department, through its WaterSMART Program, emphasizes 
the nexus between energy and water use, and includes scoring criteria 
for grant projects that conserve both. The Secretarial Order creating 
WaterSMART recognized the water demands of energy development. As a 
result, in addition to saving hundreds of thousands of acre-feet of 
water, WaterSMART projects across the West are expected to save over 40 
million kilowatt-hours of electricity annually-enough power for 3,400 
households and additional savings are targeted for the future. 
Additional milestones are described in the program's three-year 
progress report, online at http://www.usbr.gov/WaterSMART.

                            WATER MANAGEMENT

    Question 8. What role can and should new water storage projects 
play in meeting our countries water needs during times of drought?
    Answer. Within the last few years, Reclamation has completed or 
helped facilitate several new storage projects that added water 
supplies in critical basins. These recent projects include (1) the 
completion of Ridges Basin Dam as part of the Animas-La Plata project 
and Colorado Ute Tribes Settlement; (2) Brock Reservoir on the Lower 
Colorado River, which helps regulate flows and conserve storage in Lake 
Mead; and (3) Los Vaqueros Reservoir expansion in California's Bay-
Delta Region, a perennially water short area. Reclamation will continue 
to look at storage opportunities, both surface and subsurface, which 
make technical and financial sense and can help improve overall water 
management.
    Question 9. A few of you mentioned water infrastructure in your 
testimony and I would ask that the panel expand on the connection 
between aging water infrastructure and drought and what needs to be 
done to better manage our infrastructure?
    Answer. The water infrastructure constructed by Reclamation and our 
partners in the West was built to mitigate for the reality of drought. 
We believe that the problem of drought is best addressed proactively 
through collaborative planning, targeted investments and an emphasis on 
water conservation, all of which we are focusing on through WaterSMART 
and other initiatives. As the region continues to grow and experience 
changes in climate and the economy, we will continue to evaluate and 
plan for the impacts of drought. This year, we will continue to seek 
efficiencies in our infrastructure, continue to operate to that 
reality, and through programs like WaterSMART, continue to fund 
proposals by our customers to accomplish water-saving efficiencies of 
their own. In the longer term, the Department is working every day to 
equip our agencies, partners and other resource managers with the data 
they need to answer the questions they face about water supply and use 
and to continue delivering water and power in the face of drought and 
our changing global climate.

                          COLORADO RIVER BASIN

    Question 10. How will has the recent Supply/Demand study affected 
talks among the Colorado River Compact parties? Have the Upper Basin 
States and/or Lower Basin States met to address the conclusions of the 
report?
    Answer. Reclamation continues to collaborate with the Colorado 
River Compact parties on a daily basis. Since the Study's completion in 
December 2012, Reclamation has been actively engaged in discussions 
with the seven Colorado River Basin States to design a process to 
pursue next steps. Building on the collaborative approach demonstrated 
in the Study, a multi-stakeholder process has been designed that will 
include the formation of three working groups to pursue activities 
related to urban conservation, agricultural conservation, and healthy 
river flows for ecological and recreational resources.
    Question 11. What is the status of the shortage criteria? Are there 
plans for revisions or an update?
    Answer. Reclamation has been operating Lake Powell and Lake Mead in 
accordance with the ``Colorado River Interim Guidelines for Lower Basin 
Shortages and the Coordinated Operations for Lake Powell and Lake 
Mead'' since 2008. The Guidelines, signed December 2007, will remain in 
effect for determinations to be made through December 31, 2025. 
Determination regarding water supply and reservoir operation decisions 
will remain in effect through 2026. The Secretary will, no later than 
December 31, 2020, initiate a formal review to evaluate the 
effectiveness of the Guidelines. The Secretary will consult with the 
Basin States in initiating that review.

   Responses of Michael L. Connor to Questions From Senator Murkowski

    Question 1. What is the appropriate federal role in responding to 
energy's water demand?
    Answer. As stated above in our answer to questions six and seven, 
Federal agencies have an interest in promoting the conservation of 
water and energy. These efforts can help insulate communities from the 
effect of shortfalls in the supply of energy and water, save money, and 
free up supplies for additional uses. The Department, through its 
WaterSMART Program, emphasizes the nexus between energy and water use, 
and includes scoring criteria for grant projects that conserve both. In 
addition to saving hundreds of thousands of acre-feet of water, 
WaterSMART projects across the West are expected by their sponsors to 
save over 40 million kilowatt-hours of electricity annually-enough 
power for 3,400 households-and additional savings are targeted for the 
future. Additional milestones are described in the program's three-year 
progress report, online at http://www.usbr.gov/WaterSMART.
    Question 2. The GAO has determined that a number of agencies have 
responsibility for managing specific aspects of the energy-water nexus, 
but these agencies do not consistently or strategically collaborate on 
these linked issues to ensure a harmonized approach to energy and water 
resource planning. How do you intend to harmonize a federal approach to 
this issue?
    Answer. Different agencies have individual missions, and bring 
their own capabilities to the task of water and energy management. 
Depending on what aspect of the energy water ``nexus'' is under 
consideration, not all Federal activities can or shou ld be 
``harmonized,'' but outright conflicts can and should obviously be 
avoided. The Department uses its participation in interagency task 
forces and Memoranda of Agreement/Understanding with other agencies to 
assure that its priorities in the area of water and energy conservation 
are consistent with activities underway at other agencies. For example, 
in March 2010, the Departments of the Interior, Energy, and Army 
entered into a Memorandum of Understanding to help meet the Nation's 
hydropower needs and to align ongoing and future renewable energy 
efforts.
    Question 3. One of the challenges to coordinated energy and water 
policy is that energy policy is developed at a national level and water 
policies generally are developed at a regional, state, and local level. 
How can improve the collaboration and coordination of your efforts on a 
more local level?
    Answer. Reclamation maintains a robust dialogue with its 
stakeholder community, which fosters collaboration and coordination at 
the regional, state and local level. Through participation in technical 
workshops, industry standard-setting acti vities, policy conferences 
and other venues, Reclamation strives to maintain awareness and 
coordination with energy and water policy choices being pursued by its 
partners.
    In December 2012, the Department of the Interior joined the 
National Integrated Drought Information System Office (NIDIS), the 
Western Governors Association and several other groups and agencies in 
hosting the National Drought Forum (NDF). The NDF included a series of 
plenary and breakout sessions to discuss the extent of the 2012 drought 
and outline actions that could help with drought response going 
forward. A draft NDF Report was released in February and highlights 
have been provided to local entities to provide strong examples of 
steps that can be taken to prepare for ongoing drought conditions.
    The President triggered development of another initiative through 
his directive to ``help the Midwest and states, like Colorado, move 
faster on projects that help farmers deal with worsening drought.'' 
Building on regional meetings held in the summer and fall of 2012 to 
hear concerns from affected communities, a Central U.S. Drought 
Mitigation Regional Team (DMRT) was formed in February to facilitate 
collaboration among Federal agencies (and their respective 
stakeholders) with ongoing and/or planned programs or projects. This 
effort will focus on the States of Colorado, Iowa, Kansas, and 
Nebraska. Reclamation is among the cooperating agencies in this effort, 
which is being led by the U.S. Department of Agriculture (USDA), with 
participation from the Army Corps of Engineers and the National Oceanic 
and Atmospheric Administration.
    Question 4. Drought also can influence a variety of other natural 
hazards and processes, such as wildfire, rapid erosion, and invasive 
species. What is the Department doing to understand and reduce the full 
spectrum of drought-related risks on federal lands and adjacent 
properties?
    Answer. The Department is taking action to better understand the 
risks posed by drought, including impacts on federal lands and adjacent 
properties. The Department continues to focus on farmers, ranchers, 
small businesses, and communities that are being affected, while 
recognizing that drought conditions have profound impacts on federal 
lands that support wildlife, fisheries, and plant communities. The 
Department continues to utilize all available tools when addressing 
drought. It is an issue that requires adaptive land management and 
thoughtful science-based approaches.
    The Department's Climate Change Policy (523 DM 1) aims to 
effectively and efficiently adapt to the challenges posed by climate 
change to its mission, programs, operations, and personnel. The 
Department will use the best available science to increase the 
understanding of climate change impacts, inform decision-making, and 
coordinate an appropriate response to impacts on land, water, wildlife, 
cultural and tribal resources, and other assets.
    The Bureau of Land Management (BLM) is implementing this policy 
through Rapid Ecoregional Assessments (REAs), which synthesize existing 
information covering nearly 800 million acres of the Western U.S. to 
better understand resource conditions and trends and identify 
opportunities for resource conservation, restoration and development. 
In addition, the BLM is implementing a national strategy to monitor the 
status and trends of BLM managed resources and lands on a landscape 
scale and is using the data to support adaptive management for drought 
conditions. The BLM is also developing guidance for proactive plans to 
address potential drought-stressed areas and plan for supplementing 
water sources. The BLM and U.S. Geological Survey (USGS) are 
collaborating on the Human Dimensions of Climate Change to offer 
information, guidance and applied research to inform management 
decisions. Furthermore, the USGS puts out regular drought monitoring 
products to support the Department's policy. VegDRI, in regular 
production since 2009, combines a variety of data to distribute weekly 
maps of vegetation conditions. WaterWatch indicates drought conditions 
through real-time streamflow information published on a web portal 
(waterwatch.usgs.gov). Both are used by State and non-governmental 
partners. The National Park Service utilizes climate change based 
scenario planning for park management that, where relevant, includes 
the effects of drought.
    Under the direction of the FLAME Act, the Department's wildland 
fire management program has been participating in the development and 
implementation of an intergovernmental, collaborative National Cohesive 
Wildfire Management Strategy, which seeks to unify wildland fire 
management policy and strategies in order to address risk factors, 
including the effects of drought. The wildland fire management program 
uses planning and operational decision support tools and methodologies 
that help manage drought-related risks.
    Question 5. Drought is resulting in interest in identifying 
flexibility in the operations of federal reservoirs and in federal 
programs. How do you see the Department of Interior using its existing 
authorities to better prepare for and manage drought?
    Answer. Reclamation operates its reservoirs pursuant to annual 
operation plans with continuing attention to mitigating the impacts of 
drought. As referenced in our testimony, we employ a number of tools, 
which include:

  <bullet> using excess capacity of project facilities for storage and 
        conveyance of project and non-project water for use both within 
        and outside of project boundaries (consistent with applicable 
        authorities);
  <bullet> purchase of water (from willing sellers) for ESA purposes 
        and to mitigate losses and damages to communities from drought;
  <bullet> regulating the quantity and timing of reservoir releases 
        (consistent with agreements);
  <bullet> educating producers confronted with reduced water supplies 
        on research-based irrigation scheduling and management 
        strategies; and
  <bullet> WaterSMART grants, Title XVI water recycling project 
        funding, system optimization reviews.

    Given the ongoing drought in Califo ia, we are currently taking 
actions on the Central Valley Project (CVP) to provide additional 
supplies to supplement low contractual allocations. These actions 
include rescheduling available storage, ; acquiring supplies from 
willing sellers; diversifying supplies to wildlife refuges that are 
served by project water; and constructing a new intertie between the 
CVP with the State Water Project that has provided more flexibility to 
pump water when it's available, adding tens of thousands of acre-feet 
of additional water supply to the project on an annual basis.
    In the Colorado River basin, which has suffered through drought 
conditions for more than a decade, reservoir levels have dropped 
significantly and there were strong concerns during the early part of 
2011 that the lower Colorado River basin could be in a shortage 
condition for the first time ever. A number of operational agreements 
have been executed over the last 10-15 years to promote conservation 
and increase the amount of water stored in Lake Mead-all with the idea 
of mitigating the impacts of long-term drought. The most recent 
agreement is Minute 319 to the 1944 Water Treaty with Mexico, a 
historic arrangement between the United States and Mexico that was 
signed last November, providing a range of binational benefits 
including (1) establishing a program whereby Mexico can temporarily 
reduce its annual water order, allowing that water to be delivered in 
future years; and (2) providing for additional water supplies to U.S. 
entities through conservation and efficiency improvements in Mexico.

     Responses of Michael L. Connor to Questions From Senator Flake

    The energy-water nexus involves a wide variety of considerations 
from the impact of drought on energy production to the energy needs for 
water delivery. In Arizona for example, the Navajo Generating Station 
provides power to pump approximately 1.5 million acre feet through the 
Central Arizona Project. Likewise, water augmentation proposals, such 
as desalination, would require significant energy resources.
    Question 1. Can you elaborate on the role of energy reliability and 
affordability in future water security of the Colorado River system?
    Answer. Reliable energy supplies have been and will continue to be 
essential to future water security on the Colorado and all river 
systems. The Department is pursuing an `all-of-the-above' energy 
strategy aimed at promoting reliable and sustainable practices that 
maximize supplies of domestic energy. Hydropower produced by the 
Colorado River Storage Project, for example, has resulted in favorable 
rates for electricity provided by electrical cooperatives in the 
southwestern U.S.
    During the hearing, it was suggested that water markets could be 
used to properly price water and encourage market forces to efficiently 
allocate limited water resources. Water, however, is unlike other 
commodities; it plays a critical role in essential human functions, 
while also serving as an important component for agricultural and 
industrial uses. As such, it seems that any sort of water marketing 
scheme would require minimum procedural safeguards.
    Question 2. What procedural safeguards should be considered when 
creating a water market?
    Answer. At the policy level, OMB Circular A-25 establishes Federal 
policy regarding fees assessed for Government services and for sale or 
use of Government goods or resources. Among the procedural safeguards 
identified in the circular are considerations that market prices create 
neither shortage nor surplus of the good, resource or service. 
Reclamation's procedures for facilitating the transfer of water among 
willing sellers and buyers is consistent with A-25, and anticipates 
additional safeguards achieved through compliance with the National 
Environmental Policy Act and other statutes.
    Question 3. Should the marketing of water rights be limited to use 
within the watershed or basin of origin?
    Answer. Water rights are administered by the states and water right 
holders. This is a question best decided at that level.
    Question 4. Should marketing of water rights only be permitted to 
the extent that such rights have previously been beneficially used by 
the water right holder and actual water use is verifiably reduced by 
the water right holder (e.g., requiring fallowing or non-development 
agreements)?
    Answer. See the response above.
    Question 5. Should a water marketing scheme differ depending on the 
type or nature of the water right being marketed (e.g., surface water, 
reserved rights, decreed rights, riparian water rights states, prior 
appropriation rights, interstate transfers, etc.)?
    Answer. See the response to question 3.
    Question 6. If the marketed water right has a federal component 
(e.g., Indian water rights) what role should the Secretary of the 
Interior play in approving a water rights lease?
    Answer. Indian water rights marketing is a complicated topic. The 
majority of the congressionally approved Indian water rights 
settlements contain leasing provisions, which often define the role of 
the Secretary of the Interior. However, each marketing provision is 
unique, tailored to the agreements negotiated among the parties on a 
case-by-case basis.
    Question 7. What lessons and expertise can water managers in the 
United States share with water managers in other countries to assuage 
water conflict and add to global stability with regard to water issues?
    Answer. Reclamation operates on river systems that cross many 
states and two international borders. A central lesson for avoiding 
conflict and promoting stability in water issues is to promote open 
communication and transparency among all parties and to encourage 
problem solving through cooperation and creative thinking, rather than 
litigation. Because of the robust communication between Reclamation, 
the seven basin states and Mexico, a number of multi-party agreements 
have been executed on the Colorado River to reduce potential shortages, 
the most recent agreement is Minute 319 to the 1944 Water Treaty with 
Mexico. Minute 319 is a historic arrangement between the United States 
and Mexico that was signed last November, providing a range of 
binational benefits including (1) establishing a program whereby Mexico 
can temporarily reduce its annual water order, allowing that water to 
be delivered in future years; and (2) providing for additional water 
supplies to U.S. entities through conservation and efficiency 
improvements in Mexico.
                                 ______
                                 
      Responses of Patricia Mulroy to Questions From Senator Wyden

                        FEDERAL ROLE IN DROUGHT

    Question 1. Do you believe we need to be doing more at the Federal 
level to address these impacts? If so, what can we do?
    Answer. The key to weathering drought is resource flexibility, 
which requires that municipal, agricultural and industrial entities 
have the ability to respond quickly to changing conditions. While the 
integrity of the National Environmental Policy Act should remain 
sacrosanct, an expedited track for water-resource projects that are 
necessitated by prolonged, debilitating droughts could substantially 
reduce the timeline associated with acquiring federal rights of way, a 
process that can sometimes span a full decade and preclude rapid 
response to drought conditions. Resource diversification also requires 
significant infrastructure in most cases, and the costs associated with 
that infrastructure can be debilitating for both water providers and 
ratepayers. Legislation such as S.601, which contains a provision 
supporting access to low-interest bonds for water infrastructure, would 
significantly enhance water providers' ability to quickly build 
necessary treatment and conveyance facilities to diversify their water 
supplies, with the added benefit of generating largely private-sector 
construction jobs. In areas such as the Southwest where the Department 
of Interior governs water resources, it is also essential that the 
agency maintain the authority to foster and authorize agreements and 
projects that optimize both the use of water resources and the health 
of the system as a whole. The Bureau of Reclamation's efforts in this 
area have been invaluable to the entire Colorado River Basin community.

                           ENERGY-WATER NEXUS

    Question 2. Given the amount of water needed to produce energy, 
what is the appropriate Federal role in responding to energy's 
intensive water demands?
    Answer. Just as there is no silver-bullet solution to water 
resource challenges, there is no single federal policy that can neatly 
address the water needs of our nation's diverse energy sources. For 
instance, it is well understood that hydraulic fracturing consumes 
significant quantities of water. While that might not be an appropriate 
use of resources in water-scarce areas such as the Southwest, it may be 
a reasonable beneficial use of water in water-rich regions of the 
country. Similarly, ``wet-cooled'' versus ``dry-cooled'' generation 
facilities involve a tradeoff between water consumption and energy 
output. In areas such as the Midwest where availability of water 
resources may not be a concern, it seems reasonable to accept the 
higher water consumption in exchange for greater energy output, while 
the same would not be true in Nevada. In the broadest terms, the 
optimal Federal role would be encouraging regionally appropriate energy 
generation technologies that reflect an awareness of each region's 
water resource conditions. Looking at this problem from the other side 
of the equation, however, it is clear that there is a productive 
Federal role in reducing the consumption of energy among all sectors. 
Such reductions would result in a reduced need for electrical 
generation and, in turn, for water resources to support that 
generation. Related to this, Federal incentives to energy producers for 
improvements in the water efficiency of these facilities would also 
incentivize technological advancements in this area. With fully half of 
the nation's water withdrawals being used to support energy generation, 
there is no question that this is the single greatest opportunity for 
water savings.
    Question 3. Several of you raised the need for better data and 
information in improving energy-water strategies. What steps can we do 
to make this happen?
    Answer. There is a substantial body of work in existence related to 
the nexus between energy production and water consumption, and vice 
versa. What has historically been lacking is a coordinated, 
comprehensive effort to compile the myriad datasets and analyze them 
for the purposes of producing in effect a ``best practices'' guidance 
document. This in turn would provide a useful tool for policy-making 
and potential incentive programs. For instance, an inventory of 
electrical generation facilities by location and type, along with their 
consumptive water uses and output, would be informative for Federal 
regulators seeking to encourage alignment between generation 
technologies and local water resource conditions. An example of this 
would be an initiative being undertaken by the Sandia National 
Laboratories, which is attempting to systematically encapsulate this 
complex and interdependent relationship and translate it into 
actionable recommendations. Any efforts by the Federal government to 
further this initiative would benefit both the water and energy 
sectors.

                            WATER MANAGEMENT

    Question 4. What role can and should new water storage projects 
play in meeting our countries water needs during times of drought?
    Answer. Water storage projects already play a critical role in 
insulating water users from drought by buffering the effects of reduced 
precipitation and encouraging conservation among users. As an example, 
the ability to ``bank'' water in Lake Mead has made a significant 
positive impact on its elevation because it eliminates the disincentive 
that previously existed wherein one state's unused allocation 
automatically transferred to downstream users. In the narrowest view, 
local water storage projects will reduce the impacts associated with 
short-term variability in climatic conditions. In the broader sense, 
however, regional water storage and conveyance facilities have the 
potential to entirely reshape how the United States manages water. 
While the notion of large-scale water projects has been the subject of 
some skepticism and even derision, the reality of the future will not 
be reflected in a single pipeline that stretches from the Midwest to 
the desert Southwest, but rather a series of interrelated projects that 
protects flood-prone regions, recharges groundwater aquifers, supports 
Great Plains agriculture and reduces withdrawals from Western sources 
such as the Colorado River. Just as our nation developed national 
networks to move electricity, oil, natural gas, coal and timber, so too 
can it create an infrastructure network to convey water for the benefit 
of all concerned. If indeed scientists' predictions prove accurate and 
some regions become inundated while others grow more parched, it would 
seem more than reasonable to consider options that solve both problems.
    Question 5. A few of you mentioned water infrastructure in your 
testimony and I would ask that the panel expand on the connection 
between aging water infrastructure and drought and what needs to be 
done to better manage our infrastructure?
    Answer. Water infrastructure is often given short shrift because it 
is for the most part invisible. Crumbling roads and unsound bridges are 
easy to identify; with water infrastructure, failure only becomes 
apparent when large-scale breaks occur. However, the implications of 
aging infrastructure on water resources are enormous. Approximately 14 
gallons out of every 100 delivered by public water agencies never 
reaches a home or business, but is instead lost to leaks. Based upon 
historic deliveries by municipal water agencies, this system loss 
equates to more than 2.5 trillion gallons of water a year--a quantity 
sufficient to fill approximately 4,000,000 Olympic-size swimming pools. 
In the context of water conservation initiatives, a 14 percent 
reduction in system-wide demand is phenomenal. Beyond the resource 
implications, the energy-intensive nature of water treatment and 
delivery means that water systems are expending significant amounts of 
energy to treat and move water that will never reach its destination. 
This, of course, exacerbates the strain on water resources for the 
production of electricity. The key impediment to water agencies' 
efforts to reduce these system losses is financial cost. Rehabilitating 
aging systems can cost tens if not hundreds of millions of dollars. 
There is unquestionably a role for the Federal government in addressing 
this issue, not in the form of grants or subsidies but rather in 
providing access to low-cost Treasury bonds. Both the Association of 
Metropolitan Water Agencies and the American Water Works Association 
strongly believe that water agencies should be financially self-
sufficient. The ability to draw upon this low-cost source of funding--
as reflected in S.601--would significantly reduce the impact of 
infrastructure reinvestment on ratepayers and thereby accelerate the 
rate of replacement and, accordingly, the reduction in system water 
losses.
    Question 6. What are the short and long term planning decisions you 
have made as a water manager to meet the growing challenge of supplying 
drinking water to southern Nevada during this period of prolonged 
drought? What are the costs of these decisions and how are you paying 
for them?
    Answer. For many years, the Southern Nevada Water Authority was 
focused on building water infrastructure quickly enough to keep pace 
with the fastest-growing region of the United States so that lack of 
water availability did not impede the community's economic prosperity. 
During the past two decades, our agency invested more than $2.5 billion 
in the community's water system, including construction of a new water 
treatment facility, expansion of the existing facility, and 
construction of miles of lateral water lines, pumping stations and 
related facilities. Drawing upon recommendations of a community-wide 
citizens committee, we structured a financial model that placed the 
majority of the financial responsibility upon the developers, who then 
imbedded those costs into housing prices. Beginning a little more than 
a decade ago, the issue of providing water to an increasing population 
was compounded by a drought of historic severity that struck the 
Colorado River, which represents 90 percent of the community's water 
supply. Our agency responded decisively by enacting new restrictions 
and development codes across all jurisdictions that significantly 
reduced the footprint of new residents and businesses while reducing 
the water use of existing customers. At the same time, it has invested 
approximately $180 million in incentivizing the replacement of 150 
million square feet of grass with water-saving desert-appropriate 
landscapes. However, we recognized that Nevada's use of Colorado River 
water is insignificant in context to the system as a whole and would do 
nothing to slow the decline of the region's lifeline. Therefore, we 
initiated permitting that would reduce our community's dependence upon 
the drought-plagued river by drawing upon renewable, unused groundwater 
resources in the east-central portion of the state. Having invested 
tens of millions of dollars and a decade of work in this process, we 
earlier this year received rights of way from the Bureau of Land 
Management to construct conveyance facilities for our permitted water 
rights; the construction timeline is contingent upon Colorado River 
conditions, but the construction cost is estimated at more than $3 
billion. Simultaneously, worsening conditions in Lake Mead compelled us 
to initiate construction of a new drinking water intake that would 
provide the community access to a high-quality--albeit potentially 
reduced--water supply from the Colorado River even during severe 
shortages. A newly formed citizens committee is evaluating a range of 
options to equitably share the financial burden associated with this 
infrastructure, which is far more difficult to bear due to the near-
cessation of development in Southern Nevada. This is another instance 
under which a Water Infrastructure Financing and Innovation Authority 
(WIFIA) funding source would be exceptionally valuable. All funding for 
the projects we have already constructed, are being constructed or 
anticipated to be constructed in the future are paid for locally. There 
is not a dime of Federal money involved in any of them.
    Question 7. What lessons learned can you share with the Committee 
for the benefit of other water managers?
    Answer. There are far too many to recount, but from the perspective 
of a municipal water agency, two lessons stand at the forefront. First, 
the importance of water resource diversification cannot be overstated. 
In 2000, the Southern Nevada Water Authority signed a pact that gave it 
effectively unlimited direct use of the Colorado River for more than 15 
years; within two years, the drought had virtually eliminated that 
supply. It is not necessary to actually physically construct 
alternative supplies in advance of their necessity, but given the 
realities of permitting and litigation, it is essential to take 
measures that will allow those supplies to be brought to bear quickly 
if needed. In the Southwest, rapidly deteriorating conditions do not 
provide the luxury of leisurely implementation horizons. The second is 
to develop and utilize a funding structure that fully and equitably 
reflects the value of water. It is no secret that many water rate 
systems fail to fully recover the costs associated with treating and 
delivering water. This is particularly true among low-use residential 
customers and among businesses protected by fire lines, who receive the 
benefit of asset protection often without paying for the system 
capacity necessary to support it. Our experience has been that while 
customers in all sectors are relatively receptive to periodic 
incremental increases in the cost of water, they are particularly 
resistant to the imposition of new charges. Therefore, it is in the 
best interest of municipal water managers to assess fees on all 
services that warrant it from the outset, even if those fees are 
nominal.
    Question 8. Much of the attention during the 2012 drought was 
focused on the lack of precipitation, soil moisture, and surface waters 
but I am curious to know what role does groundwater management play in 
drought resiliency? How are states and others managing this resource?
    Answer. Because they react much more slowly to variations in 
climatic conditions, groundwater aquifers represent a tremendous 
resource in managing water supplies. Additionally, as entities like the 
Central Arizona Project, the Southern Nevada Water Authority, Orange 
County, Calif., and others have demonstrated, aquifers can be used as 
subterranean reservoirs for conserved or surplus water. During the past 
few decades, the science behind groundwater hydrology has advanced 
significantly, giving water managers valuable new tools to manage this 
vital resource sustainably. In terms of how groundwater is managed now, 
approaches and regulations vary wildly from state to state. For 
instance, in places like California, there are few codified rules 
governing its use, despite significant drawdown issues in some part of 
the state. At the opposite end of the spectrum, Nevada has arguably the 
nation's most restrictive groundwater law, which decouples water rights 
from land ownership and quantifies the ``perennial yield'' of each 
basin in order to protect the resource and the surrounding environment. 
Eastern states have an entirely different set of rules, wherein 
riparian rights are often assigned with property ownership. While 
developing a one-size-fits-all water policies for these markedly 
distinct regions would not be productive, a reconnaissance-level 
assessment of these various approaches and resulting conditions within 
their sphere of influence would likely yield insights about the 
benefits and limitations of each management strategy.

                          COLORADO RIVER BASIN

    Question 9. How has the recent Supply/Demand study affected talks 
among the Colorado River Compact parties? Have the Upper Basin States 
and/or Lower Basin States met to address the conclusions of the report?
    Answer. The release of the Colorado River Basin Supply and Demand 
Study has been beneficial to the seven states that share the river's 
flows in that it has quantified both the nature and scope of the 
challenges ahead. Moreover, the inclusive, collaborative manner in 
which the study was developed strengthened already productive 
relationships among the states' representatives, many of whom 
participated on a technical level. The end product was one that was 
universally accepted by the states, forestalling unproductive 
discussions about the nature of the problem and the gamut of solutions 
available. With the parameters established, the states have begun to 
discuss the feasibility of various potential actions and prioritize 
them for more refined analysis. Principal representatives from all of 
the Colorado River Basin states have met since the finalization of the 
study, and are now working together to chart a path that will 
systematically explore both the options already articulated and those 
that may emerge. What is certain is that no single solution will 
address the Colorado River's long-term challenges; rather, the solution 
will take the form of a mosaic, assembled and managed in concert by the 
various stakeholders.
    Question 10. What is the status of the shortage criteria? Are there 
plans for revisions or an update?
    Answer. The first-, second- and third-tier shortage trigger levels 
and associated responses remain unchanged from the original shortage 
guidelines adopted in 2007. While there are no plans to amend those 
criteria, the quantification of shortages below elevation 1,025 and the 
assignment of said shortages among the Colorado River Basin states and 
Mexico has yet to be addressed. At this point, the Colorado River 
community is making a concerted effort to identify strategies that 
maintain healthy elevations in Lake Mead. If and when conditions 
deteriorate to a point that first and second stage shortages take 
effect, discussions will undoubtedly be initiated by the states related 
to sub-1,025 elevation shortage criteria.

    Responses of Patricia Mulroy to Questions From Senator Murkowski

    Question 1. As a water manager, please describe how water resource 
constraints within your service area have, or could, become energy 
constraints.
    Answer. Despite being situated within the Southern Nevada Water 
Authority's service area, Hoover Dam--which currently generates an 
average of approximately 4 billion kilowatt-hours of hydroelectric 
power annually--is not a major source of electrical energy for Southern 
Nevada. The community receives less than 25 percent of Hoover Dam's 
output, with the majority conveyed through regional transmission lines 
to California and a lesser amount to Arizona. Much of Southern Nevada's 
energy is derived from generation facilities within Nevada's borders 
but outside the Las Vegas Valley Hydrographic Basin. Therefore, the 
relationship between water and power is contingent upon the continued 
availability of NV Energy's permitted groundwater supplies, which are 
managed by the Office of the Nevada State Engineer.
    Question 2. How can the federal government work with the other 
interested parties in both the public and private sectors to improve 
overall efficiency and cost savings of water for energy and energy for 
water type operations?
    Answer. There are two key considerations that warrant exploration 
and potential Federal intervention. The first is spurring innovation on 
both sides of the equation, which the Federal government can foster 
through a variety of economic tools. For instance, there are new water 
treatment processes available that are considerably less energy-
intensive than many currently adopted systems. Similarly, capitalizing 
on the movement of treated water through the use of hydroturbines or 
similar technologies has demonstrated noteworthy results. However, 
incorporating these new technologies into a water utility's operations 
is often expensive, with a long rate of cost recovery. There are also 
energy production innovations on the horizon that could dramatically 
reduce the water consumption associated with power generation; again, 
these improvements come at a cost. To the extent that the Federal 
government elects to take a proactive role in fostering such 
innovations, there is a significant long-term yield to be derived. The 
second consideration is evaluating the type of energy production 
technology being applied and its appropriateness given the availability 
of water resources in that particular area. While again this falls into 
the broader discussion of the Federal government's appropriate role 
because of potential regulatory outcomes associated with this analysis, 
the relationship between choices of energy production and local 
hydrologic conditions is not one that has been explored in any 
significant depth.
    Question 3. What is your view on legislation to promote better 
practices for water-energy nexus related operations?
    Answer. Given the aforementioned site-specific nature of these 
relationships, the critical word is ``promote'' rather than 
``regulate.'' Too often, people associate Federal intervention with 
restrictions rather than incentives. As it pertains to fostering 
technological innovations and promoting best practices, there is little 
question that Federal guidance and support provided through the 
legislative process could help change the way this nation thinks about 
the water/energy marriage. Ultimately, there is no single approach that 
will be successful in every locale because conditions vary so 
dramatically in different parts of the country. However, guidance that 
presented a suite of geographically specific options and 
recommendations, coupled with incentives to encourage investments in 
innovation and the adoption of best practices, could yield a positive 
outcome.

      Responses of Patricia Mulroy to Questions From Senator Flake

    The energy-water nexus involves a wide variety of considerations 
from the impact of drought on energy production to the energy needs for 
water delivery. In Arizona for example, the Navajo Generating Station 
provides power to pump approximately 1.5 million acre feet through the 
Central Arizona Project. Likewise, water augmentation proposals, such 
as desalination, would require significant energy resources.
    Question 1. Can you elaborate on the role of energy reliability and 
affordability in future water security of the Colorado River system?
    Answer. Water is of limited value without the means to deliver it. 
The resource itself is virtually free; it is the treatment and 
conveyance of water where the vast majority of expenses are incurred. 
Of the many cities that rely upon Colorado River to serve their 
citizens, Las Vegas is one of the few actually located within the 
Colorado River Basin and it is the only one in close proximity to the 
river itself, and is also unique in recycling virtually 100 percent of 
its indoor water. As you astutely observed, vast quantities of water 
are pumped to Arizona's desert cities. Similarly, San Diego, Los 
Angeles and other coastal California cities import their Colorado River 
water from great distances, as do Denver, Salt Lake City and 
Albuquerque. The reality is that, in the modern world, people seldom 
settle in a particular location because of its proximity to a reliable 
water supply. Rather, there is an expectation that through the genius 
of engineering, water will be conveyed to them. However, with the rare 
exception of a gravity-feed system, water must be pumped to its 
destination, and doing so requires substantial electrical energy. For 
example, our agency alone spent almost $45 million last year alone for 
operational energy costs. Electrical power is already a significant 
factor in water pricing, and it will only increase as the strain on our 
energy supply increases. Desalination, which is certainly feasible from 
a technological perspective and would at least in some small measure 
alleviate stress on the Colorado River, currently has an exceptionally 
large energy footprint. Given economic conditions, that certainly will 
be an inhibiting factor for its broad adoption. Any mitigation 
strategies, whether they involve bringing new water into the system or 
having water users utilize resources from outside the Colorado River 
Basin, will necessarily entail considerable energy costs.
    Question 2. Last year, the Director of National Intelligence issued 
an assessment on Global Water Security, finding that poor water quality 
and shortages will lead to global instability.
    What lessons and expertise can water managers in the United States 
share with water managers in other countries to assuage water conflict 
and add to global stability with regard to water issues?
    Answer. There are a multitude of lessons that water managers in the 
United States can share with their counterparts in other countries, and 
many that our counterparts can share with us. Unfortunately, however, 
important practices related to water resource management are difficult 
to apply in other countries because their political and legal 
structures are not conducive to implementation. Despite criticisms from 
abroad and within our own borders, the United States is first and 
foremost a nation of laws. Those laws provide a structure that--while 
occasionally rigid--creates certainty and provides opportunities for 
legal relief. Having closely studied conditions and conflict over water 
in the Middle East, I have observed that much of the intractability of 
these problems stems from an inadequate framework for resolving 
disputes, either between countries or within them. Beyond that, issues 
over water resources are interwoven with other issues in relations that 
are often complex and difficult. With that said, water quality issues 
are absolutely solvable, and it is both tragic and unnecessary that in 
the 21st century waterborne illness continues to take more lives--
estimated at more than 3.4 million a year by the World Health 
Organization--than any other cause of death. Moreover, the lack of 
access to a safe, reliable water supply is a root cause of poverty 
worldwide and is a nearly insurmountable obstacle to development in 
those portions of the world. Those issues are only compounded when a 
lack of water seriously impairs the areas' food supply. While water 
professionals in the United States have considerable expertise they can 
bring to bear on this situation, the unfortunate truth is that many of 
the infrastructure issues plaguing parts of the world are rooted in 
political instability. However, American water professionals are at 
work in many parts of the world helping communities build sustainable 
water supplies. Until and unless the underlying sociopolitical problems 
are addressed, large-scale improvements in clean water and sanitation 
are likely to be inconsistent and transient.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

            Statement of the Western Governors' Association

    This testimony is respectfully submitted to the Chairman and 
members of the Senate Committee on Energy and Natural Resources by 
James D. Ogsbury, Executive Director of the Western Governors' 
Association (WGA), on behalf of the organization.
    The WGA is an independent, non-partisan organization of Governors 
from 19 Western states, three US-Flag Pacific Islands. The Western 
Governors recognize that many vital issues and opportunities--including 
water management, forest health, energy development, and wildlife 
conservation--cross state lines and are shared priorities throughout 
the West. Western Governors work through WGA to address the key policy 
and governance issues that arise out of the shared western landscape.
    Western Governors have a legacy of leadership in drought planning, 
energy management, and the complex issues associated with water 
allocation and use in the West. These issues are critically important 
to the West and the Governors ask the Committee to consider the 
perspective of western states in its deliberations on related issues.

                  DROUGHT PREPAREDNESS AND MONITORING

    Droughts and extreme weather events cause significant impacts to 
economies, communities and the natural environment of the western 
states. The 2011 drought in the Southern Plains and Southwest cost more 
than $12 billion;\1\ the widespread drought of 2012 will almost 
certainly cost as much if not more, as the most extensive drought the 
U.S. has experienced since the Dust Bowl era in the 1930s.
---------------------------------------------------------------------------
    \1\ http://www.ncdc.noaa.gov/billions/events
---------------------------------------------------------------------------
    The Governors have tasked WGA to support states in monitoring, 
forecasting, preparing for and responding to extreme weather events. In 
June 2011, the Governors signed an MOU with the National Oceanic and 
Atmospheric Administration (NOAA) to improve the development, 
coordination and dissemination of climate information and early warning 
systems in order to reduce disaster risk from extreme weather events. 
WGA and NOAA have co-sponsored regional meetings since that time, in 
both the Pacific Northwest and the Upper Missouri Basin, to connect 
NOAA monitoring and forecasting with on-the-ground decision makers.
    WGA also joins NOAA once every three months to publish the 
Quarterly Climate Impacts and Outlook,\2\ a document which shows 
drought maps, projections, and effects across the region.
---------------------------------------------------------------------------
    \2\ Read past issues of the Quarterly Climate Impacts and Outlook 
at www.westgov.org/initiatives/climate.
---------------------------------------------------------------------------
         NATIONAL INTEGRATED DROUGHT INFORMATION SYSTEM (NIDIS)

    In the mid-2000s, then-Governors Johanns (NE), Richardson (NM) and 
Martz (MT) spearheaded regional support for the creation of the 
National Integrated Drought Information System (NIDIS). Since its 
establishment, state agencies and WGA have provided additional 
suggestions and guidance to ensure that NIDIS delivers relevant and 
timely information on drought to western states.
    The Western Governors have policy in place that specifically 
supports the continuation of NIDIS:

          ``Western Governors believe a comprehensive, integrated 
        response to drought emergencies, including mitigation planning, 
        is critical to the social, environmental and economic well-
        being of the West. . .Governors recommend the continued 
        development of the NIDIS program, particularly with respect to 
        implementation of regional drought early warning systems.''

                                       --WGA Policy Resolution 11-7

    NIDIS provides a single, authoritative venue for drought 
information at its website, drought.gov. It coordinates observations 
and research from various federal, state, and academic experts, and it 
provides a `one-stop shop' for state water resource managers, the 
agricultural community, the private sector, the media, and others who 
are affected by drought. From the perspective of western states, where 
water is often already a scarce resource, the information available 
through the NIDIS website is an immensely useful planning tool.

            DROUGHT'S EFFECTS ON ENERGY AND WATER MANAGEMENT

    Water is a critical component of energy development in the West. 
Water for resource extraction or cooling in thermoelectric plants is 
essential to operations. Studies have shown that proposed traditional 
and renewable power plants will be a major driver of new water demand 
over the next decade. A preliminary analysis by WGA and Sandia National 
Labs predicts that thermoelectric demands will account for 50 million 
gallons per day of new consumptive demands. That new demand will be 
particularly high in the water-stressed Southwestern US, causing even 
more competition for water in a drought-prone region.\3\
---------------------------------------------------------------------------
    \3\ Western Electricity Coordinating Council, 10-yr Regional 
Transmission Plan: Plan Summary, Sept 2011, pp 88- 94. http://
www.wecc.biz/library/StudyReport/Documents/Plan_Summary.pdf .
---------------------------------------------------------------------------
    For water management, the effects of drought are even more direct. 
Water storage in reservoirs allowed westerners to weather last year's 
severe drought, but tapping into reservoirs means less water in reserve 
for future drought. In Colorado, where reservoir storage is 16 percent 
below average,\4\ cities in the metropolitan Front Range area are 
already enacting water restrictions for their residents.\5\ New 
Mexico's reservoirs are even lower, at 24 percent below average.\6\
---------------------------------------------------------------------------
    \4\ As of April 1, 2013. Information from NRCS at 
www.wcc.nrcs.usda.gov. Graph titled: ``Reservoir Storage as Percent of 
Capacity for April 1st, Water Year 2013.''
    \5\ Denver Water, the city's water utility, enacted drought water 
rules as of April 1, 2013. http://www.denverwater.org/Drought/
WateringTimes/. Other utilities in the Denver metro area have enacted 
similar restrictions.
    \6\ Ibid at 4.
---------------------------------------------------------------------------
    A dependable water supply is extremely important for both energy 
and water management. When drought makes that water less-than-
dependable, the reliable information on weather and climate provided by 
NOAA and NIDIS allows decision makers to make better informed plans for 
both energy and water management.

THE IMPORTANCE OF ENHANCED DROUGHT PREPAREDNESS THROUGH REAUTHORIZATION 
                                OF NIDIS

    Western Governors strongly support the reauthorization of NIDIS and 
believe the ``Drought Information Act of 2013'' (S. 376) is a good 
vehicle to achieve that goal. Without the resources in NIDIS, the 
entire nation would take a step back in terms of the access to fast, 
reliable information for a coordinated and timely response to drought.
    In addition, the regional drought early warning information systems 
that proved successful in the Colorado Basin, the Southeast, and 
California will extend to other regions through NIDIS reauthorization. 
NOAA intends to accelerate efforts to build a fully nation-wide 
integrated drought information system by expanding to critical, 
drought-sensitive areas such as the Midwest, the Pacific Northwest, the 
Missouri Basin, and the Northeast.
    In the West, where a lack of precipitation during winter snowpack 
accumulation can mean reduced water supplies throughout the year, 
monitoring and preparing for drought is particularly important. The 
effects of drought echo through the water and energy management systems 
and into the everyday facets of life, from household chores to the 
ability of a city to accommodate new citizens and build its economy. 
With NIDIS, states can plan for drought and mitigate these and other 
impacts to water and energy management.

                               CONCLUSION

    Thank you to the Committee for this opportunity to provide input. 
Western Governors and WGA stand ready to work with you. Please consider 
WGA a resource as you grapple with drought planning and energy 
management issues.
    We look forward to working with Congress to advance NIDIS 
reauthorization through the legislative process.
                                 ______
                                 
                                Western Resource Advocates,
                                                    April 24, 2013.
Hon. Ron Wyden,
Chair, Senate Energy and Natural Resources Committee, 304 Dirksen 
        Senate Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Energy and Natural Resources Committee, 304 
        Dirksen Senate Building, Washington, DC.
    Dear Senators Wyden and Murkowski:

    In the West, energy and water are inextricably linked; drought 
exacerbates the challenge of meeting the region's water and energy 
demands. Western Resource Advocates works to promote solutions to 
western energy and water challenges, while protecting the West's 
valuable natural resources. Thank you for your leadership in addressing 
these issues of momentous importance to communities in our region.
    Our principal water supply, the Colorado River, provides water to 
nearly 40 million people, irrigates over 5 million acres of cropland, 
and supports over 20,000 MW of energy generation, including both 
hydroelectric dams and thermoelectric power plants. Drought impacts all 
of these sectors, in addition to the environment and tourism and 
recreation-based businesses that depend on the river.
    In addition to short-term drought, long-term climate change 
threatens the availability and reliability of water supplies in the 
Colorado River basin. According to the Bureau of Reclamation's Colorado 
River Basin Water Supply and Demand Study, climate change is projected 
to decrease average annual runoff in the basin by 9%, along with

  <bullet> A projected increase in both drought frequency and duration;
  <bullet> Continued warming across the Basin;
  <bullet> A trend towards drying; and
  <bullet> Increased evapotranspiration and decreased snowpack.\1\
---------------------------------------------------------------------------
    \1\ Bureau of Reclamation. December 2012. Colorado River Basin 
Water Supply and Demand Study: ExecutiveSummary. Available at http://
www.usbr.gov/lc/region/programs/crbstudy/finalreport/index.html.

    Given this challenge, we encourage the federal government to 
support state and local agencies, along with energy and water 
providers, in pursuing win-win solutions, described in greater detail 
below.

1. Federal agencies should fund and promote water management strategies 
        that help communities adapt to short-term drought and long-term 
        climate change, while reducing greenhouse gas emissions
    Water management strategies that mitigate and adapt to climate 
change and drought include urban water conservation, expanded reliance 
on recycled water, and flexible leasing agreements between water users. 
Water use accounts for an estimated 13% of our nation's energy use\2\; 
in Western states, where water is often pumped over long distances 
(e.g., the California State Water Project and the Central Arizona 
Project), that figure is likely to be even higher. Urban water 
conservation can reduce customers' water use, saving the energy used to 
pump, treat, and distribute water, and in the household, to heat water. 
Similarly, treated wastewater or recycled water can reduce the amount 
of energy used to pump and treat potable water supplies to customers. 
Flexible leasing arrangements--often between cities and farmers--can 
protect cities or industrial water users from drought while providing 
reliable income to farmers leasing water.
---------------------------------------------------------------------------
    \2\ Sanders, K. and M. Webber. 2012. Evaluating the energy consumed 
for water use in the United States. Environmental Research Letters, 
Vol. 7.
---------------------------------------------------------------------------
    Specifically, the federal government can support these strategies 
by

  <bullet> Restoring funding to pre-sequestration levels of $24.6 
        million for the Title XVI Water Reclamation and Reuse Program 
        and $30.75 million for the WaterSMART Grants Program, which 
        provides funding to support water and energy efficiency 
        measures pursued by state and local water providers. The 
        WaterSMART and Title XVI programs have been well received and 
        have gone a long way towards building a more resilient, self-
        sufficient and drought-tolerant economy in seventeen western 
        states.
  <bullet> Supporting continued improvements in plumbing codes and 
        standards. Several states, including Georgia, Texas, and 
        California, have adopted more efficient plumbing codes. 
        Updating federal plumbing codes so that they are on par with 
        these state plumbing codes could provide even greater water and 
        energy savings.

2. Legislators and federal agencies should adopt energy policies that 
        accelerate our nation's transition to a more water-and carbon-
        efficient economy
    Water is required to mine natural gas, coal, oil shale, and other 
resources; and for cooling and other processes at thermoelectric power 
plants. Indeed, thermoelectric power plants accounted for 41% of 
freshwater withdrawals in the U.S. In the West, most power plants rely 
on recirculating cooling systems, which withdraw much less water, but 
consume most or all of the water they withdraw. A typical western coal 
plant would consume approximately 540 gallons/MWh of electricity 
produced, while nuclear and combined cycle gas plants would consume 610 
gallons/MWh and 180 gallons/MWh, respectively.\3\ In contrast, most 
energy efficiency measures and many renewable sources of energy, such 
as wind or solar photovoltaic panels, consume no water. Figure 1* 
illustrates the location, fuel source, and water use of power plants in 
six Southwestern states.
---------------------------------------------------------------------------
    \3\ Figures reflect western power plants. Data from U.S. Energy 
Information Administration. 2002. Form 767, Steam- Electric Plant 
Operation and Design Report, Cooling System Information.
    * Figure 1 has been retained in committee files.
---------------------------------------------------------------------------
    Accelerating the transition from carbon-and water-intensive energy 
sources to water-efficient renewables and energy efficiency will reduce 
pressure on western water resources. In the Interior West, clean energy 
policies that have promoted energy efficiency, renewable energy, and a 
transition away from carbon-intensive power plants now save an 
estimated 6.3 billion gallons per year, or enough to meet the annual 
needs of approximately 78,000 households.\4\ Colorado's bipartisan 
Clean Air-Clean Jobs Act passed in 2010 will lead to the retirement of 
900 MW of coal-fired capacity. The resulting water savings will be 
substantial--roughly 5,000 acre-feet (or 1.6 billion gallons) 
annually--enough water to meet the consumptive water needs of 50,000 
water customers in the Denver-Metro area. Similar strategies have been 
proposed by utilities or state legislatures in Arizona and Nevada, and 
will likely lead to future water savings in those states.
---------------------------------------------------------------------------
    \4\ Western Resource Advocates: A Powerful Thirst: Managing the 
Electricity Sector's Water Needs and the Risk ofDrought (2012).
---------------------------------------------------------------------------
    In western states and across the nation, natural gas will likely 
continue to play an important role in the transition to cleaner sources 
of energy. It is critical that--as natural gas is developed--local 
water resources are protected and methane and other greenhouse gas 
emissions are avoided, minimized and mitigated to the maximum extent 
possible.
    Perhaps most important, however, is a federal policy to limit 
greenhouse gas emissions--the primary driver of long-term drought and 
water scarcity in the West.
                                 * * *
    Recent late-season snowfall in Colorado has likely alleviated this 
year's drought conditions, which, just one month ago, appeared dire. 
Basin-wide, however, the Colorado River's major reservoirs are still 
just at 50% of capacity\5\, and drought and long-term climate change 
pose ongoing challenges to western water and energy managers. Today's 
investments in water and energy infrastructure must be resilient to 
potential water shortages for decades to come. It is critical that 
federal policies incentivize measures that help us mitigate and adapt 
to drought and climate change.
---------------------------------------------------------------------------
    \5\ U.S. Bureau of Reclamation. Lower Colorado River operations 
schedule. Available at http://www.usbr.gov/lc/region/g4000/hourly/
rivops.html. Lake Powell is at 47% of capacity; Lake Mead is at 50% of 
capacity, as of April 24, 2013.
---------------------------------------------------------------------------
    We sincerely appreciate your leadership on these vital issues.
                                       Stacy Tellinghuisen,
                              Senior Energy & Water Policy Analyst,
                                               Bart Miller,
                                            Water Program Director,
                                        Western Resource Advocates,
                                         Matthew Niemerski,
                                    Director, Western Water Policy,
                                                   American Rivers.

                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
